<html>
<title> - MEMBER PROPOSALS FOR TAX REFORM</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
                    MEMBER PROPOSALS FOR TAX REFORM

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON SELECT REVENUE MEASURES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 28, 2005

                               __________

                           Serial No. 109-45

                               __________

         Printed for the use of the Committee on Ways and Means




                    U.S. GOVERNMENT PRINTING OFFICE
26-378                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                      COMMITTEE ON WAYS AND MEANS

                   BILL THOMAS, California, Chairman

E. CLAY SHAW, JR., Florida           CHARLES B. RANGEL, New York
NANCY L. JOHNSON, Connecticut        FORTNEY PETE STARK, California
WALLY HERGER, California             SANDER M. LEVIN, Michigan
JIM MCCRERY, Louisiana               BENJAMIN L. CARDIN, Maryland
DAVE CAMP, Michigan                  JIM MCDERMOTT, Washington
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. MCNULTY, New York
PHIL ENGLISH, Pennsylvania           WILLIAM J. JEFFERSON, Louisiana
J.D. HAYWORTH, Arizona               JOHN S. TANNER, Tennessee
JERRY WELLER, Illinois               XAVIER BECERRA, California
KENNY C. HULSHOF, Missouri           LLOYD DOGGETT, Texas
RON LEWIS, Kentucky                  EARL POMEROY, North Dakota
MARK FOLEY, Florida                  STEPHANIE TUBBS JONES, Ohio
KEVIN BRADY, Texas                   MIKE THOMPSON, California
THOMAS M. REYNOLDS, New York         JOHN B. LARSON, Connecticut
PAUL RYAN, Wisconsin                 RAHM EMANUEL, Illinois
ERIC CANTOR, Virginia
JOHN LINDER, Georgia
BOB BEAUPREZ, Colorado
MELISSA A. HART, Pennsylvania
CHRIS CHOCOLA, Indiana
DEVIN NUNES, California

                    Allison H. Giles, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                SUBCOMMITTEE ON SELECT REVENUE MEASURES

                     DAVE CAMP, Michigan, Chairman

JERRY WELLER, Illinois               MICHAEL R. MCNULTY, New York
MARK FOLEY, Florida                  LLOYD DOGGETT, Texas
THOMAS M. REYNOLDS, New York         STEPHANIE TUBBS JONES, Ohio
ERIC CANTOR, Virginia                MIKE THOMPSON, California
JOHN LINDER, Georgia                 JOHN B. LARSON, Connecticut
MELISSA A. HART, Pennsylvania
CHRIS CHOCOLA, Indiana

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                                                                   Page

Advisory of July 13, 2005, announcing the hearing................     2

                               WITNESSES

Bishop, Hon. Timothy, a Representative in Congress from the State 
  of New York....................................................    19
Burgess, Hon. Michael, a Representative in Congress from the 
  State of Texas.................................................    21
Emanuel, Hon. Rahm, a Representative in Congress from the State 
  of Illinois....................................................    15
English, Hon. Phil, a Representative in Congress from the State 
  of Pennsylvania................................................     8
Kucinich, Hon. Dennis, a Representative in Congress from the 
  State of Ohio..................................................    18
Linder, Hon. John, a Representative in Congress from the State of 
  Georgia........................................................    12
Neal, Hon. Richard, a Representative in Congress from the State 
  of Massachusetts...............................................     5

                       SUBMISSIONS FOR THE RECORD

Allen, Nelson, Plano, Texas, letter..............................    36
Anderson, Susan Schroeder, Mountain View, California, statement..    37
Ashley, Ross, Dallas, Texas, statement...........................    38
Brown, Michael, Manchester, Michigan, letter.....................    39
Cain, Herman, New Voters Alliance, Stockbridge, Georgia, letter..    40
Carlson, Timothy, Coalition for Tax Fairness, Arlington, 
  Virginia, letter...............................................    45
Carter, Earl, Huntsville, Texas, statement.......................    46
Cena, Joseph and Dawn Hasegawa, Cupertino, California, letter....    47
Chou, Jeffrey, Foster City, California, letter...................    49
Cole, John, Durham, North Carolina, letter.......................    50
Cornelius, Barbara, Richardson, Texas, letter....................    51
Delore, Eric, Alameda, California, letter........................    51
Doherty Family, Chantilly, Virginia, statement...................    53
Donnie, Rol, Houston, Texas, statement...........................    54
Emery, Charles, Aiken, South Carolina, statement.................    54
Faruque, Mohammad, Chandler, Arizona, letter.....................    55
Frank, Kevin, Cary, North Carolina, letter.......................    56
Frisoli, Scott, Chicago, Illinois, statement.....................    57
Galitzer, Shari, Madison, Wisconsin, letter......................    57
Ganu, Sunil, Santa Clara, California, statement..................    57
Garcia, Liles and Naomi, Aloha, Oregon, letter...................    58
Garilee, Leonard, Southbury, Connecticut, letter.................    59
Garner, Mark, Paso Robles, California, letter....................    59
Ghazouli, Hisham, Redwood City, California, letter...............    60
Gorokhov Family, Germantown, Maryland, statement.................    61
Guthrie, Duane, Allen, Texas, letter.............................    62
Hartley, Angela, San Diego, California, statement................    62
Hernandez, Kathryn, La Canada Flintridge, California, letter.....    63
Kadillak, Tony, New York, New York, letter.......................    63
Keen, Todd, Westminster, Massachusetts, statement................    64
Kempster, Beatrice, Lakeland, Florida, letter....................    65
Kirby, Daniel, Pensacola, Florida, statement.....................    66
Korte, Robert, Scottsdale, Arizona, letter.......................    67
Lachman, Hans, Mountain View, California, letter.................    68
Lacy, Leroy and Janis Purl, Ben Lomond, California, letter.......    69
Lapaglia, John, Hutto, Texas, letter.............................    70
Linbeck, Leo, Americans for Fair Taxation, Houston, Texas, 
  statement......................................................    71
Marx, Gerald, San Diego, letter..................................    76
Masters, Timothy, Boca Raton, Florida, letter....................    77
May, Steven, Austin, Texas, letter...............................    79
Mazingo, Steve, Fallbrook, California, letter....................    80
McCaul, The Hon. Michael, a Representative of Congress from the 
  State of Texas.................................................    81
Miller, Arthur and Rita, Catonsville, Maryland, letter...........    81
Montgomery, Nield, Las Vegas, Nevada, letter.....................    83
Pang, Kimhoe, Cupertino, California, letter......................    85
Peed, Kimball, Newnan, Georgia, letter...........................    85
Pessemier, Bob and Susan, Issaquah, Washington, letter...........    86
Pintner, Steven and Danna, Sunnyvale, California, letter.........    86
Price, The Hon. Tom, U.S. House of Representatives, State of 
  Georgia, statement.............................................    87
Pritikin, Joshua, Santa Barbara, California, statement...........    88
Rassmussen, Kristina, National Taxpayers Union, Alexandria, 
  Virginia, letter...............................................    88
Reform AMT, Foster City, California, statement...................    89
Richards, Robert, Abilene, Texas, statement......................    91
Rinehardt, William, Allen, Texas, letter.........................    91
Ross, Dr. Terry, Austin, Texas, letter...........................    93
Schrepel, Tom, Excelsior, Minnesota, letter......................    94
Sheldon, Joe, Huntington Beach, California, statement............    95
Speltz, Ron, Eli, Iowa, letter...................................    97
Steere, Jonathan, Leonardtown, Maryland, statement...............    97
Strick, Mike, Seattle, Washington, statement.....................   100
Sullivan, Michael, Santa Cruz, California, letter................   100
Szturma, Shawn, Somerville, Massachusetts, letter................   101
Tabor, William Donald, Chesapeake, Virginia, letter..............   101
Tadros, Paul, Kirkland, Quebec, Canada, statement................   103
Terpening, Ed, Redwood City, California, letter..................   106
Thayer, Heather, Atascadero, California, letter..................   107
Thompson, Phillip, Shoreview, Minnesota, letter..................   107
Timmons, Susan, Tewksbury, Massachusetts, letter.................   109
Toth, Daniel, Batavia, Illinois, letter..........................   109
Vasatura, Ronald, Winnetka, Illinois, letter.....................   110
Wertheim, Michael, Oakland, California, statement................   111


                    MEMBER PROPOSALS FOR TAX REFORM

                              ----------                              


                        THURSDAY, JULY 28, 2005

             U.S. House of Representatives,
                       Committee on Ways and Means,
                   Subcommittee on Select Revenue Measures,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:00 a.m., in 
room 1100, Longworth House Office Building, Hon. Dave Camp 
(Chairman of the Subcommittee) presiding.
    [The advisory announcing the hearing follows:]

ADVISORY FROM THE COMMITTEE ON WAYS AND MEANS

                SUBCOMMITTEE ON SELECT REVENUE MEASURES

                                                CONTACT: (202) 225-1721
FOR IMMEDIATE RELEASE
July 13, 2005
SRM-4

                       Camp Announces Hearing on

                    Member Proposals for Tax Reform

    Congressman Dave Camp (R-MI), Chairman, Subcommittee on Select 
Revenue Measures of the Committee on Ways and Means, today announced 
that the Subcommittee will hold a hearing on various tax reform 
proposals by Members of the U.S. House of Representatives. The hearing 
will take place on Thursday, July 28, 2005, in the main Committee 
hearing room, 1100 Longworth House Office Building, beginning at 10:00 
a.m.
      
    Testimony will be received from Members of Congress alone during 
the hearing. However, any individual or organization not scheduled for 
an oral appearance may submit a written statement for consideration by 
the Subcommittee and for inclusion in the printed record of the 
hearing.
      

BACKGROUND:

      
    On January 7, 2005, President Bush established the Advisory Panel 
on Federal Tax Reform. The Panel has been holding hearings throughout 
the country to solicit the opinions of leading experts, academics, and 
practitioners on reforming the Tax Code. Recognizing the burden imposed 
by the current Federal Tax Code in terms of compliance and growth 
incentives, the President's stated goal is to explore options to reform 
the Tax Code to make it simpler, fairer, and more pro-growth. The Panel 
is expected to report to the Secretary of the U.S. Department of the 
Treasury by September 30, 2005.
      
    More than 14,000 changes have been made to the Tax Code since the 
last major reform effort in 1986. The Tax Code imposes economic 
distortions that cost the U.S. economy as much as 50 cents for every 
additional dollar raised, and causes taxpayers to waste 3.2 billion 
hours and as much as $100 billion complying with an increasingly 
complex system.
      
    On June 8, 2005, the full Committee held the first in a series of 
hearings on tax reform. That hearing focused on the broad overview of 
the principle economic objectives of tax reform, including fairness, 
simplicity, and impacts on growth.
      
    In announcing the hearing, Chairman Camp stated, ``As the Committee 
begins to review the formal recommendations of the President's Advisory 
Panel on Federal Tax Reform, the Subcommittee will examine how reform 
proposals made by Members of Congress may satisfy the President's 
objectives of fair, simple, and growth-oriented tax reform.''
      

FOCUS OF THE HEARING:

      
    The focus of the hearing will be to examine proposals made by 
Members of the U.S. House of Representatives that satisfy the 
President's objectives of fair, simple, and growth-oriented tax reform.
      

DETAILS FOR SUBMISSIONS OF REQUESTS TO BE HEARD:

      
    Requests to be heard at the hearing must be made by telephone to 
Michael Morrow or Kevin Herms at (202) 225-1721 no later than the close 
of business on Friday, July 22, 2005. The telephone request should be 
followed by a formal written request faxed to Allison Giles, Chief of 
Staff, Committee on Ways and Means, U.S. House of Representatives, 1102 
Longworth House Office Building, Washington, D.C. 20515, at (202) 225-
0942. The staff of the Subcommittee will notify by telephone those 
scheduled to appear as soon as possible after the filing deadline. Any 
questions concerning a scheduled appearance should be directed to the 
Subcommittee staff at (202) 226-5911.
      
    Members scheduled to present oral testimony are required to 
summarize briefly their written statements in no more than five 
minutes. The five-minute rule will be strictly enforced. The full 
written statement of each Member will be included in the printed 
record, in accordance with House Rules.
      
    In order to assure the most productive use of the limited amount of 
time available to question witnesses, all Members scheduled to appear 
before the Subcommittee are required to submit 200 copies, along with 
an IBM compatible 3.5-inch diskette in WordPerfect or MS Word format, 
of their prepared statement for review by Members prior to the hearing. 
Testimony should arrive at the Subcommittee office, 1135 Longworth 
House Office Building, no later than Tuesday, July 26, 2005.
      

WRITTEN STATEMENTS IN LIEU OF PERSONAL APPEARANCE:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``109th Congress'' from the menu entitled, ``Hearing Archives'' (http:/
/waysandmeans.house.gov/Hearings.asp?congress=17). Select the hearing 
for which you would like to submit, and click on the link entitled, 
``Click here to provide a submission for the record.'' Once you have 
followed the online instructions, completing all informational forms 
and clicking ``submit'' on the final page, an email will be sent to the 
address which you supply confirming your interest in providing a 
submission for the record. You MUST REPLY to the email and ATTACH your 
submission as a Word or WordPerfect document, in compliance with the 
formatting requirements listed below, by close of business on 
Wednesday, August 31, 2005. Finally, please note that due to the change 
in House mail policy, the U.S. Capitol Police will refuse sealed-
package deliveries to all House Office Buildings. Those filing written 
statements who wish to have their statements distributed to the press 
and interested public at the hearing can follow the same procedure 
listed above for those who are testifying and making an oral 
presentation. For questions, or if you encounter technical problems, 
please call (202) 225-1721.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word or WordPerfect format and MUST NOT exceed a total of 10 pages, 
including attachments. Witnesses and submitters are advised that the 
Committee relies on electronic submissions for printing the official 
hearing record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons, 
and/or organizations on whose behalf the witness appears. A 
supplemental sheet must accompany each submission listing the name, 
company, address, telephone and fax numbers of each witness.
      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://waysandmeans.house.gov.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

                                 <F-dash>

    Chairman CAMP. The hearing of the Subcommittee on Select 
Revenue Measures will come to order. On January 7, 2005, 
President Bush established the President's Advisory Panel on 
Federal Tax Reform. The panel has held ten hearings throughout 
the country to solicit the opinions of leading experts, 
academics, and practitioners on reforming the Tax Code. The 
President's goal is for the panel to explore options to reform 
the Tax Code, to make it simpler, fairer, and more pro-growth. 
The panel is expected to provide recommendations to the 
Secretary of the Treasury by September 30, 2005. The bipartisan 
panel is chaired by former Senators Connie Mack and John 
Breaux, both distinguished former Members of the United States 
Senate Committee on Finance. The panel also includes 
distinguished former members of the government, academia, and 
the business community, including a distinguished former Member 
of the House Committee on Ways and Means, Mr. Bill Frenzel.
    Similar to the bipartisan nature of the President's panel, 
we have a bipartisan panel of Members of the U.S. House of 
Representatives testifying before us today. The composition of 
our witnesses serves as testimony to the fact that both parties 
recognize that the current U.S. tax system is broken and needs 
to be fixed for the benefit of working families. In 
anticipation of the formal recommendations of the President's 
panel in September, the goal of this hearing is to examine how 
tax reform proposals made by Members of the U.S. House of 
Representatives satisfy the President's objectives of simple, 
fair, and growth-oriented tax reform. These topics are among 
the most serious issues Members of the Ways and Means Committee 
will face. I want to welcome our witnesses' and colleagues' 
views as to how we might address them. I now yield to the 
Ranking Member, Mr. McNulty, for a statement.
    Mr. MCNULTY. Thank you, Mr. Chairman. Today's hearing is a 
follow-up to last month's full Committee hearing on the 
economic aspects of tax reform legislation. I welcome each 
Member of the House appearing before the Subcommittee this 
morning. I thank you all for your contributions to the ongoing 
debate on tax reform and look forward to the discussion of your 
proposals. Bipartisan hearings, such as our hearing today, 
provide Members of the Subcommittee with valuable insight into 
the merits of various approaches for improving our tax system. 
The Congress, in a bipartisan manner, needs to press for tax 
simplification as a goal and as a priority. Having said that, I 
would caution against establishing a totally new system of 
assessing and collecting Federal taxes, which raises serious 
questions about fairness and effective tax administration. 
Whether a flat tax, a retail sales tax, or a value-added tax 
(VAT), I suggest that the Subcommittee and the Committee accept 
the offer of the IRS Commissioner to brief the Committee on 
problems his European and other international counterparts have 
shared with him about the serious noncompliance problems they 
face in administering their tax system. In short, Mr. Chairman, 
we should fix any problems that may exist in our Tax Code, not 
throw it out in its entirety. I thank you, Mr. Chairman, and 
yield back the balance of my time.
    Chairman CAMP. Thank you very much. Our panel today 
includes the Honorable Richard Neal, a Member of the Committee, 
and a Member from the State of Massachusetts; the Honorable 
Phil English, a Member of the Ways and Means Committee, from 
the State of Pennsylvania; the Honorable John Linder, also a 
Member of the Committee, from the State of Georgia; the 
Honorable Rahm Emanuel, a Member of the full Committee, from 
the State of Illinois; the Honorable Dennis Kucinich, a 
Representative in Congress from the State of Ohio; the 
Honorable Timothy Bishop, a Representative from the State of 
New York; and the Honorable Michael Burgess, a Representative 
from the State of Texas. As you know, in this Committee, you 
will each have 5 minutes, and we will begin with the Honorable 
Richard E. Neal. We have your written testimony, and if you 
could summarize your testimony for us, we would appreciate it. 
We thank all of you for taking the time to come today, in a 
very busy week, to share your views on fundamental tax reform. 
Mr. Neal?

STATEMENT OF THE HONORABLE RICHARD E. NEAL, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. NEAL. Thank you very much, Mr. Chairman. I just had an 
interesting moment. I have been a constant critic of the 
Alternative Minimum Tax (AMT), and I have just had three of my 
former staffers that are here, as well as my current staff--and 
I have been very fortunate. I have had very competent tax 
advisers who have worked for me. It also tells the story of my 
woe. Three former members of my staff, who are still toiling on 
the Hill, have all worked on this issue, and we are no closer 
to fixing it than we were when they began. Mr. Camp, Mr. 
McNulty, and fellow Ways and Means Members, I want to thank you 
for giving me this opportunity to testify before you today on 
H.R. 2950, the Individual Tax Simplification Act, which I 
introduced last month. As the title implies, my bill is 
designed to attack the overwhelming complexity embedded in our 
Nation's Tax Code.
    Today's Internal Revenue Code contains 1.5 million words, 
hundreds of thousands of which have been added in the last 10 
years alone. As you might guess, those massive additions to the 
Tax Code have not made it easier to fill out a 1040 form. 
Americans now spend more time than ever handling their taxes: 
3.5 billion hours per year, for an average of about 25 hours 
per return. That is more than half of a work week. As a result, 
record numbers of Americans--60 percent--are giving up filling 
out their own tax forms and are instead paying tax preparers, 
at an average cost of between $100 and $150. For many families, 
that represents a full day's wages. Other taxpayers receive 
assistance from volunteer services or from the IRS, leaving 
only a third of taxpayers to file their taxes with no help 
whatsoever. It does not have to be this way. For the past four 
Congresses, I have authored a bill that would streamline the 
Tax Code, and make it more transparent and understandable. 
Crucially, the bill is revenue neutral. My legislation would 
attack three hefty sources of complexity in the Tax Code. 
First, it would enact a paid-for repeal of the AMT. Second, it 
would untangle the mess that we have made of nonrefundable 
personal credits, by instituting uniform phase-outs of credits 
for adoption, children, and education. Third, it would 
streamline the jumble of rates and forms that govern long-term 
capital gains, and replace it, instead, with a simple 38-
percent exclusion.
    Altogether, my bill would wipe out about 200 lines from tax 
reforms, schedules, and work sheets, drastically reducing the 
amount of time needed to file. The AMT alone is estimated to 
add 12 hours to the filing process, and under my bill it would 
disappear. As all of you know, the AMT is not problematic only 
because of its complexity, but because it is a revenue monster 
steadily swallowing up the rest of our Tax Code and shifting an 
ever increasing burden onto the backs of middle-income 
families. At one time, the AMT was a ``class tax,'' levied on 
the wealthiest Americans to ensure that they did not overuse 
certain tax breaks to avoid paying any taxes. Now, it is a 
``mass tax,'' which CRS projects would reach 41 million 
Americans by 2013. By the end of this decade, the majority of 
taxpayers with income between $75,000 and $100,000 will be 
forced to pay the AMT, as will almost all married couples with 
two or more children in that income range. Up to now, Congress 
has employed various stop-gap measures to patch the AMT 
temporarily, but these will not work forever. The problem will 
get worse the longer we allow it to fester, and retaining the 
status quo is really not an option. At the same time, repeal of 
the AMT is expected to cost between $700 billion and $1.1 
trillion over the next 10 years, so repealing the AMT without a 
pay-for would be a fiscally reckless policy.
    My legislation would counterbalance AMT repeal, by placing 
an additional income tax on adjusted gross income exceeding 
$120,000 for joint filers and $90,000 for single taxpayers. The 
rate of that tax would be doubled for income above $150,000 for 
joint filers and $112,000 for single taxpayers. All of these 
thresholds would be indexed to inflation, and the bill requires 
the Secretary of the Treasury to set a rate that makes the bill 
revenue neutral over the first 10 years of its enactment. The 
goal of my bill is to simplify the Tax Code, not to provide a 
tax increase or cut, nor to redistribute wealth. There is no 
responsible way to repeal the AMT and offer a free lunch, and I 
cannot underscore that message more clearly. The numbers simply 
do not add up. We must tackle the AMT repeal, and that requires 
us to make hard choices. My bill attempts to achieve these 
objectives, while balancing fiscal responsibility with equity 
and fairness. Mr. Chairman, Mr. McNulty, simplifying the Tax 
Code is a goal that we all share and we all frequently talk 
about, but it certainly is easier to talk about it than to 
achieve it. I am glad that we are beginning to dialogue once 
again on how we get from here to there. It is going to require 
a lot of cooperation, a lot of bipartisanship, and I am eager 
to join all of you in pursuing these goals. This is the first 
step today. I am glad you are doing this, Mr. Chairman, and I 
hope that this will be a process that we can engage in through 
the coming year as well. Seldom have I been aligned with an 
issue that has drawn more favorable attention to my position 
and less action. Thank you for your time.
    [The prepared statement of Mr. Neal follows:]

    Statement of The Honorable Richard E. Neal, a Representative in 
                Congress from the State of Massachusetts

    Chairman Camp and Ranking Member McNulty, and fellow Ways and Means 
Members, I want to thank you for giving me the opportunity to testify 
before you today on H.R. 2950, the Individual Tax Simplification Act, 
which I introduced last month. As its title implies, my bill is 
designed to attack the overwhelming complexity embedded in our nation's 
tax code.
    Today's Internal Revenue Code contains 1.5 million words, hundreds 
of thousands of which have been added in the last ten years alone. As 
you might guess, those massive additions to the tax code haven't made 
it easier to fill out a 1040 form. Americans now spend more time than 
ever before handling their taxes: 3.5 billion hours per year, for an 
average of about 25 hours per return. That's more than half of a work 
week.
    As a result, record numbers of Americans--sixty percent--are giving 
up on filling out their own tax forms and are instead hiring paid tax 
preparers, at an average cost of between $100 and $150. For many 
families, that represents a full day's wages. Other taxpayers receive 
assistance from volunteer services or from the IRS, leaving only a 
third of taxpayers to file their taxes with no help whatsoever.
    But it just doesn't have to be this way. For the past four 
Congresses, I have authored a bill that would streamline the tax code 
and make it more transparent and understandable. And, crucially, the 
bill is revenue neutral. My legislation would attack three hefty 
sources of complexity in the tax code.

    <bullet>  First, it would enact a paid-for repeal of the 
Alternative Minimum Tax.
    <bullet>  Second, it would untangle the mess that we've made of 
nonrefundable personal credits, by instituting uniform phaseouts of 
credits for adoption, children, and education.
    <bullet>  Third, it would streamline the jumble of rates and forms 
that govern long term capital gains and replace it instead with a 
simple 38 percent exclusion.

    Altogether, my bill would wipe out 200 lines from tax forms, 
schedules, and worksheets, drastically reducing the amount of time 
needed to file. The AMT alone is estimated to add 12 hours to the 
filing process, and under my bill it would disappear.
    As all of you know, the AMT isn't problematic only because of its 
complexity but because it is a revenue monster steadily swallowing up 
the rest of our tax code and shifting an ever-increasing burden onto 
the backs of middle income families. At one time, the AMT was a ``class 
tax,'' levied on the wealthiest Americans to ensure that they did not 
overuse certain tax breaks to avoid paying any taxes. Now it's a ``mass 
tax,'' which CRS projects would reach 41 million Americans by 2013. By 
the end of this decade, the majority of taxpayers with income between 
$75,000 and $100,000 will be forced to pay the AMT, as will almost all 
married couples with two or more children in that income range.
    Up to now, Congress has employed various stopgap measures to patch 
the AMT temporarily, but these won't work forever. The problem will get 
worse the longer we allow it to fester, and retaining the status quo is 
not an option. At the same time, total repeal of the AMT is expected to 
cost between $700 billion and $1.1 trillion over the next ten years, so 
repealing the AMT without a pay-for would be a fiscally reckless 
policy.
    My bill would counterbalance AMT repeal by placing an additional 
income tax on adjusted gross income exceeding $120,000 for joint filers 
and $90,000 for single taxpayers. That rate of that tax would be 
doubled for income above $150,000 for joint filers and $112,000 for 
single taxpayers. All of the thresholds would be indexed to inflation, 
and the bill requires the Secretary of the Treasury to set a rate that 
makes the bill revenue neutral over the first ten years of its 
enactment.
    The goal of my bill is to simplify the tax code, not to provide a 
tax increase or cut, nor to redistribute wealth. There is no 
responsible way to repeal the AMT and offer a free lunch; the numbers 
just don't add up. We must tackle AMT repeal, and it will require hard 
choices. My bill attempts to achieve these objectives while balancing 
fiscal responsibility with equity and fairness.
    Mr. Chairman and Mr. McNulty, simplifying the tax code is a goal 
that we all share, but it has always been easier to talk about it than 
to achieve it. I'm glad that we're beginning the dialogue about how to 
get from here to there. It will require a lot of cooperation and a lot 
of work, and I am eager to join my colleagues in pursuing these goals. 
Today's hearing is an excellent first step, and I thank you for the 
opportunity to participate.

                                 <F-dash>

    Chairman CAMP. Thank you very much, Mr. Neal. The Honorable 
Phil English, a distinguished Member of the full Ways and Means 
Committee, you have 5 minutes. Welcome.

 STATEMENT OF THE HONORABLE PHIL ENGLISH, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF PENNSYLVANIA

    Mr. ENGLISH. Thank you, Chairman Camp, Members of the 
Committee, for the opportunity to appear before you today. If I 
could, I would like to submit my full testimony for the record 
and summarize, as is customary in this setting.
    Chairman CAMP. Without objection.
    Mr. ENGLISH. In my view, the American tax system is too 
complicated and riddled with obvious inequities. It punishes 
savings and investment, while reducing economic growth and 
burdening domestic industry, struggling to remain competitive. 
To address these inequities, and because I want to reform the 
American tax system in a way that makes sense to the average 
citizen, I am advocating the Simplified USA Tax Act (SUSAT), 
which I have introduced in previous Congresses and I will be 
reintroducing this coming fall. I am currently in the midst of 
updating several provisions, which have been impacted 
significantly by the many positive tax changes this Committee 
and the Congress have made in recent years. The principles 
which are the pillars of the Simplified USA Tax will remain 
fully intact. Not only do we need a Tax Code that is fair and 
sensible, we need one that is stable. As bad as the current Tax 
Code is--and I am certainly one of its critics--the last thing 
we need to enact is a reform that is so radical and 
experimental that we have to redo it all over again a few years 
hence.
    The new Tax Code I have developed--the Simplified USA Tax, 
or SUSAT--is based on sound and familiar doctrines that are 
easy to understand. It also meets all of the criteria President 
Bush laid out when he created an advisory panel to make 
recommendations to fundamentally change the Code. First, SUSAT 
significantly simplifies the Tax Code and does so by a factor 
by some estimates of about 75 percent. Second, it is 
progressive while it preserves the importance of homeownership 
and charitable giving. Finally--and in my view, most 
importantly--it provides the right incentives for the U.S. 
economy to thrive globally. Although the Joint Committee on 
Taxation (JCT) has never completed a revenue score of SUSAT, it 
was written to be revenue neutral. The USA Tax for individuals 
is simplicity itself, a true minimalist approach that achieves 
a great deal without a lot of complex rules.
    First, the Tax Code must give Americans a fair opportunity 
to save part of their earnings. In my tax reform proposal, USA 
stands for ``unlimited savings allowance.'' Everyone is allowed 
an unlimited Roth IRA in which they can put the portion of each 
year's income they save after paying taxes and living expenses. 
After 5 years, all money in the account can be withdrawn for 
any purposes, and all withdrawals--including accumulated 
interest and other earnings or principal--are tax free. The Tax 
Code must also give everyone the opportunity to keep what they 
save and, if they wish, to pass it along to succeeding 
generations. To that end, my tax reform proposal repeals 
permanently the Federal estate and gift taxes.
    Under the new Tax Code, tax rates must remain low, 
especially for wage earners who now pay both an income tax and 
a FICA payroll tax on the same wage base. The Simplified USA 
Tax starts out with low tax rates--three progressive rates in 
the range of 10 to 25 percent. Then the rates are reduced 
further by allowing wage earners a full tax credit for the 7.65 
percent Social Security and Medicare payroll tax that is 
withheld from their paychecks under current law. I do not 
propose to repeal the payroll tax, but I do allow a credit for 
it. When the credit is taken into account, the rates of tax on 
workers' wages are low indeed. This proposal provides tax 
relief for all Americans, especially those who own their home, 
give to their church, educate their children, and set aside 
some savings for a better future. Under my proposal, everyone 
gets a deduction for the mortgage interest on their home and 
for charitable contributions they make. My proposal also 
contained a new and better way of taxing corporations and other 
businesses that will allow them to compete and win in global 
markets in a way that exports American-made products, not 
American jobs.
    All businesses, corporate and non-corporate, are taxed 
alike at an 8-percent rate on the first $150,000 of profit and 
at 12 percent on all amounts above that small business level. 
All businesses will be allowed a credit for the payroll tax 
they pay under current law. All costs for plant, equipment, and 
inventory will be expended into the year of purchase. If they 
are to survive and prosper, American manufacturers must make 
big-dollar purchases of capital goods, but they need the lower 
cost and financing help that first-year expensing provides. 
Another key element on the business side is the way income 
earned outside of our borders is taxed. What we need to move 
toward--and what SUSAT embodies--is a system that does not tax 
foreign-source income on a worldwide basis or export sales of 
American-made products and services. The absence of some type 
of border tax adjustments for exports of American-made goods to 
correspond to the export rebates under foreign countries' 
value-added tax systems puts our businesses--manufacturers and 
eventually service providers--at a serious disadvantage.
    Under SUSAT, all export sales income is exempt, as is all 
other foreign-source income, and all profits earned abroad can 
be brought back for reinvestment in America without penalty. In 
conclusion, the Simplified USA Tax is a hybrid of the others we 
often hear about. The plan combined the great strengths of 
other mainstream tax proposals and, most importantly, it does 
not contain their individual weaknesses. For too long the Tax 
Code has been a needless drag on the economy. This is 
unproductive as a national policy. More importantly, it is 
unfair to those Americans whose living standards are lower 
because of it. I thank you, Mr. Chairman and Members of the 
Subcommittee, for the opportunity to testify.
    [The prepared statement of Mr. English follows:]

 Statement of The Honorable Phil English, a Representative in Congress 
                     from the State of Pennsylvania

    Thank you Chairman Camp, Members of the Committee, for the 
opportunity to appear before you today. The American tax system is a 
Frankenstein's monster that haunts individual taxpayers while casting a 
cold shadow over the productive sectors of the U.S. economy. It is too 
complicated, and riddled with obvious inequities. It punishes savings 
and investment, while reducing economic growth and burdening domestic 
industry struggling to remain competitive.
    To address these inequities and because I want to reform the 
American tax system in a way that makes sense to average citizens, I am 
advocating the Simplified USA Tax Act, which I have introduced in 
previous Congresses. I will be reintroducing the proposal this coming 
fall; I am currently in the midst of updating several provisions which 
have been impacted by the many positive tax changes this Committee and 
the Congress have made in recent years. But the principles which are 
the pillars of the Simplified USA Tax will remain fully intact. Not 
only do we need a tax code that is fair and sensible, we need one that 
is stable. As bad as the current tax code is--and I am certainly one of 
its critics--the last thing we need is to enact some reform that is so 
radical and experimental that we have to redo it all over again a few 
years later.
    The new tax code I have developed--the Simplified USA Tax Act or 
``SUSAT''--is based on sound and familiar doctrines that are easy to 
understand. It also meets all of the criteria President Bush laid out 
when he created an advisory panel to make recommendations to 
fundamentally change the tax code. First, SUSAT significantly 
simplifies the tax code--and does so by a factor of 75 percent; second, 
it is progressive while it preserves the importance of homeownership 
and charitable giving; and finally--and in my view, most importantly--
provides the right incentives for the U.S. economy to thrive globally. 
Although the Joint Committee on Taxation had never completed a revenue 
score of SUSAT, it was written to be revenue neutral.
Taxing Individuals
    The USA Tax for individuals is simplicity itself; a true minimalist 
approach that achieves a great deal without a lot of complex rules. In 
addition to providing a simple way to calculate taxes, the USA Tax 
brings several key reforms to the table.
    First, the tax code must give Americans a fair opportunity to save 
part of their earnings. Thrift has helped provide Americans the 
security and independence that is the foundation of freedom. Savings 
buys the tools to make Americans more productive. Productivity raises 
our living standards to the highest in the world.
    In my tax reform proposal, ``USA'' stands for unlimited savings 
allowance. Everyone is allowed an unlimited Roth IRA in which they can 
put the portion of each year's income they save after paying taxes and 
living expenses. After five years, all money in the account can be 
withdrawn for any purpose and all withdrawals--including accumulated 
interest and other earnings or principal--are tax free. Nothing could 
give the people a better opportunity to save; especially young people. 
Because only new income earned after enactment of the Simplified USA 
Tax can be put in the USA Roth IRA, young people starting to move into 
their higher-earning years are the ones who will benefit the most for 
the longest time.
    The tax code must also give everyone the opportunity to keep what 
they save and, if they wish, to pass it along to succeeding 
generations. To that end, my tax reform proposal repeals the federal 
estate and gift taxes.
    Under the new tax code, tax rates must be low; especially for wage 
earners who now pay both an income tax and a FICA payroll tax on the 
same amount of wages. The Simplified USA Tax starts out with low tax 
rates--three progressive rates in the range of 10 percent to 25 
percent. Then, the rates are reduced even further by allowing wage 
earners a full tax credit for the 7.65 percent Social Security and 
Medicare payroll tax that is withheld from their paychecks under 
current law. I do not propose to repeal the payroll tax, but I do allow 
a credit for it and when the credit is taken into account, the rates of 
tax on workers' wages are very low indeed.
    The Simplified USA Tax provides tax relief for all Americans, 
especially those who own their home, give to their church, educate 
their children and set aside some savings for a better tomorrow. Under 
my proposal, everyone gets a deduction for the mortgage interest on 
their home and for charitable contributions they make. In addition--and 
this is brand new and long overdue in my opinion--the USA plan allows a 
deduction for tuition paid for college and post-secondary vocational 
education. The annual limit is $4,000 per person and $12,000 for a 
family. Generous personal and family exemptions are also allowed under 
my proposal.
    The Simplified USA Tax is simplicity itself. The tax return will be 
short, only a page or two for most of us, but more to the point, the 
tax return will be understandable. For the first time in a very long 
time, America's tax system will make sense to the citizens who file the 
tax returns and pay the taxes. Since inception of the federal income 
tax, Americans will have a full and fair opportunity to save whatever 
portion of their income they wish and for whatever purpose they wish. 
For the first time, working people will be allowed a credit for the 
payroll tax they pay, and also for the first time, families will have 
generous tax-free allowance for the education of their children.
Taxing Businesses
    My proposal also contains a new and better way of taxing 
corporations and other businesses that will allow them to compete and 
win in global markets in a way that exports American-made products, not 
American jobs. I have studied this issue and believe that, if enacted 
in America, this approach to business taxation will soon become the 
worldwide standard to which other countries aspire.
    All businesses--corporate and non-corporate--are taxed alike at an 
8 percent rate on the first $150,000 of profit and at 12 percent on all 
amounts above that small business level. All businesses will be allowed 
a credit for the payroll tax they pay under current law.
    All costs for plant, equipment and inventory will be expended into 
the year of purchase. This is a major departure from our current, and 
frankly archaic, depreciation system, but a crucial element of the 
Simplified USA Tax. If they are to survive and prosper, American 
manufacturers must make big-dollar purchases of capital goods, but they 
need the lower cost and financing help that first-year expensing 
provides. If American manufacturers have state-of-the-art machinery and 
equipment, they will not only create high-paying jobs, they will be 
able to compete effectively with low-cost producers outside of the U.S.
    In the year 2002, Congress enacted a 30% expensing allowance 
followed by a 50% allowance stopped which reversed a two-year decline 
in capital spending that was one of the worst in history. Every 
economic principle and every piece of data tells us that first-year 
expensing must be a major component of fundamental tax reform because 
it directly translates into high-paying manufacturing jobs and 
decreases the cost-of-capital.
    Another key element of the business side of the Simplified USA Tax 
is the way income earned outside of our borders is taxed. What we need 
to move towards--and what SUSAT embodies--is a system that does not tax 
foreign-source income on a worldwide basis or export sales of American-
made products and services. The absence of some type of border tax 
adjustments for exports of American-made goods to correspond to the 
export rebates under foreign countries' Value Added Tax systems puts 
our businesses--manufacturers and eventually service providers--at a 
severe disadvantage. If anyone doubts the disadvantage American 
exporters are faced with, they ought to look at our trade deficit of 
astronomical proportions.
    Under SUSAT, all export sales income is exempt, as is all other 
foreign-source income, and all profits earned abroad can be brought 
back home for reinvestment in America without penalty. Because of a 12 
percent import adjustment, all companies that produce abroad and sell 
back into U.S. markets will be required to bear the same tax as 
companies that both produce and sell in the U.S.
Conclusion
    The Simplified USA Tax is a hybrid of the others we often hear 
about. This plan combines the biggest strengths of other mainstream tax 
proposals and most importantly, it does not contain their weaknesses. 
For too long the tax code has been a needless drag on the economy. This 
is unproductive as a national policy and more importantly, is unfair to 
those Americans whose living standards are lower because of it. For 
years, its complex inanities have been the object of ridicule. It is 
also the ultimate source of bureaucratic excess that is inconsistent 
with a free society. It is high time that we restore people's faith in 
the integrity and competence of their tax system and, in the process, 
take a major step toward restoring people's confidence in the good 
character of their government.
    Thank you Chairman Camp, and Members of the Committee for the 
opportunity to testify.

                                 <F-dash>

    Chairman CAMP. Thank you, Mr. English. Now, the Honorable 
John Linder of Georgia, who is also a Member of the Select 
Revenue Measures Subcommittee, you have 5 minutes.

  STATEMENT OF THE HONORABLE JOHN LINDER, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. LINDER. Thank you, Mr. Chairman, and Members of the 
Committee. My bill, H.R. 25, the FairTax, would abolish all 
taxes on income of any source, and tax only personal 
consumption at the retail checkout. It gets rid of the 
corporate income tax, the personal income tax, the payroll tax, 
which is the largest tax, three-fourths of us pay. It gets rid 
of the AMT on a revenue neutral basis, the gift tax, the estate 
tax, for the retail sales tax. It is simple, replaces 60,000 
pages with 132 pages. It is fair. It untaxes everyone up to the 
poverty level spending, totally--as the Tax Commission said, it 
is the only proposal that totally untaxes the poor. It is 
voluntary. You pay taxes when you choose, as much as you 
choose, by how you choose to spend. It is transparent. Instead 
of having a 22 percent hidden tax on everything, we pay for 
now--that is the Harvard study, 22 percent of the price system 
represents the tax component--you will see on your receipt for 
that loaf of bread exactly how much you paid the government. It 
is border neutral. It treats imports exactly the same as our 
domestic competition. Imports coming from China would be taxed 
23 cents in a General Agreement on Tariffs and Trade (GATT)-
compliant, World Trade Organization (WTO)-compliant way. It is 
industry neutral. We should not be charging the guy down the 
street--or putting the guy down the street who sells books at a 
disadvantage to amazon.com. That is a huge problem for States 
losing collections to Internet catalogue sales. It strengthens 
Social Security by going from 158 million payers to 296 million 
citizens and 51 million visitors to our shores every time they 
buy something.
    Mr. Chairman, there are several economic forces that are 
driving us toward this. The 22 percent tax component of the 
price system makes us less than competitive. We spend $400 to 
$500 billion a year complying with this Code. That is like 
paying for a dead horse. That produces no jobs, produces no 
wealth. We have driven into the underground economy, not 
participating in our tax system, between $1.5 and $3 trillion, 
and the more complex we get, the easier it is to go 
underground, and the more difficult it is to be found. We have 
driven in dollar-denominated deposits in offshore financial 
centers $10 trillion. Ten trillion dollars not in our markets. 
If we are to get rid of the IRS and all taxes on income, all of 
those would be fixed. There is simply no way to fix any of them 
by nibbling around the edges of the current system. Why do we 
want $10 trillion back in our economy, in our markets? If it 
were to come, we would eliminate all of the pension problems 
every major corporation has because the markets would be driven 
up. We have two market managers, whose names you would 
recognize, who have looked at this and said, ``I don't know 
what the Dow Jones would be at when this becomes effective, but 
in 2 years, it will have doubled.''
    Now, let me tell you something that this does that no one 
ever thinks about. We have never taxed wealth in this country. 
We tax wages, and people who are living on their wages have no 
latitude to adjust the way they live. People living on wealth 
can do it. If you recall, Mrs. Heinz Kerry had to disclose how 
much revenue she had in 2003 during the campaign. It was $6.1 
million. She paid a 12 percent tax, and likely paid nothing 
into Social Security or Medicare because she had no earned 
income. Ross Perot put $3.5 billion from the sale of his 
company into municipal bonds, paid nothing in taxes and had no 
earned income, paid nothing into Social Security. It is likely 
that Bill Gates spends $10 million a year personally. He 
probably pays nothing into Social Security because he has no 
earned income. Under our system, he would pay $800,000 into 
Social Security and Medicare, 8 percent of that would go into 
Social Security and Medicare.
    We need to get off the system of taxing wages, and start 
thinking about taxing wealth. We believe that people who earn 
more spend more, and people who spend more will contribute more 
to the tax system. We will have many contributions to charities 
even if it is not deductible. The American people gave $43 
billion to charities in 1980, when the value of a charitable 
contribution at the margin was 70 percent. In 1988, when the 
value was 28 percent, they gave $88 billion. The great fortunes 
that have been given away in this country, the Goulds, the 
Fricks, the Carnegies and Mellons, were given away before 1913. 
People with lots of money give lots of money away. Under our 
system, the average income earner is going to have a 50-percent 
increase in take-home pay. They will have money in their 
pockets, and they will be able to afford to give to charity. 
Mr. Chairman, thanks for this opportunity. I stand ready to 
take any questions you might have.
    [The prepared statement of Mr. Linder follows:]

 Statement of The Honorable John Linder, a Representative in Congress 
                       from the State of Georgia

    Mr. Chairman, Ranking Democratic Member McNulty, and Members of the 
Subcommittee, I appreciate having the opportunity to testify today.
    IRS bashing has become a sport in this country. Whenever I mention 
the possibility of abolishing the IRS at a town hall meeting, I'm 
greeted with thunderous applause. And while I know that we can all 
recite the horror stories of overzealous IRS agents or unhelpful and 
unknowledgeable IRS staff, I think that it is important that we as 
Members of Congress accept our role in making the IRS frightening and 
the tax code loathsome.
    There are numbers that we can all quote by heart--more than 14,000 
changes since 1986, 10 million words of code and regulation, 6.6 
billion hours each year to comply, 60% of Americans forced to use 
professional tax preparers--and these are not the fault of the IRS 
bureaucracy. Rather, responsibility for these numbers--numbers that 
would be laughable if not so painful--lies squarely with you and me. I 
congratulate the Chairman for holding this hearing as an important step 
in accepting responsibility for our errant past and charting a new 
course for the future.
    I think that there is a real debate in Congress about what taking 
responsibility for this tax morass means. There are those who believe 
that the responsible thing is to leave in place our current system--a 
system literally tried and tested over 90-plus years of frustration, 
arbitration, litigation and incarceration--and to limit it to impacting 
as few people as possible. This is a very easy and very doable path, 
and while the monster that is the income tax code will remain in place, 
we could limit it to feeding on as few citizens as possible. Simply 
raising the floor of the AMT and eliminating tax returns for most 
Americans would address constituent ire. Going one step further and 
eliminating all personal income taxes in favor of higher taxes on big 
business and capital might be even more popular. Again, these are 
relatively easy changes.
    Mr. Chairman, the point that I would like to make today is that 
``easy'' is not necessarily ``better.'' I would argue that if we take 
this historic opportunity to reform our system of taxation and we do 
something ``easy'' then we are not accepting the mantle of 
responsibility for our past failings and in fact we are simply passing 
the buck and failing once again.
    I certainly believe that one of our goals should be to make paying 
taxes easy, but it is but one of our goals. We must lift the foot of 
our tax system off of the neck of our economy and free the American 
worker and the American consumer.
    To be competitive in international markets, we must have a border-
adjustable tax system. How long has the Ways and Means Committee worked 
to provide some measure of relief from this burden for American 
companies doing business abroad? DISC . . . FSC . . . ETI . . . the 
list of acronyms that have tried and failed to address this issue is 
long. For more than 30 years we have tried these band-aid solutions to 
a problem that we know is real. The FairTax--for the first time--will 
heal this economic wound fully and permanently.
    The FairTax is the only Congressional proposal that abolishes 
corporate taxes. For too long, the costs and complexities of the tax 
code have been levied on business, which simply hides the burden in 
higher prices for American consumers. Not only do these hidden taxes 
burden American goods as we try to compete in international markets but 
they also hide the true cost of government from American consumers here 
at home.
    The FairTax also removes the highly regressive and hidden payroll 
tax from both workers' paychecks and the price of goods. Not only is 
the payroll tax doomed to failure as a funding mechanism for Social 
Security and Medicare, but it stands as the largest tax that Americans 
pay. How can we claim to tackle the burdens and complexities of the 
American tax code if we fail to address the largest tax that Americans 
pay? The answer is that we cannot, and yet the FairTax is the only 
major piece of legislation that takes on this challenge.
    Just last week, the President's Advisory Panel on Tax Reform, with 
the help of the Treasury Department, concluded that the FairTax is the 
only reform proposal that completely untaxes the poor. I want to say 
that again: The FairTax is the only reform proposal that completely 
untaxes the poor. Today, we use exemptions and deductions, we use cash 
payments in the form of the fraud-riddled earned income tax credit, and 
we still fail to provide the opportunity society that we've promised to 
low-income Americans. For the first time, the FairTax fulfills this 
promise. Even more, it ends the punishment of American workers as they 
struggle to climb the ladder of success.
    The CBO reported in March--as it does every March--about where the 
burden of Federal taxation falls. The CBO found, as it has every year 
since it began tracking these numbers in 1979, that while the effective 
income tax rate on the poor is actually negative the effective payroll 
tax on those same Americans is incredibly high. In fact, we have so 
manipulated the income tax code in this country that it is only those 
Americans with the highest quintile of incomes--those at $175,000 and 
higher--who pay more in income taxes than payroll taxes. For the other 
four quintiles--80% of all Americans--the payroll tax burden is higher 
and larger than the income tax burden. It is simply folly to discuss 
tax reform without discussing this burden, and yet the FairTax is the 
only major reform proposal that does.
    The reports above make it clear that a personal consumption tax of 
23% is more favorable to working Americans than the current 10% or 15% 
income tax that is filled with credits and exemptions designed by 
Washington to make their lives better. The demagogues are always 
available to exacerbate the confusion. I expect that we might even hear 
some of that today. While the motive of some might be to confuse, 
others simply are confused, and who can blame them? The current system 
with its cascading taxes hidden at every level of income and 
consumption denies Americans that opportunity to understand exactly 
what their tax burden is. The FairTax by design ends the deception.
    An interesting part of my experience promoting this bill has been 
responding to myriad calculations of what the rate of the FairTax would 
need to be. All sorts of outlandish numbers have been calculated 
including one of nearly 60% by the Joint Tax Committee some number of 
years ago. I confess that these erroneous guesstimates used to be very 
frustrating to me, but now I simply use them to make my point. You see, 
I don't care what the rate has to be for revenue neutrality. The math 
is what it is. I value the transparency and the efficiency of removing 
all of the hidden taxes and having the complete tax figure available 
for all Americans to see. With a near zero percent savings rate in this 
country, consumption and income by definition are the same thing . . . 
so if a detractor calculates that a revenue neutral FairTax rate would 
actually be 60%, by definition the current tax rate on all of America--
when you pull all the hidden taxes together into one place--must also 
be 60%. If I spend everything that I earn, and the tax man needs 60 
cents out of every dollar that I spend, in the alternative he would 
also need 60 cents out of every dollar that I earn. I ask that you take 
this point to heart as this Committee continues this process.
    Transparency, border-adjustability, simplicity, and progressivity 
are all found in the FairTax. With a 600,000 member (and growing) 
grassroots organization on the ground in every state in America, the 
FairTax has amassed more cosponsors--both this Congress and last--than 
any other piece of fundamental tax reform legislation. It has been the 
subject of Committee hearings and has been poked and prodded by 
economists from the left and the right. I appreciate the opportunity to 
testify about the FairTax again today, and I look forward to working 
with the Subcommittee to make this bill a reality.
    Thank you, Mr. Chairman.

                                 <F-dash>

    Chairman CAMP. Thank you, Mr. Linder. Now, the Honorable 
Rahm Emanuel, a distinguished Member of the full Committee, 
from Illinois.

 STATEMENT OF THE HONORABLE RAHM EMANUEL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. EMANUEL. Thank you, Mr. Chairman. I have introduced the 
Middle-Class Tax Fairness Act. Now, in my district office, I 
run--between January 1st to April--tax clinics, helping folks 
fill out the tax forms that we have. We have a tax assistance 
program for them, and over 1,000 families have benefited from 
it. What the problem is, because of the complexity of the Code, 
related specifically to achieve the American dream, we have to 
literally help people get, whether it is the earned income tax 
credit, the education deduction, the type of dollars that we 
have said are important to achieve in their life. So, what I 
have tried to do here is take the buying of a home, education 
of a child, raising a child, and saving for retirement, the 
basic pillars of a middle-class life, and simplify the Code as 
it relates to that part of the Code, as it penalizes, I think, 
middle-class families accomplishing the American dream. Just in 
the last 4 years, we have added 10,000 pages to the Code. One 
would think that the complexity is done by design in that 
effort. So, let's take it and try to knock these off real 
quickly. I know you have questions, and I know we have other 
Members here who want to speak.
    The college tax credit. In that area we have five different 
types of deductions that exist in the Code, and depending on 
how you want to look at it, some think it is as high as nine. 
We would simplify that and take it down--and, actually, it 
takes 85 pages of notes and a booklet on how to fill out the 
IRS tax portions as it relates to higher education, going to a 
college, or a community school--85 pages to analyze what you 
have to do to fill it out just to get one deduction, whether it 
is a lifetime learning, the HOPE scholarship, et cetera. So, we 
would simplify it with a $3,000 credit for 4 years of college 
or 2 years of graduate school, and it cuts the instruction book 
in half and simplifies the paperwork.
    The home mortgage deduction. Presently, about 31 million 
Americans get the home mortgage deduction, those people who 
itemize. There are 10 million Americans who pay a mortgage, who 
make $50,000 or less, who do not get the deduction. Allow every 
American who owns a home to get the mortgage deduction, 
regardless of whether you itemize or not. So, simplify the home 
mortgage deduction by making it universal.
    Taking the raising of a child, we have the earned income 
tax credit, we have the per-child deduction, and we have the 
dependent care. Make it the simplified family credit. It takes 
200 pages of the Code down to 12 questions. The portion of 
raising a child and what you would have to do to fill out all 
of those different forms, with different definitions of what a 
child is, reduce that down to 12 questions and help the 
families who are making somewhere between $14,000 a year and 
$30,000 a year, not having a dependency and not living on 
welfare, chose work, simplify the Code as it relates to raising 
a child. Then, lastly, retirement, and although we are dealing 
with this issue in the Social Security debate and in the non-
Social Security retirement area. In the last 30 years, the 
Congresses have added 16 separate provisions to help people 
save for retirement, and yet, America's saving in the same time 
has gone from 10 percent down to less than 1 percent. Clearly, 
what we are doing as it relates to the Tax Code is not working. 
We have given everybody different definitions from IRA to super 
IRA to Roth IRAs, and so forth, and it is not adding to 
America's saving or people participating. Doing more of the 
same and expecting a different result will only waste dollars.
    So, it takes all the different forms of saving for your 
retirement and makes it a universal pension for all Americans. 
What you would do is basically reduce the alphabet soup. Every 
taxpaying American would be able to open up a universal pension 
at the age of 21. Contribution limits would track those of the 
IRA, $4,000 in 2005. For 80 percent of all the small business 
employees who don't have either a 401(k), they would be able to 
contribute an extra $10,000 annually. There is one other key 
advantage to the universal pension. When people switch jobs, 
usually because of the complexity of the 401(k), a lot of 
people who have saved some money end up cashing out and taking 
their money out of their retirement. This automatically 
transfers, if you move jobs, your 401(k) into the universal 
pension, so you don't lose anything. It eliminates the 
paperwork and the chance that they will cash out their 
retirement.
    Finally, the universal pension would work seamlessly with 
an expanded and a refundable saver's credit that we have also 
proposed, some of us, in the debate on retirement security. 
Individuals earning up to $30,000 and married couples up to 
$60,000, would get a flat 50 percent credit for contributions 
up to the first $2,000. So, from retirement, buying a home, 
raising a child, or sending that child to college, all pillars 
that make the American dream possible, we would simplify the 
Tax Code and bring economic opportunity to more and more 
Americans. Last, I would say as a Democratic principle--and I 
know I have 20 seconds here left--the President, when he 
outlined his tax reform commission, he said he wanted this to 
be revenue neutral. That was his principle. I think for myself, 
I can speak for myself. My principle is this should be revenue 
neutral for the middle class. Any tax reform should not raise 
taxes on the middle class. That is our goal, not what it does 
to the government but what it does to the middle class 
families. This would help people not only achieve the American 
dream, but it would also help us grow the economy. Thank you.
    [The prepared statement of Mr. Emanuel follows:]

 Statement of The Honorable Rahm Emanuel, a Representative in Congress 
                       from the State of Illinois

    Mr. Chairman,
    Thank you for the opportunity to testify before the Select Revenue 
Measures Subcommittee on my tax reform proposal, the Middle-Class Tax 
Fairness Act.
    This proposal will help middle-class families realize the American 
Dream by making the tax code simpler and fairer in four distinct areas: 
buying a home, raising children, sending them to college and saving for 
retirement.
    In the last four years, 10,000 new pages have been added to the tax 
code, most of them adding new tax breaks for special interests. Our tax 
system is needlessly complicated and burdensome to the middle class. It 
is long past time for fundamental tax reform that restores equity to 
the tax code for middle-class families.
    When President Bush announced his Advisory Panel on Tax Reform 
earlier this year, he said his core principle was that it should be 
revenue-neutral.
    I believe the core principle of tax reform should be that it does 
not increase taxes on the middle class and makes the code simpler and 
fairer.
    Part of the Middle-Class Tax Fairness Act combines all the higher 
education tax credits into one simple and progressive Simplified 
College Tax Credit. Nowhere is the need for tax reform more urgent than 
in the area of education incentives. As USA Today wrote, ``Want to save 
for education? Fantastic, but you had better be on good terms with your 
accountant.''
    Part of this legislation will make it much easier--and much less 
expensive--for middle class parents to send their kids to college. The 
Simplified College Tax Credit combines each of the overlapping and 
confusing higher education tax credits that exist today into one simple 
and progressive credit.
    Education tax incentives are designed to help families, yet the 
forms and the instructions that accompany them prevent families from 
taking full advantage of these incentives. For instance the IRS 
instruction booklet for the various current education incentives is 85 
pages long. The Simplified College Tax Credit would cut that booklet in 
half.
    The second piece of my proposal is the Simplified Family Credit. 
The Simplified Family Credit will provide meaningful tax relief to 
middle-income families, stimulate the economy and simplify the tax 
code, while delivering these benefits in a fiscally responsible way.
    It does so by condensing the earned income tax credit, child tax 
credit, and additional child credit into one expanded credit. In the 
process, it shrinks 200 pages of tax code down to 12 easy questions.
    The third element of this proposal is a Universal Mortgage 
Deduction that is available to every homeowner, not just to those who 
can afford to itemize deductions. This provision will enable 10 million 
more Americans, most of whom earn $50,000 or less, to deduct the 
interest payments on their mortgages.
    This simple step will help to level the playing field with the 31 
million homeowners who currently take the mortgage interest deduction.
    The fourth and final provision would create a Universal Pension for 
all Americans. During the past thirty years, Congress has created 
sixteen different tax-advantaged retirement savings accounts, each with 
its own contribution limits, income requirements and definitions.
    At the same time, the savings rate has dropped from ten percent in 
1980 to just one percent last year. The vast array of accounts creates 
confusion and acts as a deterrent to those who want to save for 
retirement but cannot afford to hire an accountant to navigate the sea 
of options. The Universal Pension would replace the `alphabet soup' of 
retirement savings options with one simple account that is portable 
from job-to-job.
    Mr. Chairman, the Middle Class Tax Fairness Act will add simplicity 
and fairness to the tax code while making it more equitable for 
America's families.
    Thank you again for the opportunity to testify before this 
Subcommittee. I look forward to answering your questions.

                                 <F-dash>

    Chairman CAMP. All right. Thank you, Mr. Emanuel. The 
Honorable Dennis Kucinich from Ohio, you have 5 minutes, and 
your written statement will be a part of the record.

STATEMENT OF THE HONORABLE DENNIS J. KUCINICH, A REPRESENTATIVE 
               IN CONGRESS FROM THE STATE OF OHIO

    Mr. KUCINICH. I want to thank the Chairman, Mr. Camp, and 
the Ranking Member, Mr. McNulty, for the opportunity to 
testify. Thank you for holding this hearing. I would like to 
bring to your attention a proposal I introduced in the last 
Congress, H.R. 3655, the Progressive Tax Act of 2003, which 
will have a positive impact on millions of taxpayers. I think 
it is fair to say that all Members of Congress believe we need 
to strive for a fair, simple, and adequate tax system. We may 
disagree on how this has been accomplished, but we have the 
same goals. However, I think we can also agree on the need for 
transparency. Transparency in the tax system is necessary to 
achieve fairness. Transparency permits the taxpayer to 
understand how fairness is arrived in the Tax Code. A 
simplified Tax Code can provide this transparency, which in 
turn provides a sense of trust in the government.
    This Committee should enact my proposal to create a $2,000 
simplified family credit, a refundable tax credit that 
simplifies the Tax Code by consolidating the earned income tax 
credit, the child tax credit, additional child credit, and 
dependent exemption for children into one streamlined 
simplified family credit. This tax credit will simplify the Tax 
Code, provide greater transparency, provide extra work 
incentives, and provide a stimulus effect. Families should not 
have to struggle to understand the eligibility requirements for 
each of the various family tax breaks in current law. All 
families should follow the same set of rules.
    The simplified family credit is structured to provide 
progressive tax benefits and a work incentive. The families 
with lower income will get more benefit, but they are also 
rewarded for work. The credit would be steeply phased in at the 
lowest income levels providing the incentive to work and a 
substantial benefit. As income rises a slow phaseout would be 
necessary to ensure that we maintain a progressive tax system. 
The cost of this proposal would fall in the range of $20 
billion a year. Given our current deficit problems, I believe 
that Congress should only create the simplified family tax 
credit if it is paid for. In my legislation, H.R. 3655, there 
are several options to pay for this proposal, including rolling 
back parts of the tax cuts enacted in the last 5 years. Those 
tax cuts only added to the complexity of the Tax Code and 
removed any remaining transparency. Again, I want to thank the 
Chair for the opportunity to testify and thank the Ranking 
Member, for helping to make it possible.
    [The prepared statement of Mr. Kucinich follows:]

  Statement of The Honorable Dennis J. Kucinich, a Representative in 
                    Congress from the State of Ohio

    Thank you Chairman Camp and Ranking Member McNulty for holding this 
important hearing. I would like to bring to your attention a proposal I 
introduced last Congress, H.R. 3655, the Progressive Tax Act of 2003, 
which will have a positive impact on millions of taxpayers.
    I think it is fair to say that all Members of Congress believe we 
need to strive for a fair, simple, and adequate tax system. We may 
disagree on how this has been accomplished, but we have the same goals.
    However, I think we can agree on the need for transparency. 
Transparency in the tax system is necessary to achieve fairness. 
Transparency permits the taxpayer to understand how fairness is arrived 
in the tax code. A simplified tax code can provide this transparency, 
which in turn provides a sense of trust in the government.
    This Committee should enact my proposal to create a $2,000 
Simplified Family Credit, a refundable tax credit that simplifies the 
tax code by consolidating the Earned Income tax Credit (EITC), Child 
Tax Credit, Additional Child Credit, and dependent exemption for 
children into one streamlined Simplified Family Credit. This tax credit 
will simplify the tax code, provide greater transparency, provide extra 
work incentives, and provide a stimulus effect.
    Families should not have to struggle to understand the eligibility 
requirements for each of the various family tax breaks in current law. 
All families should follow the same set of rules.
    The Simplified Family Credit is structured to provide progressive 
tax benefits and a work incentive. The families with lower income will 
get more benefit, but they are also rewarded for work. The credit would 
be steeply phased in at the lowest income levels providing the 
incentive to work and a substantial benefit. As income rises a slow 
phase out would be necessary to ensure we maintain a progressive tax 
system.
    The cost of this proposal would fall in the range of $20 billion a 
year. Given our current deficit problems, I believe that Congress 
should only create the Simplified Family Tax Credit if it is paid for. 
In my legislation H.R. 3655, there are several options to pay for this 
proposal including rolling back parts of the tax cuts enacted in the 
last 5 years. Those tax cuts only added to the complexity of the tax 
code and removed any remaining transparency.

                                 <F-dash>

    Chairman CAMP. Thank you, Mr. Kucinich. The Honorable 
Timothy Bishop from the State of New York, you have 5 minutes. 
Thank you.

STATEMENT OF THE HONORABLE TIMOTHY H. BISHOP, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF NEW YORK

    Mr. BISHOP. Thank you, Mr. Chairman, and Ranking Member 
McNulty. I have two very specific proposals to reform the Tax 
Code that I would like to share with you this morning, and they 
are both tailored to what I consider to be the single greatest 
environmental imperative in the district I represent, and that 
is the preservation of open space. The first of the two 
proposals is a piece of legislation I will file today called 
the Open Space Preservation Promotion Act. This legislation 
would allow Americans who sell development rights to their land 
on an installment sale basis to pay the capital gains taxes due 
in installments rather than all at once in the first year of 
the sale. The New York State Constitution requires that 
municipalities pay for land purchases through the use of a 
sinking fund. This requirement exists in 15 other States as 
well. This process has led willing sellers to believe that they 
cannot sell the development rights under an installment 
agreement, and it is complicated by a technical problem in the 
Tax Code that treats the sale of development rights the same as 
if a farmer sold the land to a private buyer.
    Consequently, tax attorneys and estate planners advise 
their clients not to sell development rights if they do not 
have the cash payments on hand to pay the taxes immediately. My 
bill simply clarifies the IRS Code that sinking funds should 
receive installment sale treatment, and thus it removes the 
cash flow disincentive that currently exists for the seller. 
This will ensure that farmers who protect their land are not 
forced to pay taxes before they actually receive payment of the 
principal. The second bill that I will also file today is a 
bill that would allow survivors of farmers to defer estate 
taxes on the farmland they inherit as long as the land remains 
in agricultural use or is otherwise undeveloped. The tax would 
only come due at the time when the farmer chooses to develop 
the land. As the value of farmland continues to skyrocket on 
Long Island and elsewhere, so also does the estate tax. Where 
new zoning legislation and preservation efforts have failed, my 
bill would help preserve as much as 80,000 acres of farmland in 
Suffolk County, New York, alone, which as I say is the area I 
represent. Thank you, Mr. Chairman. I look forward to your 
questions.
    [The prepared statement of Mr. Bishop follows:]

   Statement of The Honorable Timothy H. Bishop, a Representative in 
                  Congress from the State of New York

    Thank you Mr. Chairman, Ranking Member McNulty, and distinguished 
Members of this Subcommittee for this opportunity to discuss two tax 
reform bills I am introducing this week to provide tax fairness for all 
Americans by rewarding conservation of farmland and open spaces.
    My legislation fulfills a dual objective of achieving the kind of 
reform necessary to make the tax code more user-friendly for families 
while also addressing one of my home state's most critically important 
environmental issues--rapidly disappearing open space, a process that 
could be slowed considerably if we removed disincentives from the tax 
code which discourage conservation.
    Urban sprawl will consume 95 million acres of farmland in the next 
20 years, according to the Department of Agriculture; 75 million more 
acres of cropland, rangeland, pasture and forest are threatened. 
Farmland and open space preservation is an important goal for New York 
State and many other states actively working to accomplish this 
objective.
    However, highly appreciated real estate values in my district, 
which encompasses the eastern half of Long Island, as well as other 
high-cost areas--combined with the complexities of estate tax policy 
and estate planning for families who are landowners--are disincentives 
for conservation of farmland and open space.
    In response to these trends, I will reintroduce two tax bills this 
week that I initially introduced in the previous Congress. The first 
bill I wish to call to the Subcommittee's attention is titled The Open 
Spaces Preservation Promotion Act. As this title implies, my 
legislation is intended to protect open space and encourage 
environmental preservation.
    A growing number of municipalities across the nation have 
demonstrated a strong commitment to preserving the natural beauty of 
our communities by purchasing the development rights of land from 
willing sellers. Some communities are investing tens of millions of 
dollars every year for this purpose. My legislation would help achieve 
this objective by ensuring that families who sell the development 
rights to a municipality can pay the capital gains taxes as they 
receive the payments for those development rights.
    The Open Space Preservation Promotion Act of 2005 would encourage 
land conservation by clarifying a technical problem in the IRS Code. 
This problem effectively restricts the purchase of conservation 
easements and development rights in New York and fifteen other states 
when landowners desire to receive payment for the sale of their 
development rights in installment payments over multiple years rather 
than receiving a lump sum payment at once.
    As Ranking Member McNulty may be aware, the New York State 
constitution requires the establishment of a sinking fund for purchases 
by municipalities--mandating payment of principal and interest over the 
life of the debt instrument. Under current law, it is believed that 
farmers and landowners have been reluctant to sell their land or the 
development rights of their land to municipalities under an installment 
agreement because sufficient uncertainty surrounds the treatment of 
sinking funds under the Internal Revenue Code.
    As a matter of policy, this installment option is advantageous to 
both the seller and the buyer, but landowners wishing to structure 
deals this way have been discouraged because of the cloud of uncertain 
IRS treatment. Specifically, the concern is that transactions conducted 
in the form of a sinking fund would force farmers to pay their capital 
gains taxes immediately, rather than upon future receipt of the actual 
payment.
    My bill would clarify that sinking funds should receive installment 
sales treatment, in an effort to ensure that farmers who opt to protect 
their land are not forced to pay premature taxes before they actually 
receive payment of principal. In other words, the net effect of this 
provision is to have the tax obligation of the seller come due 
commensurate with the periodic receipt of proceeds from the sale.
    Working now to remedy this minor technical problem will help to 
facilitate efforts by municipalities to purchase the development rights 
of land. Landowners and farmers committed to land conservation will be 
prepared to reap the financial benefits of their decision to protect 
their land without fear of owing taxes before they are able to pay the 
Internal Revenue Service. I hope you agree that this simple fix will go 
a long way toward encouraging land preservation and protecting our 
nation's natural landscape for future generations to enjoy.
    The second bill I would like to discuss is the Estate Tax Deferral 
for Working Farms and Land Conservation Act of 2005. My legislation 
would modify the current federal estate tax by allowing a deferment to 
survivors of farm owners who choose to keep working their inherited 
land. The tax would only come due at the time a farmer chose to sell or 
develop the land.
    As you know, upon the death of a farmer, the farm is considered 
part of the estate left to the heirs and subject to estate taxes. The 
tax can be very large, even though the deduction for the value of the 
gross estate in calculating inheritance taxes was recently increased to 
$1.5 million for tax year 2005.
    Under my legislation, federal estate taxes on farmland and open 
space could be deferred as long as the land remains in open space. Only 
land that qualifies for conservation easements under IRS Code Section 
170(h) would be eligible for such deferral. The tax would only come due 
at the time when the farmer chooses to develop the land.
    As long as families keep land as either a working farm or open 
space, they would have no tax liability on that portion of the estate. 
As the family chooses to sell portions or all of the land for 
development, tax liability would then become due. I am confident this 
legislation would go a long way to offset the effect of the estate tax 
where spiraling real estate values have made it too expensive for many 
families to pay the estate tax and not sell to developers.
    When I introduced The Open Spaces Preservation Promotion and The 
Estate Tax Deferral for Working Farms and Land Conservation Acts during 
the last Congress, both measures received bipartisan support and 
bipartisan cosponsors in addition to endorsements from my local and 
state farm bureaus and environmental advocacy organizations. I welcome 
the support of taxpayer advocates, who should find the tax relief 
contained in both will go a long way toward helping farmers and their 
families keep more of the hard-earned money as well as keeping farmland 
in their family for future generations.
    Mr. Chairman, thank you again for this opportunity to discuss both 
measures. I am confident you will find my legislation provides the kind 
of simplification and reform that you are seeking in order to make the 
tax code more user-friendly for American families. I applaud your 
initiative for calling this hearing, and I look forward to working with 
you to achieve meaningful and lasting tax reform.

                                 <F-dash>

    Chairman CAMP. Thank you very much, Mr. Bishop. Now the 
Honorable Michael Bishop from the State of Texas. Thank you. 
Did I say ``Bishop''? I meant ``Burgess.'' Thank you, Mr. 
Bishop. Mr. Burgess, welcome to the Committee.

STATEMENT OF THE HONORABLE MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. BURGESS. Thank you, Chairman Camp and Ranking Member 
McNulty. I really appreciate you holding this hearing today. I 
appreciate you keeping the issue of fundamental tax reform 
before this Congress and before the American people. The 
President, on a quiet summer's evening, last summer, in New 
York, or I guess it was in September in New York, mentioned one 
evening that he wanted tax reform to be a centerpiece of his 
second term Administration. I was so encouraged to hear that. 
The President laid out the principles that he would like to see 
embodied in that fundamental tax reform. He wanted it to be 
fair, he wanted it to be simple, and he did not want it to 
impede growth--economic growth--in this country.
    Well, Mr. Chairman, I would submit to you that H.R. 1040, 
which has been introduced in this Congress and I believe has 
been referred to this Committee, would do exactly that, and 
almost immediately. It would eliminate the marriage penalty. It 
would repeal the death tax. It would abolish the punitive 
alternative minimum tax. It would eliminate multiple taxation 
of investment income and allow for immediate expensing of 
business capital equipment--all issues that we have heard today 
on this table. This proposal, H.R. 1040, is a flat tax. It is a 
flat tax that is a little bit different from the flat taxes 
that were introduced in earlier Congresses in that it is 
voluntary; that is, it gives the business or the individual the 
option to opt into a pro-growth system that will tax income one 
time, and if someone likes the life that they have under the 
IRS Code, they can stay under the IRS Code. Now, I come from 
Texas, and this Congress passed a fairly substantial tax reform 
back in 1986. We had a significant recession in Texas in 1988. 
A lot of people back home felt that one of the reasons we had 
that recession was because changes in the Tax Code hit the real 
estate and the energy sector pretty hard. Those are things that 
we depend upon back home. So, the question in my mind was 
always: Why does the government get to make these decisions? 
Why don't we let people make those decisions for themselves? 
That is why, when I introduced the flat tax, I thought it was 
important that it be a voluntary program.
    Now, you may ask yourself, what in the world is a doctor 
doing here at sort of the tail end of this long line of 
economic experts? I ask myself the same question. The fact is, 
back in 1995, Mr. Chairman, I got religion. I bought a book 
that was published by former Majority Leader Dick Armey about 
the flat tax. I read this book and I said, it is so simple, it 
is so beautiful, why won't they do that? Then the good news is 
here on the 10-year anniversary of Mr. Armey's book, Mr. Forbes 
has a new book out about the flat tax that details many of the 
principles that I have outlined in my bill and many of the 
principles that I am bringing to you this morning. The flat tax 
is voluntary. It is a single rate 19 percent for the first 2 
years, falling to 17 percent thereafter. A person or a business 
would not have the option to move in and out of the flat tax 
once making the election. They would have to stay within the 
flat tax. I believe it is reasonable to give people another 
option that would reduce complexity. A simple Tax Code would 
allow us to close the tax gap, the $300 billion that is out 
there that is just not collected because it is not filed. Some 
people do not file because, ``It is too hard, I can't do 
that.'' So, no one comes and picks them up, and over time they 
just stop filling out a tax form. What Dr. Linder refers to as 
people--the untaxed, the underground economy, perhaps we would 
bring more of these people into the system if it were not so 
difficult for them to fill out their forms and pay their taxes.
    I would point out to you the $300 billion that is taxed but 
not collected, owed but not collected, is essentially what our 
deficit is at the end of this fiscal year. This system would be 
fundamentally fair. We all talk about progressivity in our 
income tax, but how about an income tax that is fair 
horizontally as well? Myself and President Clinton earned the 
same amount of money when he passed his tax increase back in 
1993, and yet I paid a functional tax rate of 33 percent, he 
paid at 19 percent. Where is the fairness in that? Why the 
difference simply because one person is more clever about 
assigning deductions? This tax is simple and that is its 
beauty. It gives time back to families. Yes, families need more 
money, but families also need more time. Here is an opportunity 
for this Congress to step up to the plate and give time back to 
families.
    On the issue of home mortgage deduction, which has always 
been one of the criticisms of the flat tax, remember that home 
mortgage deduction means different things in different parts of 
the country. In my area of Fort Worth, Texas, a home mortgage 
deduction may equal about $1,000 in real dollars over a 3-year 
time. However, in Santa Barbara, California, if you bought your 
starter castle, a home mortgage deduction may be a pretty big 
deal. Why not give the person in Santa Barbara, California, a 
chance to stay in the Code and us in Fort Worth, Texas, a 
chance to opt into a flat tax? Mr. Chairman, in closing, I 
believe it is time to trust the American people. Let's give 
them the choice for a voluntary pro-growth system that is built 
on the concept of a flat tax, and I will yield back.
    [The prepared statement of Mr. Burgess follows:]

  Statement of The Honorable Michael C. Burgess, a Representative in 
                    Congress from the State of Texas

    First, I want to thank Chairman Camp for holding this important 
hearing today. As a long-time supporter of fundamental tax reform, I 
believe that this is one of the most important issues that Congress 
will face in the next few years. I would also like to thank the 
Chairman for the opportunity to testify before you to explain my 
voluntary flat tax proposal. I believe that the flat tax meets the 
criteria set forth by the President to evaluate tax reform proposals--
it is fair, simple, and pro-growth. I will discuss how the flat tax 
meets each of these important criteria, but first I would like to 
explain how the Freedom Flat Tax works.
The Freedom Flat Tax Act
    In March 2005, I reintroduced H.R. 1040, The Freedom Flat Tax Act, 
which would establish a voluntary flat consumption tax. The flat tax 
concept is simple--there are two components, the individual wage tax 
and the business tax.
    Individuals pay a flat rate on their wage and pension income, and 
there will be no deductions. H.R. 1040, however, would allow for the 
following personal exemptions:

    <bullet>  $24,600 for a married couple filing jointly;
    <bullet>  $15,700 for a single head of household;
    <bullet>  $12,300 for a single person; and,
    <bullet>  $5,300 for each dependent.

    A family of four, for example, would not be subject to the flat tax 
until their combined income reached $35,400, which is 194% above the 
2002 federal poverty level of $18,244. Thus, the flat tax system is 
slightly progressive because the exemptions ensure that lower wage 
earners do not pay any federal tax until they reach a certain 
threshold, after which they pay the flat rate of 17%.
    It is important to note that the flat tax would:

    <bullet>  Eliminate the marriage penalty
    <bullet>  Repeal the death tax
    <bullet>  Abolish the punitive Alternative Minimum Tax (AMT)
    <bullet>  Eliminate multiple taxation of investment income
    <bullet>  Allow immediate expensing for business capital equipment

    Businesses would pay a flat rate on the total costs of taxed inputs 
subtracted from total sales; only employee wages and pensions will be 
tax deductible--this ensures that income is only taxed one time. Under 
H.R. 1040, both the business and individual tax rates are 19 percent, 
but would decline to 17 percent after the initial two years of 
participating.
    Unlike past flat tax proposals, The Freedom Flat Tax Act allows 
taxpayers to choose if and when to opt into a flat tax system. That is 
because I do not believe that we should penalize those who have made 
investments based on the current tax code. It would be like changing 
the rules in the middle of the game. My flat tax plan allows taxpayers 
to transition to the flat tax system on their own timetable.
    Now that I have outlined the mechanics of my flat tax proposal, I'd 
like to discuss the proposal in the context of fairness, simplicity, 
and promoting economic growth.
Fairness
    First, it is fair both vertically and horizontally. Horizontally 
because no matter how much money you make, what kind of business you 
are in, or whether or not you are married, you will be taxed at the 
same low rate as every other taxpayer.
    The flat tax system has vertical fairness because it taxes everyone 
at the same rate, while its limited personal exemption ensures that the 
tax burden does not fall too heavily on lower wage earners.
    The tax code should also have horizontal fairness, and that is best 
illustrated by what I call the ``Clinton paradox,'' which I encountered 
in 1993. 1993 was the year that Congress increased the tax rate, 
retroactive to the first of the year. By some quirk of fate, former 
President Clinton and I earned almost an identical amount that year. 
But when it came time to pay to the Federal Government, President 
Clinton paid just over 20 percent, and I paid over 30 percent. Why 
should such a discrepancy exist? What is the benefit for the country 
when we are taxed at different rates on exactly the same income? 
Currently, simplicity and fairness in taxes are sacrificed for the sake 
of pursuing a social agenda.
    But a social agenda is not the purpose of the federal income tax 
code. That is why the Freedom Flat Tax Act does not allow credits or 
deductions, which means that people who earn the same wages pay the 
same amount in taxes, thus the flat tax has horizontal fairness.
Simplicity
    A major advantage of the flat tax is its simplicity--it is a tax 
system so simple that you can understand it without an accountant. By 
eliminating tax credits and deductions, abolishing multiple layers of 
taxation, and eliminating the complex depreciation schedules for 
businesses, the flat tax will simplify the tax code.
    All you need under the flat tax is a post-card sized form. The 
current tax code, by comparison, requires taxpayers to determine which 
of almost 500 different tax forms they must fill out in order to comply 
with the tax code.
    The flat tax will allow families and businesses to take back the 
more than 6 billion hours per year that they currently spend to comply 
with the income tax. Some simple arithmetic is all that is needed to 
determine your tax liability each year. The flat tax has the ability to 
give time back to families because it is easy to understand and easy to 
comply with.
Efficiency/Pro-Growth
    The flat tax will encourage economic growth by treating all 
economic activity equally, taxing income once and only once, and 
reducing the cost in time and money for taxpayers and entrepreneurs to 
comply with the tax code.
    The current tax code penalizes savings and investment by imposing 
multiple layers of taxation. This discourages taxpayers from adding to 
the capital stockpile for our economic engine. Additionally, the tax 
code favors certain economic activities over others, which ultimately 
distorts financial decisions and reduces overall economic efficiency. 
By eliminating the deductions and exemptions that characterize our 
current tax code, the flat tax will allow people to base their 
financial decisions on commonsense economics and not the tax code.
    A flat tax would be much less costly, saving taxpayers more than 
$100 billion per year and reducing tax compliance costs by over 90%, 
according to one estimate by The Tax Foundation. This would give 
individuals and businesses more money to spend, which will increase 
demand for consumer and business goods, which in turn spurs the economy 
and increases prosperity. For example, one estimate of the Armey Flat 
Tax, by Michael Boskin, a former chairman of the Council of Economic 
Advisors, estimated that the flat tax could increase the size of the 
economy by up to 10 percent.
    Not only does the flat tax create a tax code that is less costly 
for the individual taxpayer, but the simplified tax code would reduce 
the cost of enforcement. The current system is clearly not efficient--
according to the CATO Institute, collecting the income tax costs the 
Federal Government 10-20% of all tax revenue collected.
    The flat tax especially benefits small businesses, which today 
create the majority of new jobs and account for half of the economy's 
private output, by allowing for major simplification and the immediate 
expensing of capital equipment.
    I would now like to discuss a couple of criteria that have not been 
explicitly articulated by President Bush, but I think is important 
nonetheless.
Transparency
    It is important that the tax system be transparent--otherwise the 
government can easily raise rates, as they have done in Europe with the 
VAT tax. With a flat tax, you will easily be able to tell how big a 
bite the Federal Government takes out of your income each year. After 
some simple and brief subtraction, you simply pay 17% of your wages 
above your personal exemptions. And because everyone pays the same 
rate, it would be obvious to all Americans if it was raised.
Compliance
    The current tax code's complexity discourages compliance with the 
tax code. Determining the exact amount of tax that is not paid each 
year is extremely difficult, but the Internal Revenue Service's most 
recent estimate of the tax gap estimates the tax gap (which is the 
difference between what taxpayers should pay and what they actually 
pay) to be between $257 billion and $298 billion for Tax Year 2001. 
Experience in Russia has shown that the adoption of the flat tax and 
lowering marginal rates has led to dramatically increased compliance 
with the tax code. Official Russian statistics show that tax revenue 
rose 28% between 2000 and 2001, following the adoption of the flat tax.
    If we could utilize the flat tax to collect even a fraction of the 
tax gap, we could reduce the deficit or reduce the rates for everyone.
    To conclude, the American people deserve a tax system and a 
government that rewards them for their hard work. It is time for 
Congress to give that to them and I believe that the flat tax is the 
best way to achieve this goal.

                                 <F-dash>

    Chairman CAMP. Thank you very much. Mr. Burgess, your 
proposal would require that taxpayers evaluate two different 
tax systems, if I understand your testimony: one, a flat tax, 
and then they could opt into the current system. It would 
require the IRS to administer two different systems. Can you 
talk to me about how we achieve the goal of a simpler tax 
system under that proposal?
    Mr. BURGESS. Mr. Chairman, I would submit that it just 
simply cannot be any more complicated than it already is, and 
to introduce a flat tax to the IRS, to have them administer it, 
my belief, my opinion, I personally, without even doing the 
calculation to see--would I save money or have to pay more 
money--I would give up that shoebox of receipts in a heart beat 
and go into a flat tax. Again, whether I paid more money or not 
would be immaterial to me. The simplicity and the gift of time 
would be worth my considering the flat tax. I don't know if 
other people feel the same way I do. From my discussions as 
just a regular guy back in Texas, I got that impression. Again, 
Mr. Armey's book was very popular back in my district, and not 
just because he was my Representative at the time. It was an 
idea that resonated back home. Unlike Dr. Linder's proposal, 
the IRS would continue to be there in my proposal, but my 
belief is that as people worked their way down from those high 
home mortgage deductions that perhaps they have been encouraged 
to take on because of our complex Tax Code, that as people work 
their way through those processes, they will abandon the IRS 
Code and come to the flat tax. My belief is, at some point in 
the future, we would be able to entirely eliminate the Code 
because it would no longer be necessary.
    Chairman CAMP. Thank you. Thank you very much. Mr. English, 
your proposal would focus on the way corporate taxes are paid, 
and particularly would exclude export revenues from taxation 
and would tax imports at 11 percent, if I understand it 
correctly. Tell me how you think that would affect economic 
growth in this country, if you could.
    Mr. ENGLISH. We have listened to a number of experts 
speculate on how this could have an impact. What it does, in 
effect, by setting up a border-adjustable system, you are--
which, by the way, is common not only to my proposal, but to a 
number of others. What it would do is it would level the 
playing field. A product that would be leaving this country and 
competing in a third market would be able to compete on an even 
footing without the tax cost built into the price with foreign 
products. It could enter another country and compete with 
product produced in that particular country by here, again, 
only paying taxes imposed within that jurisdiction, rather than 
the additional burden of taxes from our system. By contrast, an 
import coming in, which currently comes in typically border-
adjusted, would currently have no foreign tax imposed; and 
apart from State taxes on things like sales, it would be 
comparatively tax free. Yet, the cost of our tax system would 
be built into the price of competing domestic products. No 
matter which market you are in, the effect of border 
adjustability is substantial. Now, the issue has been raised by 
economists, in fact, would not there be an opportunity through 
changes over time in currency pricing--would that not, in 
effect, take away the advantage of border adjustability? That, 
to me, is a macroeconomic analysis from a microeconomic 
problem. Clearly, a border-adjustable system would add economic 
growth by making our manufacturers more competitive in all 
markets, and by leveling the playing field so that the price of 
our tax system does not become an unfair disadvantage for 
individual products. This is particularly significant in 
manufacturing. We think over time it would also be a 
significant issue in the service industry. As a result, Mr. 
Chairman, I think you can make a compelling argument that our 
approach is the one necessary if we are going to have our 
products competitive over time in global markets and allow us 
to start to reduce the institutional built-in advantage for 
imports.
    Chairman CAMP. All right. Thank you very much. Mr. Linder, 
your proposal obviously is a retail sales proposal, and 
property that is purchased for business purposes or services 
would not be subject to tax. If the taxability of an item 
depends on the nature of the transaction, would that be a 
simpler tax to administer? Because there still will have to be 
this evaluation: Was the item purchased for business purposes 
or was it purchased for consumption? If you could just talk 
about that a little bit, I would like to hear your thoughts on 
that.
    Mr. LINDER. If a business went to Home Depot and bought 
some goods from Home Depot, they would pay the tax at Home 
Depot, which sells to both consumers and businesses, and they 
would keep their receipts, and they would use the value of 
those receipts as a credit against paying the tax in the 
future. So, they would not be taxed. We would not ask Home 
Depot to make the decision whether or not to raise the tax from 
them. Any business-to-business transfers will not be taxed at 
all. Now, let me be very clear. Some people are going to cheat. 
We are Americans. We cheat. We cheat on our income taxes. 
People take their spouses to dinner on the corporate ticket and 
write it off. It is going to be much more difficult to cheat 
under this system because you are going to have to have two 
people conspire to cheat. Currently, just one person lies on a 
tax return, sends it in, and he has less than 1-percent chance 
of being found. Under our system, you have to have two people 
conspire to cheat. My guess is that since about 90 percent of 
this tax is going to be collected by about 10 percent of our 
companies--right now in California, for example, 92 percent of 
the tax is collected from 8 percent of the companies, the big 
boxes, the Home Depots, the Loews, the Penneys, the Targets. 
They are not going to help cheat. The guy who is going to cheat 
is the guy who comes to paint your house, and he is going to 
collect the tax from you. He is just not going to remit it. 
That is going to be a very, very small part of the economy, and 
we think that the collection will be significantly higher--we 
think it would be more like approaching sales taxes at State 
levels, which collect somewhere in the 90- to 92-percent range 
right now.
    Chairman CAMP. Thank you very much. Mr. McNulty may 
inquire.
    Mr. MCNULTY. Thank you, Mr. Chairman. I am sorry Mr. Neal 
had to get to another meeting because I did want to discuss a 
little bit more the AMT issue and to clarify the difference 
between the personal AMT and the corporate AMT, which was a 
result of the 1986 Tax Act, after many stories in this country 
about corporations making billions of dollars of net profit and 
then not paying anything in Federal taxes because of various 
tax loopholes, and that was the genesis of the corporate AMT, 
which, I am assuming, Mr. Neal is not talking about, but I want 
to talk about it for a second, because it has been the policy 
of this Administration not only to repeal the corporate AMT, 
but to repeal it retroactively, and to give rebate checks to 
all of these corporations or every single penny that they paid 
in under that tax since 1986. Some examples would be IBM would 
get a rebate check of $1.4 billion; Ford Motor Company, $1 
billion; ChevronTexaco, $800 million; General Motors, $800 
million; General Electric, which has a presence in my district, 
and which I have helped many times through the years, would get 
a rebate check from us, the rest of the taxpayers of $600 
million. Now, at a time when we have record deficits and a 
record national debt and are struggling, the last thing we need 
to be doing is giving rebate checks to these corporations that 
are doing very, very well. So, I think it is important to 
underscore the difference between what Mr. Neal is trying to do 
with the personal AMT and the corporate AMT.
    I would just like to ask Mr. Burgess a little bit about 
this flat tax issue because, as you know, this issue has been 
around for many, many years and other people, including Mr. 
Armey and others, have proposed it. It has always been 
fascinating to me because you brought up the issue of 
simplicity, and you made the personal comment that you wouldn't 
mind paying a little bit more in order to get the simplicity. 
Now, I don't know how many--you know, I would like to test that 
theory out a little bit and see how many people feel the same 
way you do about giving up the shoebox of receipts but we have 
to pay more. You know, I am looking at simplicity, too, with 
regard to a flat tax. Basically, if you want to talk about 
simplicity, there are three groups of people in this country: 
there are poor people, there are rich people, and there is the 
middle class. I know, in your proposal, you are not proposing 
taxing poor people. I have talked to many people about the flat 
tax through the years, and I have found very few wealthy people 
who are opposed to it. Most are very enthusiastic about it, 
which indicates to me that they would pay less under a flat 
tax. If your proposal is revenue neutral and poor people are 
not going to pay and rich people are going to pay less, who 
makes up the difference? The middle class. The basis of your 
proposal, at least in your conclusion, was that people for the 
sake of simplicity would be willing to pay more--in other 
words, more taxes on the middle class. How do you respond to 
that?
    Mr. BURGESS. Well, as far as the simplicity argument goes, 
we passed as part of your Committee's bill, the FSC/ETI bill 
last year (P.L. 108-357), we allowed citizens in my State of 
Texas to take a deduction for their State sales tax on their 
Federal income taxes. That deductibility had gone away back in 
the 1980s. It is not a formal survey, but I have asked people 
at my town halls. I used to keep all of my receipts for sales 
tax because I thought I could do a better job than the IRS at 
calculating a table. I don't do that anymore, because quite 
honestly, my time is too valuable and I am just not able to do 
that, but I have not encountered anyone who is keeping all of 
their receipts from all of their purchases, to tally them up at 
the end of the year and see if they will be able to increase 
their rate of reduction over what is available in the IRS 
table.
    Mr. MCNULTY. What about the general concept of the simple 
math here? If your proposal is revenue neutral, you are not 
proposing taxing the poor segment of the society, lower income? 
The wealthier people in this country are wildly enthusiastic 
about your proposal, which is a clear indication to me that 
they are going to pay less, and if your proposal is revenue 
neutral, if the poor are not going to pay and the rich are 
paying less, and the proposal is revenue neutral, in other 
words, you are bringing in the same amount of money, the middle 
class has to pay more.
    Mr. BURGESS. You know, are you absolutely sure that the 
rich are going to pay less? The example was given of someone 
who earned a fantastic income and paid a 12 percent rate.
    Mr. MCNULTY. I don't have any scientific information on 
that because we haven't done it, but I mean, it is a clear 
indication to me that if wealthier people in this country are 
so strongly supportive of the flat tax concept, it is not 
because they are going to pay more. They are not going around 
saying, ``Implement this new proposal so that we can pay more 
in taxes.'' I think they are saying, ``Implement this new 
proposal so that we can pay less in taxes.'' If indeed, they 
would pay less in taxes, middle income people have to pay more. 
In all fairness, I really haven't heard from anyone who I would 
consider extremely wealthy in this country who is enthusiastic 
about this proposal. It has been a little bit difficult to push 
the concept uphill, but obviously I would welcome support from 
any venue.
    Chairman CAMP. Thank you. Ms. Hart may inquire.
    Ms. HART. Thank you, Mr. Chairman. I am going to ask all of 
the panelists to answer this question, and I would like you to 
distill your--I guess, support--or your enthusiasm--into one 
issue that I am mostly concerned about, because in the 
communities I represent, people tell me that our Tax Code is 
simply a deterrent to entrepreneurship and a deterrent to 
economic growth. So, what I would like each of you to do for me 
is, in a couple of sentences tell me why your proposal is going 
to encourage entrepreneurship and promote economic growth. What 
about your proposal, that is different from our current system, 
is going to change that? Go ahead, Congressman English.
    Mr. ENGLISH. In a nutshell, what my proposal would do is 
level the playing field in international competitiveness, at 
the same time dramatically lower the cost of capital and also 
increase the national savings rate, which, in turn, it will 
provide more seed resources for entrepreneurship. My proposal 
is radically pro-growth, radically pro-entrepreneur, and will 
make it easier to launch many, many small businesses in the 
future.
    Ms. HART. Congressman Linder?
    Mr. LINDER. It is clear to everyone that the current tax 
system punishes savings, thrift, punishes productivity, and 
rewards consumption. Under our system, the average income 
earner is going to get a 50-percent increase in take-home pay. 
He is going to be an investor. The $10 trillion in offshore 
financial center and dollar-denominated deposits will be 
largely on our shores, creating jobs, increasing the value of 
the markets. We have studies that say within the first year 
after passage of this, the economic growth rate in the United 
States will be 10.5 percent. Increase in exports would be 26 
percent, and the increase in capital investment would be 78 
percent. We know that from '45 to '95 real take-home wages 
increased in exact correspondence to the increase in capital 
investment. This is the most solid pro-growth proposal ever 
proposed, and that is what was said at the Tax Commission by 
all of the economists who said this is the most effective way 
to go with the economy, is to tax consumption.
    Ms. HART. Mr. Emanuel?
    Mr. EMANUEL. Three quick parts. One, number one reason 
people drop out of college or don't go to college is they can't 
afford it, number one. So, we would give everybody a $3,000 
credit so they can go to college or graduate school. Second. 
Homeownership represents about one-eighth of the economy's 
economic activity. We would provide the mortgage deduction to 
everybody who owns a home, so 10 million people who today own a 
home, but don't get the mortgage deduction, would be provided 
that, and other people who are on the moderate to low-income 
end, would be brought into the homeownership arena and begin to 
build their nest egg of equity. Third, as all of us have said, 
it is that we have a low savings rate here, and given that we 
create a universal pension, you would actually not only 
increase the amount of people who save, but the dollars that 
are saved, which is important for, obviously, capital 
formation, and allow, actually, the thing that you are looking 
for: economic activity and entrepreneurship.
    Ms. HART. Mr. Kucinich?
    Mr. KUCINICH. Thank you very much for the question. Under 
my proposal, the working poor, in particular, would have more 
money to spend on their children, which, of course, would 
amount to a lot of economic activity, particularly for small 
businesses which are the first point of contact for many of the 
working poor.
    Ms. HART. Mr. Bishop?
    Mr. BISHOP. The economic stability of the district I 
represent is linked inextricably to the quality of our 
environment. The principle industries of our district are 
travel, tourism, the second-home industry, farming and fishing, 
and the preservation of open space is absolutely vital to the 
quality of the environment, and thus to the stability of the 
economy.
    Ms. HART. Thank you. Dr. Burgess?
    Mr. BURGESS. Well, certainly the improvement of savings and 
investment, there is no question about that. Just focus on the 
marriage penalty for a moment. Under a flat tax, currently the 
system is a spouse whose husband or wife earns in excess of 
$50,000, $60,000 a year initially pays tax at the highest 
possible rate of every dollar that they earn. Under a flat tax 
proposal, everyone goes back to the same flat rate, so there is 
no penalty for being married. In my business--my medical 
practice--when I first started out, I thought a smart thing to 
do would be to keep 3 months of operating capital in an account 
in the bank, so I would always have that in case the wolves 
were at the door. Imagine my surprise to find out, at the end 
of the first year, I got taxed at 38 percent on that money, 
that 3 months capital that I had in the bank to prevent the 
wolves coming to the door. Suddenly, over a third of it was 
gone. The flat tax would eliminate that from happening.
    Ms. HART. Thank you for that. That was pretty quick for 
Congressmen. I want to go back to Mr. English and his proposal. 
You exclude export revenue in the conversations we have just 
been having on trade.
    Mr. ENGLISH. Yes.
    Ms. HART. I am very interested in that. Can you tell me the 
genesis of doing that, and why that is such a positive part----
    Chairman CAMP. Mr. English, if you could respond quickly 
because time has expired.
    Mr. ENGLISH. Certainly. Since 1948, it has been allowable, 
under GATT rules, for a border adjustable tax system. Most of 
our trading competitors have adopted border adjustable tax 
systems, which allow them to take the tax off of their products 
at the border, and impose an equal and fair tax on imports 
coming in. That way, both imports and exports pay the same tax 
and pay the same share of the freight.
    Ms. HART. Thank you. Thank you, Mr. Chairman, for your 
consideration on that one.
    Chairman CAMP. Thank you very much. Mr. Thompson may 
inquire.
    Mr. THOMPSON. Thank you, Mr. Chairman. I have a couple. Mr. 
Linder, could you help me understand the difference between the 
inclusive and the exclusive tax provisions in your bill?
    Mr. LINDER. We are placing an income tax, which is 
inclusive of what you earn, so we thought we would have to do 
an exclusive tax of what you spend. It is 23 percent out of 
every dollar you spend will go to the government, and currently 
33 cents of every dollar you earn goes to the government. If 
you were treating it exclusively, it would be a 30 percent tax, 
a 29.9 percent tax on what you spend. Then to compare that to 
the income tax, what you have left to spend after government 
gets is, you have a 50 percent tax as an exclusive tax. So, it 
is the same 23 cents whether you spend 77 cents times 30 
percent gets $1.23 goes to the government, or whether you spend 
a dollar and the first 23 cents out of it inclusively.
    Mr. THOMPSON. So, it would be 23 percent, not the higher 20 
percent?
    Mr. LINDER. Inclusive, 23 percent of what you spend----
    Mr. THOMPSON. If you bought $100 worth of goods, what would 
you pay in tax?
    Mr. LINDER. $23 it would be included in the price.
    Mr. THOMPSON. Thank you. Mr. English, your bill does away 
with the State tax exemption?
    Mr. ENGLISH. Yes.
    Mr. THOMPSON. Would it do away with all similar State tax 
exemptions? I think Mr. Burgess mentioned Texas and their sales 
tax exemption. That would do away with that as well?
    Mr. ENGLISH. Yes.
    Mr. THOMPSON. Thank you. Mr. Burgess, how do you handle 
inheritance tax in your bill?
    Mr. BURGESS. There would--if a person would like to go 
under the flat tax, there would not be an estate tax.
    Mr. THOMPSON. So, you wouldn't actually pay, what is it, 17 
percent on all of the money that you take in, only on wages, 
the earned income?
    Mr. ENGLISH. The concept is that money is taxed just one 
time, so tax at the point of earning and not at the point of 
death.
    Mr. THOMPSON. So, it is not on all income or not all 
earnings, just what? What gets taxed under your bill?
    Mr. ENGLISH. Wages, income from--dividends would either 
be--and that would be a decision for this Committee to make--
would be taxed only one time. They could be taxed at the level 
of the business where they were generated or at the time they 
were distributed to the individual. Investment income would be 
taxed one time. Wages would be taxed one time. Capital gains 
would be taxed one time.
    Mr. THOMPSON. I have never really understood the tax one 
time on inheritance, because if you inherit it, you haven't 
been taxed on it, somebody else was.
    Mr. ENGLISH. The taxes have been paid on the money, that is 
correct.
    Mr. THOMPSON. Your wage money is also--somebody has paid 
taxes on that somewhere down the line as well. Does your bill--
--
    Mr. ENGLISH. Most of the income that I leave when I leave 
this earth will be income that has been paid to me as wages and 
has been taxed.
    Mr. THOMPSON. When you leave, you are giving it to someone 
else, so they haven't paid anything on their new moneys.
    Mr. ENGLISH. They put up with me.
    [Laughter.]
    Mr. THOMPSON. Yeah, that may be worth something, I don't 
know. Your bill also does away with your sales tax exemption 
that people enjoy now in Texas?
    Mr. ENGLISH. If somebody elected to go into the flat tax--
and I cannot believe a single person in the State of Texas 
would say, you know----
    Mr. THOMPSON. No, I don't want to debate that. I have no 
way of knowing what people in Texas would choose to do----
    Mr. ENGLISH. If you elect to go on the flat tax, it is 
gone. That is correct.
    Mr. THOMPSON. Thank you very much. I yield back, Mr. 
Chairman.
    Chairman CAMP. Thank you. Mr. Foley may inquire.
    Mr. FOLEY. Thank you very much. The first question for Mr. 
Linder. I am obviously intrigued by your proposal. I think it 
does a lot of things that are unique, and the one thing I most 
appreciate is the fact that it really does reward savers. If 
you are a consumer--if you are spending--you will pay taxes. If 
you are a saver, you have the opportunity to aggregate wealth, 
and not avoid necessarily taxation because you are going to 
have to lay out moneys the live and to operate, but it really 
does create an incentive, if you will, for frugality. Is that a 
fair impression?
    Mr. LINDER. That is a precise impression, and frankly, if 
you are wealthy and you want to--if Bill and Melinda Gates want 
to move to a farm and grow their groceries and live off the 
rebate, good for them. We will borrow their money and create 
jobs with it. This is the single-most compelling reason to do 
that. The second one is, whatever we do, we have got to make an 
effort to get the tax component out of the price system. It is 
the one thing that makes us less then competitive in the world 
economy.
    Mr. FOLEY. The concept or notion that your proposal will 
eliminate the IRS is not accurate, is it? We will still have to 
have an oversight or collection----
    Mr. LINDER. My proposal anticipates that the States will do 
the collecting and administering, and we would pay them 25 
basis points for doing so. The retail, or whatever outlet that 
collects the money from the individual and remits it to the 
State, will get 25 basis points. There will be a department in 
the Treasury of a few thousand people that will be responsible 
for collecting Internet and catalog sales. I don't believe the 
guy down the street who builds a building and hires our kids 
and sells books should be put at a 7 percent disadvantage to 
Amazon.com. The States in 2003 lost, in collections to Internet 
and catalog sales, $23 billion. It is a growing concern for 
States, so the Federal agency in the Treasury will be 
responsible for collecting Internet and catalog sales and 
remitting them to the States and localities.
    Mr. FOLEY. So, this is an equalization?
    Mr. LINDER. That is correct.
    Mr. FOLEY. We no longer have the disparity, if you will, 
between the big box retailers and the shippers of, as you 
mentioned, Amazon.
    Mr. LINDER. It also eliminates the government choosing 
winners and losers in respect of goods v. services. I was 
speaking downtown to a group of physicians who really liked the 
idea, until one lady jumped and said, ``You expect us to tax 
our patients?'' I said, ``What makes you think you are so 
special? All your neighbors are taxing their source of income 
right now. We should tax all goods and all services equally.''
    Mr. FOLEY. The point of collection, obviously, you 
mentioned a mechanism. Florida has a Department of Revenue, so 
that is already in place. They would be your collection 
manager?
    Mr. LINDER. That is correct. We would contract with them 
and oversee their collections and the biggest difficulty for 
them will move to collecting on services. They don't have the 
template in place like they do goods. Forty-five States 
currently collect a sales tax, and they will be contracted with 
to do the collecting administering, and we have already had 
States who it--say if those other 5 States don't want to do it, 
we will do it for them.
    Mr. FOLEY. I was hoping Mr. Emanuel would have been 
available for one question. Maybe his Democratic colleagues can 
help me with this, because I did want to try and hone in on the 
terminology used by your side when we have the tax cuts for the 
rich. There is a conversation that constantly occurs, and it is 
a wonderful sound bite: This is for the middle class. We want 
to give tax relief for the middle class. I am trying to 
determine what that means, if we have a parameter of income 
that we would consider middle class. If either could venture a 
guess, because it does sound nice. I talk about it. I say for 
the middle class, but that is an ambiguous statement, and I do 
not know where we draw the lines of who is in the middle class 
today. Somebody living in Chicago--which is why I wanted to 
pose the question--may have an $800,000 apartment based on the 
market prices, but they are two hard-working public servants 
making $80,000, $100,000--depending on locality, pay is 
different. Is $200,000 income middle class? Is $400,000? Is 
$60,000? Just for the terms of the rules of engagement, I wish 
somebody could answer that question, because as long as it is 
nebulous, we can all get away with saying, ``I want it for the 
middle class.'' If we don't define what those rules are, then 
we are talking about atmospherics. Can either Member help me 
define what the party's position is, relative to middle class, 
the pay structure or the asset base, so at least I know who we 
are talking about?
    Mr. KUCINICH. Well, it is an important question. I can talk 
from my own experience with my own constituency. I live in, 
what I consider to be, a middle class neighborhood. Those who 
are middle class tend to have jobs. Those jobs tend to be where 
they make in a range of $30,000, $35,000 a year to about 
$70,000 or $75,000 a year, in my neighborhood. They have homes 
that might be anywhere from $65,000 to maybe $200,000. So, that 
is what I understand from my own experience, where I live. 
Also, the idea about tax cuts for the rich--those concepts 
mainly come from the distribution tables, which, in the last 
tax cut, seemed to--on the basis of some reports--like from the 
New York Times, where the greatest percentage of the benefits 
went to people who made over a million dollars. So, they would 
be in another class from the people who would be in my 
neighborhood, let us say. I guess you have to go on your own 
experience. For example, in some neighborhoods, like in 
California or perhaps in Florida, people could be considered 
middle class and they would be living in homes that might be 
worth upward of a million dollars. I mean, that is possible, 
actually.
    Mr. FOLEY. Well, that is my only concern----
    Mr. KUCINICH. You know, there are a number of factors 
involved, but I would probably say that one of the first 
factors has to involve your actual income in relationship to 
what everyone else is in your area, the value of property in 
relationship to what everyone else's is in your area. It is 
kind of a relative position for people in a region, but 
nationally, it is not relative because it really depends on the 
kind of disposable income you have, not just property assets.
    Chairman CAMP. If we could conclude because your time has 
expired. Ms. Tubbs Jones may inquire.
    Mrs. TUBBS JONES. Oh, Mr. Foley, call some of your 
sociologists to do the research for you and figure out what 
middle class is. You know what middle class is for purposes--
the debate that you want to have on it. Even when your party 
defines what low-income is, you use $12,000 for a family of 
four. That is pure poverty when we start developing. So, you 
can get a sociologist to do some research for you and define 
middle class. It will be all right. Because I want to be clear 
that as we debate this issue out here on the floor, that not 
only is the Democratic side reflected, but the Republican and 
all of use license--political license--to use or define middle 
class the way we want to for purposes of whatever debate we are 
in or whatever discussion we are in. If you would like me to 
give you some time to respond, I would love it. If not, I am 
going to move on to ask Mr. Kucinich a few questions about his 
tax in piece.
    Mr. FOLEY. Would you give me your definition at least of 
the middle class parameters?
    Mrs. TUBBS JONES. Halfway between--between the poorest 
people of our country and the richest people of our country. 
That is middle class, okay? You know what the usual definition 
of ``middle'' is, in the middle, between the top and the 
bottom. We talk about lower middle-class, middle middle-class, 
and upper middle-class, same thing. Okay? I am not a researcher 
at all. That is my definition. Mr. Kucinich, how are you, sir?
    Mr. KUCINICH. Good morning.
    Mrs. TUBBS JONES. How you doing? Do you think that there 
are other things that we could use for purposes of defining--
when we talk about simplified family credit--are there other 
taxing issues out there that we might include in the family 
credit?
    Mr. KUCINICH. Well, I think that you have to go back to how 
this idea came up. There is a group called the Economic Policy 
Institute and a gentleman by the name of Max Sawicky. His idea 
is to look at what we can do to make the Tax Code more 
progressive, and also what we can do to make the Tax Code have 
more transparency, which actually is a way of showing people 
that it is progressive. The idea--Congress has come forward and 
created a number of vehicles to try to provide benefits for 
families. You know, we had the earned income tax credit, we 
have the Child Tax Credit, the Additional Tax Credit, and 
dependent exemption for children. All of those were attempts to 
provide some benefits. What this does is it puts--it basically 
consolidates--all of these various programs that Congress has 
already worked on, and in doing that, it simplifies the Tax 
Code because I think that is something we are always striving 
to do--provides greater transparency, provides work incentives, 
which is one of the things we need to do for the constituency 
that you and I represent, to make sure that people do achieve 
incentives for work, and have a stimulus effect on the economy, 
which answers the question that Ms. Hart had.
    Mrs. TUBBS JONES. Okay. Thank you, Mr. Kucinich. Mr. 
Linder, when you talk about your national resales tax being 
voluntary, that means that--are you suggesting in your proposal 
that someone either chooses to stay under the current code or 
they can choose to go under a national resale tax code? Is that 
what--I mean----
    Mr. LINDER. No. The tax itself would be imposed on 
everyone, but if some chose to buy a used house and a used car 
and used clothing and live off the rebate, they would pay no 
tax whatsoever. Currently people----
    Mrs. TUBBS JONES. How would you regulate that? Who would be 
responsible for it administering the rebate?
    Mr. LINDER. The person who does the buying. We don't tax 
anything used. We tax everything new once.
    Mrs. TUBBS JONES. No. I am saying, who would be responsible 
for determining whether or not the person doing the buying 
would get a rebate?
    Mr. LINDER. Every household, rich or poor, would get a 
rebate at the beginning of every month sufficient to totally 
untax them up to poverty level spending. Poverty level spending 
for a household of one is $9,600 a year. Poverty level spending 
for a household of four is $25,660 a year. Their check----
    Mrs. TUBBS JONES. Would come from?
    Mr. LINDER. Come from the Social Security Department. It 
might be a debit card. It might be a overnight click into an 
account.
    Mrs. TUBBS JONES. Then Social Security, or the IRS, or 
whatever we call this agency, would be responsible for the 
administration of this rebate?
    Mr. LINDER. You would sign up with your State 
administration department with the names and Social Security 
numbers of who all lives in that household, and your rebate 
would be sent to you based on the number of people in the 
household. People today have been spending all----
    Mrs. TUBBS JONES. Have you any idea what the administrative 
cost would be for the proposal you have got?
    Mr. LINDER. A whole lot less than sending out 45 million 
Social Security checks.
    Mrs. TUBBS JONES. I don't know. I am just asking. I am 
curious. Have you--you say it is a whole lot less. How much 
less?
    Mr. LINDER. We believe--and we have had conversation with 
Visa and Mastercard, that they would administer it, and they 
would provide debit accounts for your debit card once a month, 
and it would be very low.
    Mrs. TUBBS JONES. So, you are proposing that rather than 
the government administer the program, we give that 
responsibility to a private industry to be able to do that for 
us?
    Mr. LINDER. No. I am proposing that this Committee, if it 
ever looks at this seriously and chooses to do it, will make 
that decision on how it gets done in the final drafting, but we 
have looked at all kinds of different ways. You can make a 
hundred million computer clicks in one evening through the 
Federal Reserve or through a Social Security Department for 
about a penny a click and transfer that money.
    Mrs. TUBBS JONES. Thanks for your responses, sir. Thank 
you, Mr. Chairman.
    Chairman CAMP. Thank you. All Members have had an 
opportunity to inquire. Are there any Members who wish to 
inquire further?
    Mr. MCNULTY. Mr. Chairman, I just want to take this 
opportunity to thank all of the panelists for their very 
thoughtful proposals and for being here today. Thank you.
    Chairman CAMP. I do as well. I want to thank all the 
Members, on a very busy week and morning, for taking the time 
to come and testify before the Subcommittee this morning. 
Without objection, this hearing is adjourned.
    [Whereupon, at 11:17 a.m., the hearing was adjourned.]
    [Submissions for the record follow:]

                                                 Plano, Texas 75074
                                                    August 30, 2005

Dear Honorable Chairman Camp and Ranking Member McNulty:

    Below please find my submission this spring to President Bush's Tax 
Reform Advisory Panel.
    I now wish to share my story directly with you in hopes of 
garnering your support and leadership of the Honorable Sam Johnson's 
H.R. 3385.
    I am employed by Network Appliance in the Plano area of Texas. In 
2000 I purchased some of my stock options. During that time the stocks 
buy value was $50/shr and the peak value was $150/shr then within a few 
months the value dropped to a low of $6/shr. Consequently, we were 
taxed at $50 per share rate even though by the end of the year--the 
stock was only valued at $6 per share. We were told we owed AMT in the 
amount of $350,000. This was a prepayment of tax for which we hadn't 
received benefit from. Lets remember, we purchased the asset we didn't 
sell it and receive capital gains! My wife and I had started building 
our retirement home and we had to finish the house using our savings 
rather than gains from the stock. I then had to mortgage the house.
    The IRS ruled that we would have to sell our house in order to pay 
the AMT liability of $350K. I put the house up for sale and three 
months later, the IRS attached my wages because the house had not yet 
sold. When this did not help the house sell, the IRS attached my base 
salary and my bank accounts--forcing me into bankruptcy. I have always 
paid my taxes on time and I have never been audited. I am 57 years old 
and all my savings were in the house. The house never sold and 
eventually was foreclosed on--eliminating any future liability for the 
payments, but leaving us with no equity to pay the IRS. We finally got 
the IRS to negotiate a settlement (after 18 months in bankruptcy) on 
the amount to be paid over a six-year period. I have hundreds of 
thousands of carry-forward losses but they cannot be used for previous 
years. We settled on paying the IRS $240 over six years which will take 
most of my income. Then, I will start to try to build up retirement 
when I'm sixty-two years old!! Since I was forced into bankruptcy, I 
don't have a credit card to travel and do my job--I can't rent a car. I 
use a bankcard for hotels and meals and get rides from other employees 
in the cities I visit. I would have paid anything I could afford from 
day one--the IRS didn't have to force me into bankruptcy. This Policy & 
the IRS has ruined my credit, cost me thousands in legal and accounting 
fees (all of which could have gone to paying them). I'm at a loss as to 
why someone who has never done anything but pay his taxes on time can 
be treated in such a vindictive manner!
    The ISO AMT law is beyond unfair! IT'S CRIMINAL and should be 
changed immediately!! It has ruined my families retirement and has 
forced me into bankruptcy unnecessarily. Your support is respectfully 
and urgently requested so that other families and other honest 
taxpayers don't get caught in this horrible AMT trap.

                                                    Nelson R. Allen

                                 <F-dash>

    Statement of Susan Schroeder Anderson, Mountain View, California

    Thank you for taking the time to read this letter. I believe the 
Alternative Minimum Tax (AMT) and its treatment of pre-taxation on 
Incentive Stock Options is wrong. I have submitted my story on numerous 
times to my Senator, Congressperson as well as the Ways & Means 
Committee and the President's Advisory on Federal Tax Reform. I feel 
that the AMT, which was originally created because 155 wealthy 
businessmen didn't pay any taxes, was not intended to financially ruin 
the middle class worker. It is an unfair tax and should be abolished 
immediately. This tax has caused our family undue stress and anguish. 
As a taxpayer and citizen, I urge you to please support H.R. 3385.
    Here is my story: In 1995 I joined a start-up high tech company 
called VeriSign. I was hired as an Executive Assistant to the President 
and my salary was $45,000. Over the years, I was granted Incentive 
Stock Options (ISO). I tried to regularly exercise and hold my ISOs for 
one year in order to pay long-term capital gains on the stock. In July 
2000, I decided to leave my job so that I could plan my wedding and 
also start to plan a family. I had stock that needed to be purchased 
when I quit my job in July of 2000, so I exercised the stock. As 
everyone knows, the stock market then suffered the worst stock market 
downturn in history! At the time, I did not sell my stock in hopes that 
the market may recover. Had I known about the AMT, I would have sold 
the stock immediately. I come from a middle class background; my father 
worked for AAFES (Army & AirForce Exchange Service) and my mother was a 
nurse. I could not go to my parents for advice regarding my stock 
options because they had no experience with stock. I tried to get a 
financial advisor but had a difficult time finding one since, at the 
time, here in the Silicon Valley, financial advisors would only take 
people with large portfolios. My only financial advisor was the broker 
that I used through VeriSign, who was biased since they worked for 
VeriSign--they suggested I hold my stock. Many people had similar 
situations to mine. My tax preparer told me that I would be subject to 
the Alternative Minimum Tax and that I could receive a tax credit and I 
could use that to offset a sale later on. Unfortunately, my tax 
preparer wasn't aware that I would only be able to recover $3,000 per 
year in my AMT tax credit. At the time, most tax preparers hadn't had 
much experience with AMT and therefore, could not give any detailed 
advice on how to handle the stock. At that time, my salary for 2000 was 
$50,747 and my taxes paid to AMT were $408,627--over 8 times my annual 
salary on money that I did not have nor received!! I had to take all 
the stock and sell it and take a loan in order to pay my taxes. On top 
of that, I had to pay lawyers and accounts in excess of $20,000 to help 
me to understand AMT and to try to fix this problem. The amount of 
stress was and is still unbelievable.
    I never received any benefit from my ISOs--in fact, I now have a 
tax credit that I will never be able to use in my lifetime. Since AMT 
is also a self-reported tax, I have many sleepless nights thinking 
about how I shouldn't have reported the stock to the IRS, how it 
doesn't pay to be honest, etc. I personally know many people did not 
report this tax because they felt that the chances of being audited 
were very slim. At the time, I did consider this but having spent my 
entire life working and paying taxes, I knew in my heart that I was not 
the kind of person to lie to the government.
    AMT was never intended to trap the little guy. It was originally 
intended to make sure the very rich, who years ago had tons of 
loopholes to hide their money, would pay taxes. This law is flawed on 
so many levels:

    1.  It's self-reported, the IRS has no way to track who reports and 
who doesn't;
    2.  You are pre-taxed on gains that have never been realized;
    3.  After paying AMT, you are given a tax credit that never gains 
any interest (on the flip side, if we owe the IRS money, we have to pay 
interest plus penalties);
    4.  The AMT tax credits will never be fully used--mine is $408,627 
and it would take me 136 years to use this credit.

    The mental anguish over this tax is unbelievable. I know that many 
people think that those of us who were caught in the AMT ISO trap were 
greedy but that isn't the case. I personally feel that my lack of 
understanding ISOs and the stock market along with the confusing way 
that AMT is calculated helped to get me in this AMT mess. I just didn't 
have the knowledge to fully understand the ramifications of this law. 
Those of us who found out the hard way had to make a decision, either 
report it or not--many did not. I chose to report the tax even though I 
felt it unjust and unfair. However, my honesty only got me a huge AMT 
bill while others walked away and didn't report their AMT. Those who 
didn't report, wait for the statute of limitations to go by and then 
breathe a huge sigh of relief when they find they haven't been audited. 
The IRS has no way of tracking stock sales and exercises and they rely 
solely on the taxpayer to supply this information--this seems awfully 
stupid to me as it can lead to underreporting, etc. of this and other 
taxes.
    I am working with a law firm to try to recover some of the AMT that 
I've paid. My amended returns have been with the IRS for over two 
years. The IRS holds amended returns ``hostage'' so they can sit out 
the statute of limitations instead of making decisions regarding our 
arguments for getting credits back faster. I believe they do this 
because they are afraid to do the ``right'' thing and call this law 
unfair. The IRS refuses to respond to my amended returns. The only 
recourse that I have is to take the IRS to court--which means spending 
another $15,000-25,000 of money that I don't have--and then knowing 
that the courts don't want to make the ``fair'' decision but want to 
make the ``constitutional'' decision (following the law). If I did go 
to court--I could be tied up in court for another 5 years. The only way 
to get justice is for the law to actually change.
    I hope that my letter puts a ``face'' on what this horrible law has 
done to the average person. I am not an executive, I am not a founder 
of a company, I ended my career at VeriSign as a Project Manager--
nothing fancy. If you saw my tax returns for the last 10 years--you 
would see that I never made over $75,000 a year in actual salary. I 
always paid my taxes on time. I'm a responsible citizen who has voted 
in every election since I turned 18. I believe that my government will 
do the right thing. However, in the future, I would never accept stock 
in lieu of salary like I did at VeriSign. I don't ever want to be in a 
position of having to make decisions that will ruin my financial life 
and the life of my family.
    I hope and pray that the Ways & Means Committee will have the 
courage to listen to all the comments from people like myself and make 
some real changes in this law. We did what we thought was right, we 
reported our stock exercises and then ended up paying millions of 
dollars in pre-tax to the government on stock that we never saw any 
financial gain. It's wrong. Plain and simple. If it happened to you or 
to one of your family members--you would be outraged. Time is running 
out for those of us who couldn't pay their AMT--if the Ways & Means 
Committee does nothing--many will loose everything they ever worked 
for--their savings, 401Ks, their children's education funds, their 
homes. Please do something about this before these honest citizens end 
up homeless.

                                 <F-dash>

                Statement of Ross Ashley, Dallas, Texas

    I ask for your support of H.R. 3385. This bill is a good first step 
towards alleviating the pain and suffering that my family is 
experiencing right now and, with no end in sight, for many more years.
    I worked as a software engineer for a once high-flying software 
company, i2 Technologies. I was not an executive or even a mid level 
manager. I was simply a hard-working individual contributor. I made 
several significant contributions to our products and later helped our 
customers solve special problems. I was granted incentive stock options 
every year from 96 through 2003 and our stock price rose along with 
others during the tech bubble. In 2000 I exercised options with a 
market value at that time of about $450k. The exercise of those options 
resulted in a tax liability that I didn't fully understand at the time. 
The AMT tax that I incurred was about $150k. By the end of the year, 
the value of the stock that I owned by virtue of the options I 
exercised was about $75k, or about half the value of the AMT tax I 
owed. i2 Technologies was trading in the spring of this year at 
approximately $0.50.
    Congress passed laws encouraging individuals to buy and hold stock 
rather than trading it on a short term basis when they reduced the 
capital gains tax rate. When I exercised the stock options I intended 
to hold those shares and that's exactly what I did. When more of my 
options vested I planned to exercise them and hold them also. I had no 
inside knowledge of the impending collapse of the tech industry. As far 
as I knew, our products were world class and our solutions were saving 
our customers real money.
    In early 2001, I thought that we were experiencing a market 
correction and that i2 was a great company. Soon the market would see 
that i2 saved it's customers money and it would reward the company with 
a higher stock price. So I didn't sell the shares in early 2001 even 
though the value of those shares was then less than half of the tax 
liability. Later that year, I submitted an Offer In Compromise of about 
half the value of my IRA, which at the time was about $40k. It was 
rejected.
    Today I am living with my wife's family, on disability, with 
virtually no savings other than a very modest IRA which today is worth 
about $10k. My tax liability has increased through penalties and 
interest to about $200k. The appeal of my first Offer In Compromise was 
rejected in May 2003 since at that time, although confined to a 
wheelchair, I was still employed even though I explained that since my 
condition, Freidriech's Ataxia, was progressive and incurable, it was 
not likely that I would be able to work for more than 9-12 more months. 
I finally had to quit work in March of 2004, about 10 months after my 
appeal.
    The tax liability that I have is ridiculous and unfair. The fact 
is, if the AMT threshold of $40k, which was established in the late 
1960's, had been adjusted for inflation, the unintended victims of this 
shortsighted tax law would still be unaware of what AMT means.
    In my case, the tax liability has hung over my head now for more 
than 4 years. I have submitted another Offer In Compromise, this one 
significantly smaller than the one that was rejected over 2 years ago. 
I no longer own a home and my savings has dwindled. The appeals agent 
at the IRS that heard my first Offer told me that although she 
sympathized with my situation, her hands were tied by the Service and 
she could not accept my offer.
    If the AMT tax was simply applied in the manner it was intended 
when it was established, even during the tech bubble, the average 
worker who had been rewarded by her company for excellent work would 
not face financial ruin at the hands of the IRS. After all, I didn't 
benefit from owning that stock. Why should I owe any tax on it? Why 
should I owe so much more than I am worth? Why doesn't the IRS allow 
it's appeals agents to make decisions that are good for the treasury 
and good for the individual taxpayer?
    I have a Collection Due Process hearing scheduled for Sept. 1. 
After that meeting, even as I continue to be optimistic, I will 
probably consult with my legal representative about filing for 
bankruptcy. I owe much more than 10 times my net worth in taxes and my 
only income is Social Security Disability and the long term disability 
provided by a private insurer. My IRA is being decimated by legal fees 
and I am utterly powerless to stop this unfair and unreasonable action 
against me and my family.

                                 <F-dash>

                                         Manchester, Michigan 48158
                                                    August 31, 2005

House Ways and Means Committee

    I am an average middle class American working in the high tech 
computer industry. I have been employed with the same company for about 
7 years. I was granted ISO stock options as part of my compensation 
package when I first started. During the Internet boom on the stock 
market, my ISO stock options had a paper value of approximately $2M. I 
never saw this money due to the dramatic rise and then crash of the 
stock market valuations. In the year 2000, I had income of 
approximately $100,000. However, when my accountant calculated out what 
I owed due to AMT, the amount equaled $371,000. . . . This is due to 
the overvaluation of the stock during the year 2000 and not taking into 
account the dramatic fall of the stock. I was absolutely certain the 
accountant was wrong, because how could tax rates exceed my entire 
income! I checked with many attorneys, and tax accountants to find 
that, in fact, the accountant was correct and it was due to a little 
known tax called Alternative Minimum Tax, which is basically an 
interest-free loan to the government that gets credited back to you 
over time. . . .
    So, I entered the paperwork that says I owe $371,000, however I did 
not have the money, nor do I have it today. In fact, that stock that 
was valued at $150 per share was now trading at $5 per share and my 
option price was $4.28 per share. So, my stock value that was left was 
less than $10,000. As you can see the AMT is not working the way it was 
intended. I conducted a lot of research into the tax, the history, and 
joined an organization that is made up of many other hard-working, 
honest taxpayers that this has affected.
    My wages are currently being garnished by the IRS and only allowed 
to take home $332 per week. With the current gas prices over $3.00 per 
gallon, it costs me about $32 a day to drive to work and back home. So 
after paying for gas, I am left with about $172 per week. I am 
borrowing money weekly to stay afloat financially and going into more 
debt by the day. . . . My life is being destroyed by a huge, unfair tax 
burden and since I am also raising 2 children, I am barely able to buy 
them groceries, let alone put money away for their college education. I 
have filed for an installment agreement with the IRS and that was 
denied. I have filed appeals with the IRS and those were denied. I am 
currently looking for help in any fashion to pay the IRS a reasonable 
amount to move on and get on with my life. When the accountant did my 
taxes without AMT for 2000, the tax would have been $10,000 extra over 
what I paid thru the year. However, even when I offered to pay the IRS 
$1,000 every month for 7 years, ($84,000) they refused and continue to 
take my paychecks except the $332 per week they think I can live on. . 
. . HELP!!!!!

                                                   Michael K. Brown

                                 <F-dash>
  Submission of Herman Cain, New Voters Alliance, Stockbridge, Georgia
 The Federal Tax Code Must be Replaced with a Fairer and Simpler System
I. Introduction
    The current income tax system cannot be reformed. It creates 
disadvantages for multinational businesses, domestic businesses, 
individuals, and our government.
    No amount of tinkering with a portion of the tax code is going to 
fix it. It is too complicated. It inflates the costs of U.S. goods and 
services to other nations. It is too unfair and inefficient. It 
discourages people from working harder to achieve upward economic 
mobility, which destroys hope and opportunity.
    The current tax system needs to be replaced. It can be replaced 
with an integrated plan including a progressive national sales tax, 
also known as the FairTax (H.R. 25 and S. 25).
    Several commissions over the last twenty years, including the one I 
served on in 1995 (The National Commission on Economic Growth and Tax 
Reform or Kemp Commission), have all concluded that a replacement tax 
system should satisfy six principles.
    First, it should promote economic growth by reducing marginal tax 
rates and eliminating the tax bias against savings and investments.
    Second, it should promote fairness by having one tax rate and 
eliminating all loopholes, preferences and special deductions, credits, 
and exclusions.
    Third, it should be simple and understandable. Simplicity would 
dramatically reduce compliance costs and allow people to truly 
comprehend their actual tax burden.
    Fourth, it should be neutral rather than allowing misguided 
officials to manipulate and micromanage our economy by favoring some at 
the expense of others.
    Fifth, it should be visible so it clearly conveys the true cost of 
government and so people would not be subjected to hidden changes in 
the tax law.
    Sixth, it should be stable rather than changing every year or two 
so people can better plan their businesses and their lives.
    In remarks made in March 2005 before the President's Advisory Panel 
on Federal Tax Reform, Federal Reserve Chairman Alan Greenspan stated, 
``Many economists believe that a consumption tax would be best from the 
perspective of promoting economic growth particularly if one were 
designing a tax system from scratch because a consumption tax is likely 
to encourage saving and capital formation.''
    Consider the compelling advantages of replacing the current income 
tax code with the FairTax.

    <bullet>  Gross Domestic Product increases, according to several 
independent economists, by 10.5 percent in the first year and levels 
off in succeeding years at approximately 5 percent annually.
    <bullet>  Consumer prices decrease, again according to independent 
economists, an average of 12 to 25 percent due to corporate taxes and 
compliance costs currently embedded in the costs we pay for goods and 
services.
    <bullet>  A single-rate national sales tax rate on all new goods 
and services at approximately $0.23 from every dollar spent is revenue-
neutral and replaces the current annual tax revenues of nearly $2 
trillion.
    <bullet>  The annual amount of tax avoidance by an army of 18-
million non-filers, according to IRS estimates, is nearly $300 billion. 
This amount does not escape the FairTax.
    <bullet>  The annual cost of compliance with the tax code is 
estimated at over $250 billion. In addition, businesses and taxpayers 
spend nearly seven billion hours each year filling out their IRS forms 
and many more calculating the tax implications of business decisions.
    <bullet>  The annual amount of tax loss due to illegal activity is 
estimated between $500 billion and $1 trillion. Under the FairTax, 
those engaged in illegal activities no longer avoid paying their fair 
share.
    <bullet>  Imported goods are treated the same as domestically 
produced goods. This means U.S. businesses are much less likely to 
locate their plants overseas and foreign manufacturers are far more 
likely to locate their plants in the U.S.A.
    <bullet>  All taxpayers have an equal voice, not just people who 
can afford tax lobbyists and skilled tax accountants.
    <bullet>  The FairTax effectively untaxes the poor, due to its 
rebate provision, greatly simplifying the current earned income tax 
system, while better encouraging work. What encourages work more than 
no federal taxes of any kind being taken from a paycheck?
    <bullet>  The FairTax does not punish those who work second jobs to 
improve their family's economic situation.
    <bullet>  The FairTax untaxes education, by allowing parents to 
save and invest for their children's futures.

    These advantages of the FairTax plan have been well researched, 
analyzed, and documented by some of the most respected business people, 
economists, and academicians in the country. Hundreds of thousands of 
citizens are now actively supporting a change from an income tax to 
this national sales tax on consumption. The FairTax unleashes the full 
potential of the U.S. economy, and the potential inside businesses and 
individuals to pursue economic freedom.
II. Description of proposal
    The FairTax is a non-partisan proposal that abolishes all federal 
income taxes including personal, estate, gift, capital gains, 
alternative minimum, corporate, Social Security, other payroll, and 
self-employment taxes and replaces them all with one simple, visible, 
federal retail sales tax.
    The FairTax dramatically changes the basis for taxation by 
eliminating the root of the problem: Taxing income. The FairTax taxes 
us only on what we choose to spend, not on what we earn. It does not 
raise any more or less revenue; it is designed to be revenue neutral. 
The FairTax is a fair, efficient, and intelligent solution to the 
frustration and inequity of our current tax system.
Collection Methods
    Retail businesses collect the tax from the consumer, just as state 
sales tax systems already do in 45 states; the FairTax is simply an 
additional line on the current sales tax reporting form. Retailers 
collect the tax and send it to the state taxing authority. All 
businesses serving as collection agents receive a fee for collection, 
and the states also receive a collection fee. The tax revenues from the 
states are then sent to the U.S. Treasury.
Impact on Businesses
    Today, too many layers of business, income, payroll, capital gains, 
and estate taxation provide numerous disincentives to expand businesses 
and hire new workers. According to Harvard University Economics 
professor Dr. Dale Jorgensen, embedded costs from various forms of 
taxation account for an average of 22 percent. These embedded costs 
are, of course, passed on to consumers like any other cost of 
production.
    To remain competitive, each year businesses are forced to ship 
manufacturing plants and jobs overseas. Stifling self-employment taxes 
and the paperwork required to comply with them discourage individuals 
from exercising the entrepreneurial spirit and pursuing their American 
dreams.
    The FairTax allows U.S. businesses to sell their exports overseas 
for approximately 22 percent less, on average, than they do now, and 
with similar profit margins. With the FairTax system in place, 
businesses can choose to expand their capital investments, hire more 
employees, pay employees higher wages, and lower consumer prices.
Distribution of the Tax Burden
    Under the FairTax, the tax burden falls on those who spend, and it 
falls greatest on those who spend the most on new goods and services.
    The FairTax also contains a rebate feature. All Social Security 
cardholders who are legal U.S. residents receive a monthly rebate 
equivalent to the FairTax paid on essential goods and services up to 
the poverty level. The size of the rebate is determined by the 
Department of Health and Human Services' poverty level multiplied by 
the tax rate. This calculation includes considerations for food, 
clothing, shelter, and medical care.
    The rebate feature, which is funded from the sales tax revenues, 
effectively untaxes the working poor and those on fixed incomes. In 
addition to receiving the monthly FairTax rebate, these taxpayers are 
freed from regressive payroll taxes, the federal income tax, and the 
compliance burdens associated with each. They no longer pay the 
imbedded taxes on goods or services, and they can purchase used goods 
tax free.
    Because of the rebate feature, those below the poverty line have a 
negative effective tax rate and lower middle-income families enjoy 
lower effective tax rates than they do today.
    Under the FairTax, the tax burden is fairly distributed. It is, in 
fact, much more fairly distributed than under the current income tax 
code. Wealthy people spend more money than other individuals. The 
FairTax taxes them on their purchases and as a result, they pay both a 
higher effective rate and more in taxes.
    The FairTax is premised on the notion that it is fairer to tax 
individuals when they consume for themselves above the essentials of 
life, rather than when they invest in their businesses and their 
children's futures.
    Education is one of the keys (along with savings and hard work) to 
an improved standard of living. That certainly was true in my case. I 
was the first person in my family to attend and graduate from college. 
It took a lot of hard work, and a lot of sacrifice by my parents. The 
FairTax is education friendly and is dramatically more supportive of 
education than current law. The FairTax embodies the principle that 
investments in people (human capital) and investments in things 
(physical capital) should be treated comparably. The current tax 
system, in stark contrast, treats educational expenditures very 
unfavorably.
    For nearly every citizen, attainment of a quality education is an 
absolute minimum requirement for success in life, whether you measure 
success by economic status or virtually any other standard. Yet the tax 
system today punishes people who invest in education, virtually 
doubling its cost.
    Today, to pay $10,000 in college or private school tuition, a 
typical middle-class American must earn $15,540 based only on federal 
income taxes and the employee payroll tax.\1\ The amount one must earn 
to pay the $10,000 is really more like $20,120, once employer and state 
income taxes are taken into account.\2\
---------------------------------------------------------------------------
    \1\ $15,540 less 7.65 percent in employee Social Security and 
Medicare payroll taxes ($1,189) less 28 percent in federal income taxes 
($4,351) leaves $10,000.
    \2\ Economists generally agree that the employer share of payroll 
taxes is borne by the employee in the form of lower wages. This figure 
assumes that employees bear the burden of the employer payroll tax and 
that they are in a seven percent state and local income tax bracket. 
$20,120 less $5,634 in income tax (28 percent), $3,079 in payroll taxes 
(15.3 percent) and $1,408 in state and local income taxes (7 percent) 
leaves $10,000.
---------------------------------------------------------------------------
    The FairTax does not tax education expenditures. Education is paid 
for with pre-tax dollars. This is the equivalent of making educational 
expenses deductible against both the income tax and payroll taxes 
today. Thus, a family needs to earn $10,000 to pay $10,000 in tuition, 
making education much more affordable. The FairTax makes education 
about half as expensive to American families compared to today.
Exemptions, Deductions, Credits, and Exclusions
    Exempting items by category is neither fair nor simple. Numerous 
studies have shown that the wealthy spend much more on unprepared food, 
clothing, housing, and medical care than do the poor. Exempting these 
goods, as many state sales taxes do, actually gives the wealthy a 
disproportionate benefit. Also, today these purchases are not exempted 
from federal taxation. The purchase of food, clothing, and medical 
services is made from after-income tax and after-payroll tax dollars, 
while their purchase price hides the cost of corporate taxes and 
private sector compliance costs. Tax lobbyists and special interest 
groups work hard every day to create and protect tax credits, 
loopholes, and deductions that benefit their clients. Those who have 
the money will send lobbyists to Washington to obtain special tax 
breaks in their own self-interest. This process causes unfair and 
inefficient distortions in our tax code and our economy and must be 
stopped.
    Though the FairTax eliminates all credits, loopholes, and 
deductions, homeowners and those who contribute to religious and other 
charitable organizations realize a greater financial benefit than they 
do under the current system. Currently, 70 percent of taxpayers do not 
itemize deductions on their income tax returns. Of the 30 percent who 
do itemize deductions, those who take the home mortgage interest 
deduction pay their interest with post-Social Security/pre-income tax 
dollars. They then pay their principal with post-SS/post-income tax 
dollars. The 70 percent who do not itemize receive no tax benefit at 
all. Under the FairTax, all homeowners make their entire house payment 
with pre-tax dollars. With the FairTax, mortgage interest rates fall by 
about 25 percent (about 1.75 points) as bank overhead falls; this is a 
huge savings for consumers. For example, on a $150,000, thirty-year 
home mortgage at an interest rate of 7.00 percent, the monthly mortgage 
payment would be $999.12. On that same mortgage at a 5.25 percent 
interest rate, the monthly payment is $830.01. Over 30 years, the 1.75-
percent decrease in interest rates in this instance results in a 
$60,879 cost savings to the consumer. First-time buyers also benefit 
under the FairTax, which allows them to save for a down payment much 
faster. Under the FairTax, home ownership is a possibility for many who 
have never had that option under the income tax system. Lower interest 
rates, the repeal of the income tax, the repeal of all payroll taxes, 
and the rebate mean that people have more money to spend, and have an 
increased opportunity to become homeowners. Contributions to religious 
and charitable organizations depend on one factor more than any other: 
The health of the economy.
    For all of the money that pours into churches every Sunday and into 
a broad range of charities every day, only the 30 percent of donors who 
itemize deductions receive any tax benefit. The other 70 percent donate 
their money and receive no tax benefit. The FairTax allows all people 
to make charitable contributions from pre-tax dollars. As a result, 
those generally less affluent taxpayers who do not itemize see their 
cost of charitable giving go down under the FairTax. The wealthy make 
decisions on charitable giving based on the cause. Once they have 
determined the cause is worthy, their contribution is structured to 
maximize the gift and minimize the tax. But the intention to give comes 
first; taxes simply determine the structure--rarely the amount--of the 
gift.
III. Impact of proposal relative to current system
The FairTax Encourages Economic Growth
    The FairTax significantly enhances economic performance by 
improving the incentives for work and entrepreneurial activity and by 
raising the marginal return on savings and investments.
    Entrepreneurs and small business owners get greater access to 
capital, the life-blood of a free economy. Investments rise, the 
capital stock grows, productivity increases and the output of goods and 
services expands. The economy creates more and better paying jobs for 
American workers and payrolls increase considerably.
    Although the magnitude of the economic growth generated by a 
single-rate, neutral tax system causes lively debate among economists, 
virtually all agree that the large marginal tax rate reductions with a 
national sales tax, combined with neutral taxation of savings and 
investments, has a powerful positive effect on the economy.
    For example, Dr. Jorgensen conducted a research analysis in 1997 
that showed that a national sales tax produces a 10.5-percent increase 
in Gross Domestic Product, a 76-percent increase in real investments, 
and a 26-percent increase in exports in the first year of a national 
sales tax enactment.
    Those increases level off at 5 percent, 15 percent, and 13 percent 
respectively over the succeeding twenty-five years. Nothing promotes 
the competitiveness of U.S. businesses more than growth in our national 
economy, more dollars to grow our businesses, and a level playing field 
for selling our products and services to other nations.
The FairTax is Simple
    The FairTax is a simple, single-rate tax on the retail price of new 
goods and services. Individuals who are not in business have absolutely 
no compliance burden, nor are they subject to the discretionary 
interpretation of the current, convoluted tax code.
    Businesses also benefit under the FairTax. There is no more 
alternative minimum tax, no more depreciation schedules, no more 
complex employee benefit rules, no more complex qualified account and 
pension rules, no more complex income sourcing and expense allocation 
rules, no more foreign tax credit, no more complex rules governing 
corporate acquisitions, divisions and other reorganizations, no more 
uniform capitalization requirements, no more complex tax inventory 
accounting rules, no more income and payroll tax withholding, and the 
list goes on. Retail businesses simply need to keep track of how much 
they sold to consumers.
    Compliance costs, therefore, fall under the FairTax while 
compliance improves. Today, individuals and businesses spend about $250 
billion each year and an estimated seven billion hours filling out 
forms, hiring tax lawyers, accountants, benefits consultants, and 
collecting information needed only for tax purposes. To the extent 
these costs are incurred by businesses, they must be recovered and 
consequently are embedded in the cost of everything we buy.
    In addition, the FairTax is easy to collect. Retail businesses 
collect the tax from the consumer, just as state sales tax systems 
already do in 45 states; the FairTax is simply an additional line on 
the current sales tax reporting form. Retailers simply collect the tax 
and send it to the state taxing authority. All businesses serving as 
collection agents receive a fee for collection, and the states also 
receive a collection fee. The tax revenues from the states are then 
sent to the U.S. Treasury.
The FairTax is Neutral
    Under the FairTax, all consumption is treated equally. The current 
tax code punishes those who save and rewards consumption. Under the 
FairTax, the tax system is no longer in the business of picking winners 
and losers. The tax code is neutral in the choice between savings and 
consumption, neutral between types of savings and investments, and 
neutral between types of consumption.
The FairTax is Visible
    The FairTax is highly visible, because there is only one tax rate. 
Moreover, all citizens are subject to any tax increases, not just a 
targeted few. It would be much harder for Congress to adopt the typical 
divide-and-conquer, hide-and-disguise tax increase strategy it uses 
today. The FairTax explicitly states the contribution to the Federal 
Government each and every time a new good or service is purchased--
right at the bottom of the retail sales tax receipt.
The FairTax is Stable
    The FairTax is a more stable source of government revenues than the 
present system for two reasons.
    First, because it is so simple and transparent, it does not invite 
tinkering in the way that the current system does with its thousands of 
pages of code and regulations. The public would resist attempts to make 
it more complex and they would resist any attempts by Congress and 
special interests to reward certain groups or certain types of 
behaviors.
    Second, taxing consumption is a more stable source of revenue than 
taxing income. There are fewer fluctuations in the consumption base 
than in the income base. A recent study by the American Farm Bureau 
Federation showed that for the years 1959 to 1995, a national sales tax 
base was less variable than the income tax base. Why? When times are 
unusually good, people will usually save a little more. People tend to 
smooth out their consumption over their lifetime. They borrow when 
young, save in middle age, and spend more than their income in 
retirement.
IV. Transition, tradeoffs, and special issues
The FairTax is Revenue Neutral
    The 23-percent tax rate, when compared to current income and 
payroll tax rates, has been carefully calculated to (1) raise the same 
amount of federal funds as are raised by the current system, (2) pay 
the universal rebate, and (3) pay the collection fees to retailers and 
state governments. Unlike some other proposals, this rate has been 
independently confirmed by several different non-partisan institutions 
across the country. Detailed calculations are available from 
www.FairTax.org.
    The FairTax pays for all current government operations, including 
Social Security and Medicare. Government revenues are more stable and 
predictable under a consumption tax than with the federal income tax, 
because consumption is a more constant revenue base than is income.
    If you were in a 23-percent income tax bracket, the Federal 
Government would take $23 out of your paycheck for every $100 you made. 
With the FairTax, if the Federal Government receives $23 out of every 
$100 spent in America, the same total revenue is delivered to the 
Federal Government. This is revenue neutrality.
    So, instead of paycheck-earning Americans paying 15.3 percent of 
their payroll in Social Security and Medicare payroll taxes, plus an 
average of 18 percent of their paychecks in federal income tax, for a 
total of about 33 percent, consumers in America pay only $23 out of 
every $100 they chose to spend. The FairTax is progressive, since it is 
collected only on spending above the federal poverty level.
V. Summary
    Sales taxes as a stable and reliable source of revenues are not 
new--most Americans come into contact with sales taxes daily, since 45 
states currently use them to collect state revenues. It is easier to 
switch from an income tax to the FairTax system than it is to switch 
from gallons to liters or from feet to meters! Of course, those who 
depend on the structure and complexity of our current system (e.g., tax 
lobbyists, tax preparers, and tax shelter promoters) will have to find 
more productive economic pursuits (and they will fight the FairTax plan 
tooth and nail). However, everyone will have enough advance notice to 
adjust to the new system.
    Under the FairTax, everyone has to think about taxes in a different 
way. Income--what we earn--no longer has to be documented, measured, 
and kept track of for tax purposes. The only relevant measure of our 
tax liability is the amount we choose to spend on final, discretionary 
consumption. Tax-related issues suddenly become a lot simpler and more 
straightforward than they used to be. The aggravation and anxiety 
associated with ``April 15th'' disappear forever after passage of the 
FairTax.
    Under the FairTax, job creation booms. Residential real estate 
booms. Financial services boom. Exports boom. Retail prospers. Farming 
and ranching prosper. Churches and charities prosper. Civil liberties 
are enhanced. In short, it is difficult to imagine all the far-
reaching, positive effects of this change from taxation on income to 
taxation on consumption.
    The future stability of our nation's economic infrastructure, and 
the future for our children and grandchildren, will be determined by 
the political will and courage in Congress to be aggressive with 
solving the big issues such as the tax code mess. The 92-year-old 
income tax code thwarts the natural, individual motivation of citizens 
to use their God-given talents to pursue happiness and their respective 
dreams.
    Conversely, the FairTax allows all Americans to own all the returns 
on their sweat equity as the fruits of their labor. Ownership lets 
people realize their dreams and opportunities and is the key to the 
greatest nation on earth remaining the greatest nation. We have a moral 
obligation to protect our Founding Fathers' vision and to protect the 
unalienable right of ownership for our grandchildren.
    It's our unalienable responsibility.

                                 <F-dash>

                                         Coalition for Tax Fairness
                                          Arlington, Virginia 22209
                                                    August 31, 2005

To Honorable Chairman Dave Camp, Honorable Ranking Member Michael 
McNulty, and the Honorable Members of the Select Revenue Measures 
Subcommittee:

    The Alternative Minimum Tax (``AMT'') has received substantial 
negative press because of its many anomalous provisions. In the case of 
the AMT imposed on incentive stock option exercises, taxpayers are 
being forced into bankruptcy with tax rates of 300% or more of their 
income.
    The Coalition for Tax Fairness fully endorses and supports H.R. 
3385, legislation introduced by Representative Sam Johnson that 
provides focused relief for those taxpayers being most seriously harmed 
by the AMT's unintended consequences--those trapped by the AMT's 
treatment of incentive stock option exercises. H.R. 3385 has already 
received significant bi-partisan co-sponsorship. We urge the Select 
Revenue Measures Subcommittee to support this fair and important 
legislation critical to the financial survival of tens of thousands of 
hard-working, honest Americans.
I. H.R. 3385 Addresses a Severe and Unintended Consequence of the Tax 
        Code
    During the 1990s, many employers offered ISOs as compensation to 
attract more talented employees than they could otherwise afford. 
Congress encouraged this type of employee investment in their companies 
and in the economy by creating tax rules that did not tax ISOs upon 
their exercise and encourage a quick sale, but instead rewarded 
taxpayers by offering the more favorable capital gains tax rates to 
those who held their stock for one year.
    The AMT, in the context of the economic downturn, eliminated these 
benefits without any warning and sent taxpayers into a downward spiral 
from which many have yet to recover. The AMT taxed the transaction on 
the exercise date as though the taxpayer actually sold the stock 
immediately and realized a gain, even though he did not receive any 
actual gain and in fact the stock lost most or all of its value prior 
to sale. The AMT therefore caused massive tax prepayments on phantom 
income.
    Those entrepreneurs and company employees subjected to this AMT 
have ended up owing massive prepayments of tax for income never 
received. These prepayments have become interest-free loans to the 
government that, due to further quirks in the law, will never be 
repaid. Those taxpayers who do not have the resources to make these 
massive interest-free loans to the government are incurring interest 
and penalties. Many have lost (or are in the process of losing) their 
homes, retirement savings, and college savings--while the prepayments 
they are making build up more useless AMT tax ``credits.'' Those who 
exercised ISOs, in the years 1999-2003 especially, and did not sell (in 
many cases upon the advice of their trusted advisers or due to insider 
trading restrictions) continue to suffer greatly at the hands of the 
AMT. Adverse market conditions and a conflict between the tax and 
securities laws exacerbated the problem.
II. Summary of H.R. 3385 Relief and Revenue Generating Provisions
    H.R. 3385 will alleviate current and future suffering through 
refunding the prepayments over a five year period, once the credits 
have been outstanding for more than four years. This will allow people 
a window of hope where they can see an end to the financial ruin 
nightmare they have been enduring.
    H.R. 3385 alleviates this unfair and unnecessary suffering in a 
manner that generates revenue through enhancing future compliance. This 
Bill reinforces compliance by providing for corporate ``matching'' 
reporting to the IRS of employees' ISO exercises, thereby increasing 
voluntary compliance and ensuring everyone pays their fair share. This 
measure prospectively institutes mandatory reporting of ISO exercises, 
without any additional administrative cost, thereby substantially 
increasing tax revenues.
III. H.R. 3385 is Good Tax Policy and Good for the Economy
    The irony in this situation is that many people are paying 
significant interest on loans from private creditors to prepay their 
interest-free loan to the government. In some cases, the amounts at 
issue exceed hundreds of thousands, even millions, of dollars. 
Additionally, the IRS is increasing the burden by imposing interest and 
penalties on the taxpayers who haven't been able to pay all of their 
AMT because they simply lack the financial resources. Under the 
proposal, returning an excessive AMT prepayment is not a tax rebate, 
nor is it an unprincipled refund. The AMT credits were in fact intended 
to be returned to the taxpayers in a reasonable time, and to the extent 
the quirks in the AMT code undermine this repayment intent and extend 
the ``repayment period'' out to tens and hundreds of years--H.R. 3385 
fixes this mistake.
    Without the passage of H.R. 3385, the current application of the 
AMT/ISO provision will continue to cause unintended, egregious, and 
devastating tax burdens, and hobble the very entrepreneurial drive that 
made small business a powerful engine of the U.S. economy. With the 
passage of H.R. 3385, citizens can spend their ambition, time, and 
effort growing the U.S. economy--rather than fighting unjust tax laws.
    We urge the Select Revenue Subcommittee to fully support this fair 
and urgent relief for the good of the economy and to give American 
taxpayers the fair treatment they deserve.

                                                 Timothy J. Carlson
                                                          President

                                 <F-dash>
              Submission of Earl Carter, Huntsville, Texas
    Distinguished Members of the House Committee on Ways and Means:
    First, allow me to thank you for undertaking this most important 
hearing! It is hugely important to the country that you get it right in 
reforming our tax code as we will all live with the result for a long 
time.
    Pursuant to that, the only current tax reform proposal that meets 
ALL the criteria set forth by the President in his charge to the 
members of his tax reform panel is the proposal set forth in H.R. 25/S. 
25, the FairTax plan. Nothing else even comes close in my estimation.
    Under the FairTax, the United States will become the most 
attractive industrialized country in which to manufacture in the world! 
The cost of capital will decline dramatically. American manufacturers 
will be more competitive in the global marketplace. American firms will 
be much more likely to build plants in the U.S. Foreign firms are 
likely to find the U.S. a highly attractive place to build their plants 
to serve U.S. and foreign markets, given the stable political 
environment, an educated workforce, the large domestic market and the 
lack of an income tax. The construction and operation of these new 
plants would generate relatively high-paying jobs. Exports would no 
longer bear the burden of embedded income and payroll taxes and imports 
would bear the same sales tax burden as domestically produced goods. 
For the first time, exported and imported goods will have the same tax 
treatment. Imported goods will no longer be advantaged over 
domestically produced goods.
    The overall U.S. economy will grow dramatically under the FairTax. 
All known economic projections predict a much healthier economy. Real 
wages will increase. People will be able to purchase more and better 
homes in a healthy economy. Typical estimates are that the economy will 
be 10 to 14 percent larger than it would have been under the income tax 
within 10 years, and both production and consumption will grow 
substantially. Some studies show the potential gains to be much higher. 
Manufacturers will make more money in a prosperous, growing economy.
    The Fairtax plan would also go a long way toward solving the 
solvency issues currently existing in our Social Security and Medicare 
programs as well.
    And last but far from being least, the Fairtax would return our 
country's taxing method to something much more in keeping with methods 
envisioned by our founders as opposed to the current progressive income 
tax which was endorsed by Karl Marx and Frederick Engels in their 
``Manifesto of the Communist Party.''
    The progressive income tax properly needs to be put where its' main 
adherents political philosophy has already found itself, on the ash 
heap of history, and I beg you to do exactly that by replacing it with 
a NRST very similar to that set forth in H.R. 25/S. 25!

                                 <F-dash>

                                        Cupertino, California 95014
                                                    August 31, 2005

To Honorable Chairman William M. Thomas and House Ways and Means 
Committee

Dear Honorable Chairman Camp and Ranking Member McNulty

    I have submitted my testimony and shared my story at the following 
hearings:

    6-15-2004, Ways & Means Hearing on Tax Simplification, Oversight 
Subcommittee
    3-17-2005, President's Tax Reform Advisory Panel
    6-08-2005, Hearing on Tax Reform, Full Committee

    I now wish to share my story directly with you in hopes of 
garnering your support and leadership of the Honorable Sam Johnson's 
H.R. 3385.
    Recent updates since my last testimony submission. The IRS is now 
requesting that I prepay an additional $400,000, and $600,000 in 
penalties and interest. It's not bad enough that I already overpaid my 
taxes by $1.4 million, a 2000% tax bracket that will take me 433 years 
to have returned to us, but they want to now place me in a 3500% tax 
bracket that will take me 800 years to have returned to me. If this 
isn't legalized extortion I don't know what you would call it!!! It is 
ludicrous to cause such a cash flow/bankruptcy situation on the 
American public for the sake of prepaying a tax that isn't really owed 
and never returned even after the gain/loss has been determined.
    God bless this great country and you our leaders to break the 
chains of tyranny we find ourselves captive of.
    We respectfully and urgently request your support of H.R. 3385.

                                     ----------

    Dear Chairman Thomas and Committee Members: My name is Joseph Cena 
and I am writing on behalf of my family, Dawn and Justin. We appreciate 
the opportunity to discuss the hardships we have suffered due to the 
challenges that have been set forth by the Alternative Minimum Tax 
Laws. We hope that our situation can assist with putting into place 
changes that will allow for more reasonable tax policy as opposed to 
such restrictions that have been causing financial turmoil and ruin for 
so many Americans.
    I am attaching the original letter that we submitted June 04 to the 
Ways & Means Oversight ``Tax Simplification Hearing'' although the 
language is a tad bitter, I felt it needed to be included as we truly 
feel that this has come to harm so many taxpayers. It was a plea for 
help because our situation, while unique, is so similar to many other 
Americans and we felt helpless. My only hope is that you will read it 
with compassion and be open-minded as there are thousands of stories 
that are more heart wrenching than ours.
    Please help us implement a new tax law that does not create a 
phantom tax on unrealized gain. No one should have to pay tax for 
something that is not tangible, but rather looks good on paper. We beg 
of you and your Committee Members to take a look at how this would 
affect you if you were faced with the same situation. Only then will 
change be possible.

                                        Joseph Cena & Dawn Hasegawa

                                     ----------
    I write to thank you for taking on the difficult task of 
simplifying our tax code. I respectfully enlist your support and ask 
you to please act for the sake of thousands of families who are being 
financially decimated (mine included), for the sake of the general U.S. 
economy that is being adversely affected, to help hard-working 
taxpayers regain faith in the IRS and to repeal one of the most 
egregious applications of Tax Policy ever enacted: the dreaded and 
stealthy Alternative Minimum Tax (AMT).
    This woefully outdated policy forced me and my family into a 2000% 
tax bracket in 2000 and required us to provide an interest free loan to 
Treasury that will take us 433 years to receive back!!
A little bit about us:
    My family has lived and worked in California for 26 years. Our home 
is a 56-year-old, 1,245 sq. ft., 3-bedroom ranch home in Cupertino, 
California. We have a 9-year-old son, Justin. My wife, Dawn, is a 
unionized Registered Nurse of 23 years who is currently working in the 
Stanford University Hospital Emergency Room. Both of us are approaching 
our fifties, and our living parents require our financial support, 
which we are unable to provide in our current situation. As you will 
easily understand, our experience with the AMT has been very stressful 
on our family and we have come close to divorce over this!
    I started my career in the electronic manufacturing sector working 
on programs for the Department of Defense, the first MRI unit, and 
other dynamic technological areas of industry. I proceeded to Stanford 
University where I consulted on exciting projects such as the Hubble 
Telescope, Sun-Net, the Rel-Gyro project (Testing Einstein's Theories), 
and helped the founders of Cisco Systems. From there it was back into 
High-Tech in 1994-2001 at Synopsys, and Network Appliance. Both firms 
offered stock options, and were on growth paths of 50-100% growth year 
over year. I typically worked 10-14 hours per day, 5-6 days a week.
    While I was a Customer Service Manager at Network Appliance, I was 
diagnosed with a life threatening disability and in December 2000, I 
started chemotherapy treatment. In spring 2001, while undergoing chemo, 
our accountant informed us that we were subject to a parallel tax 
called AMT and we were responsible for $2.1 million in tax to the IRS 
and California even though we didn't sell or have a gain.
    I was shocked to learn that the tax imposed had absolutely no 
correlation to actual gains; and that it would actually be an 
overpayment of $1.4 million!!! How is it possible that a law that was 
enacted in 1969, to catch 155 wealthy people who didn't pay taxes, is 
now forcing tens of thousands of hard-working citizens and 
entrepreneurs to legally pre-pay a tax and making it nearly impossible 
for them to recoup the overpayment in their, or their children's 
lifetime? To add insult to injury, the taxpayers who overpaid their 
taxes to the government do not earn interest on their own money even 
though Congress has established such safeguards for consumers requiring 
banks, escrow companies, landlords and others to provide interest 
income even on funds held in trust for even just a short term.
    Many are being driven into bankruptcy over phantom gains. I am 
certain that Congress did not intend to drive people to bankruptcy when 
it created the AMT in 1969. Under the regular tax system if a taxpayer 
overpays, he or she receives a refund in a lump sum, not so under AMT.
Impact on us and the U.S. economy by not having our tax credit 
        returned:
    Other than perhaps homeland security, there is no more important 
issue affecting my family than the AMT. Thankfully, my illness is now 
in remission. My wife and I had wanted to have more children, but we 
discovered we are medically unable. We then thought to adopt but we are 
financially unable to do so. I was laid-off during my disability in 
2001 and have been out of work for three years. My unemployment ran out 
long ago and we need the money. For example, my wife's 1991 Nissan 
truck has 133,000 miles and needs replacing. It would help us 
tremendously even if all we received was the interest on our credit.
    I have drawn up few business plans for ``start-ups,'' one a 
consumer wireless application, real estate venture and others. If I had 
my credit back I would put it to use to launch these businesses and 
help contribute to our economy--putting putting people back to work--
people who would be paying income tax!!
    Thank you for your time and consideration. I hope that with your 
leadership and help Congress can quickly enact a fair and principled 
reform to the ISO-AMT provisions and help us grow the economy.

                                        Joseph Cena & Dawn Hasegawa

                                 <F-dash>
                                      Foster City, California 94404
                                                    August 30, 2005

The Honorable Chairman William M. Thomas
The House Ways and Means Committee

To the Honorable Members Ways and Means Committee:

    Thank you for giving me the opportunity to write to you concerning 
tax reform. Specifically, I would like to address the Alternative 
Minimum Tax and its treatment of Incentive Stock Options.
    My name is Jeffrey Chou, and I have a wife and 2 daughters--one is 
4 years old, and the other is 1 year old. We currently face an AMT 
bill, from exercising Incentive Stock Options, which is greater than 
all our assets. And, because of the new bankruptcy laws that will be 
going into effect in October, we are seriously considering declaring 
bankruptcy within the next month. This issue cannot be more urgent. 
H.R. 3385 is the only bill that will save me from financial ruin by 
being taxed on money I never received.
    In 1996, I left a secure, stable job at a large company to help 
start a communications company as an engineer. My compensation 
consisted of an annual salary of $80,000 and Incentive Stock Options. 
Cisco Systems eventually acquired us. It was a happy time for my 
family, thinking that my hard work in helping to build a company would 
finally pay off.
    In 2000, we decided to exercise my stock options, and were advised 
to hold the stock for 1 year. We did not and do not live extravagant 
lifestyles. We live in a 3 bedroom townhouse--I drive a 1997 Toyota, 
and my wife drives a 1998 SUV. We have good credit and have always paid 
our taxes in full and on time. In April 2001, following my exercise of 
the Incentive Stock Options, we faced federal and state taxes of $2.4M, 
more than 6,000% of our normal income tax and more than everything we 
owned. We also faced an ethical and moral dilemma. As we sought 
professional help to deal with this tax liability, several CPAs advised 
us not to comply with the law--to simply omit reporting the exercise 
and the tax. We discovered that the AMT on exercising stock options is 
a self-reported tax. Many of my friends and colleagues took this 
approach, did not report their exercise of stock options, and to this 
day, live happy lives.
    However, we decided to ``do the right thing'' and comply. We had 
faith that our country, in return, would also ``do the right thing'' 
and not ruin its honest taxpayers. Since then, the IRS has sent us 
threatening letters, placed a lien on our names, attempted to levy our 
accounts, and actually visited our house demanding payment. The IRS 
rejected our Offer In Compromise and we appealed. The appeals officer 
admitted to us that our offer was in good faith and was reasonable, but 
that he still could not accept it. Today, we are in IRS collections.
    I do know that those who did not report are certainly glad they 
didn't. And I also know that among the many honest people I have met 
over the last 3 years whose situation is similar to mine, few or none, 
if faced with the same choice, would comply again. Why volunteer for a 
100% guarantee of ruin, when you can win the audit roulette 99.9% of 
the time? My friends, if caught, will simply claim ignorance of the 
law. I am told it will be hard to prove that they were not ignorant of 
the law given how many tax experts are unaware of the consequences of 
the interaction of the AMT with Incentive Stock Options.
    You may ask ``Why didn't you sell?''
    We are not sophisticated investors. I am an engineer; and my wife 
is a stay-at-home mom. We listened to advice that told us to hold for 1 
year. At the time, I had no knowledge of diversification or hedging 
strategies. I worked 12 hour days trying to build products and meet 
schedules. At night, I returned home to help my wife with our newborn 
daughter. That was my life. In addition, our CEO, all throughout 2000, 
even as late as December, kept touting Cisco's optimistic future, 
saying ``we will be the most powerful company in history,'' ``we are 
growing 30 to 50% every year,'' and ``we are breaking away from our 
competitors.'' At the time, he was never wrong before, so I felt no 
sense of danger for my job, for my company, or for the stock. I had 
faith in my company and its leaders.
    I sincerely ask Congress to help those in my situation. We are all 
honest taxpayers who want to do what is right for the country. Most of 
us are hard-working Americans who helped build a company and who wanted 
to remain part of that company instead of ``cashing in.'' We also want 
to pay our fair share of taxes--but please tax us like any other 
investor--tax us when we realize our gains, not on what we might have 
gained.
    I believe things happen for a reason. If I can be a small part in 
helping to correct this injustice, the faith I have in this great 
country is justified. My family and I respectfully ask for your support 
of H.R. 3385. We hope that its passage will come before our bankruptcy 
completes and our home is lost.
    This is the highest priority of my life. Please do not hesitate to 
contact me any time for any reason.

                                                       Jeffrey Chou

                                 <F-dash>

                                       Durham, North Carolina 27705
                                                    August 31, 2005

    Dear Chairman Thomas and Committee Members:

    My name is John Cole, and I am writing to you to share my story of 
a severe problem related to the Alternative Minimum Tax (AMT) and the 
way it has been applied to employee stock options. If you will bear 
with me I would like to begin by providing some personal background 
information.
    I was born in 1958, and grew up in Durham, NC. In 1977 at the age 
of 19 I moved to the San Francisco Bay Area, and for the next dozen 
years had a variety of blue collar jobs including home construction, 
cooking and waiting tables in restaurants, and working for moving 
companies. In 1989 at the age of 31 I went back to California Community 
College where I studied Computer Science for two years. When I was 18 I 
had attended College for 1 year, but had no clear direction and did not 
do well, which ultimately led to my withdrawing from school and heading 
West. However, the second time around I was highly motivated and 
extremely focused, and although I did not earn a degree I took 2-3 
classes a semester while working, and maintained a perfect 4.0 average.
    I was determined to provide myself with a solid foundation so that 
I could break into the growing world of hi tech, but being over 30 
years of age with no job experience turned out to be a significant 
drawback: I applied for literally scores of entry level jobs and was 
consistently turned down, most often without ever having opportunity to 
interview with anyone.
    Nonetheless I persevered and finally in March of 1992 was able to 
land a job initially paying $10/hour with a small startup software 
company, and over the next 3 years was able to grow within that outfit 
to where when I left I was the Senior Systems Engineer, and was the 
primary Technical Account Manager for many corporate customers which 
had site licenses for our e-mail package, including several large firms 
based in New York City, also Motorola and Ford Motor Company. It was 
the norm during that period to work 70-80 hour weeks, but I loved it: 
It was a period of tremendous personal growth for me, and coincided 
exactly with the emergence of the Internet as a public phenomenon.
    In January of 1996 I joined another software startup located in 
Silicon Valley. As was common practice at that time as part of a 
standard compensation package in addition to a base salary I was issued 
a modest number of Incentive Stock Options (ISOs) which would vest over 
a 4 year period. This was a model which allowed employees to feel they 
had a stake in the company, and again I worked on average well above a 
standard 40 hours/week, doing my part to help make the company a 
success.
    In May of 1998 the company was acquired by Cisco Systems, and my 
startup options converted to Cisco options numbering roughly 3,000 
total. A drop in the bucket compared to what management was issued, but 
a very healthy number for a rank-and-file employee like me. And over 
the next two years the stock split 2-for-1 twice, and 3-for-2 once, for 
an effective 6X increase, bringing my ISO total to 18,000!
    Due to the death of my sister after a long battle with cancer I 
decided in March of 2000 to leave Cisco and take some time off, stay 
close to home, and spend time with my mother, who was then 85. It just 
so happened that my leaving Cisco coincided precisely with the high 
water mark for the stock market, with the result being that the ISOs I 
had to ``use or lose'' within 90 days triggered a huge paper gain which 
ultimately resulted in over $225,000 in AMT liability. Unfortunately by 
the time the tax came due in April of 2001 the value of the stock had 
dropped by roughly 80% from its high point a year earlier, with the 
result being my tax bill exceeded the value of the stock assets that 
triggered it!
    I never sold any of the stock, never had any money whatsoever pass 
through my hands, never in any way benefited from owning the stock, yet 
I was about to be wiped out simply from exercising and holding on to 
what appeared to be an excellent investment in a very good company with 
real products used by organizations of every kind worldwide!
    I filed my year 2000 Federal return with an installment plan, but 
it was rejected due to the large amount of the tax liability. I called 
the IRS and attempted to expedite processing of my case, but was told I 
was ``in the queue and would just have to wait to be contacted by 
someone in IRS Collections.'' For the next year while waiting for that 
contact on my own initiative as a sign of good faith I made monthly 
payments which ultimately totaled over $67,000 toward my pending tax 
bill! Finally in late June 2002 I was contacted by a local Revenue 
Officer who was unwilling or unable to discuss anything other than 
collection of my assets, so I engaged a former IRS Collections Officer 
practicing as an ``Enrolled Agent'' and submitted an Offer In 
Compromise (OIC) in July 2002.
    Cisco, Nortel and other large employers in the RTP area of North 
Carolina had not only stopped hiring, they had laid off thousands of 
workers, flooding the local job market with highly qualified job 
seekers. The tech job market had completely dried up, and not for lack 
of trying I had been unable to secure work. Save for a failed attempt 
to establish myself as an independent consultant which resulted in only 
a single paying job I remained largely unemployed for over 2 years and 
my tax bill (which had grown due to penalties and interest) exceeded my 
net worth by roughly 150%, yet my OIC was rejected at the field level 
due to an insistence that I could pay it off in total!
    I was actually told in a letter from the IRS Offer Specialist 
handling my case that ``Mr. Cole has the ability to pay the taxes 
outstanding in full and should withdraw his offer from consideration. . 
. . no offer amount is sufficient, and no offer would be accepted.'' 
The Asset/Equity and Income/Expense tables the Offer Specialist used to 
justify that claim contained several computational errors, but the most 
egregious was that my ``ability to pay'' was substantiated by the Offer 
Specialist counting my remaining Cisco stock asset both as a source of 
ongoing monthly income, (to the tune of over $5,000/month), as well as 
a lump sum asset. In other words, the stock was counted twice, with 
ongoing income from it assumed after it was liquidated!!
    My representative pointed out this flawed logic to the Offer 
Specialist, but to no avail: The OIC was rejected at the field level. I 
appealed, and after another 13 months the IRS Appeals office finally 
accepted my OIC, but only after adjusting it to a dollar amount that 
reflected my net worth at that time, with terms of 50% of the 
settlement amount to be paid within 30 days, another 25% within 120 
days, and the final 25% within 240 days. I was able to make the first 
(50%) and second (25%) payments, but I have not been able to find more 
gainful employment, and at this point am unsure exactly how I'm going 
to make the final 25% payment, which is due mid August 2005.
    I filed and paid all my state and federal taxes for the last ten 
years, and have no outstanding tax issues other than these problems 
associated with ISO transactions from the year 2000. I was finally able 
to find full time employment in August 2003, yet ironically back at 
Cisco, working in a group which has been outsourced to a vendor which 
pays less than 1/3 what I was making when I was previously a direct 
Cisco employee. I am grateful to have the job, yet the income barely 
pays my basic living expenses, and now on top of dealing with the final 
OIC payment I'm also trapped in a cycle of credit card debt, with high 
interest rates and monthly service charges. I have been trying to build 
on being back in the tech workplace and find more gainful employment, 
but to date have been unable to do so. I guess I'm one of the few lucky 
ones who have been able to secure an OIC settlement, but at this point 
it doesn't feel that way; I just don't know how I'm going to make ends 
meet going forward.
    The payments I made proactively toward my year 2000 tax bill and 
the OIC settlement amount total up to about $180,000. Ironically, I 
have an AMT Credit available which can offset regular income tax for 
years to come, yet the IRS would not consider that credit as an asset 
to be considered as part of an OIC settlement, and due to the 
relatively small yearly income I make now I can't take significant 
advantage of that credit. The one thing that could help me stay afloat 
would be to return some or all of that AMT credit sooner. I implore you 
to consider that avenue of relief.
    Thank you for taking the time to consider my case, and of those in 
similar situations.

                                                          John Cole

                                 <F-dash>

                                            Richardson, Texas 75080
                                                    August 31, 2005

Committee on Ways & Means
U.S. House of Representatives
1102 Longworth House Office Building
Washington D.C. 20515

Dear Honorable Chairman Camp and Ranking Member McNulty:

    We have submitted our story in the past and are hoping to garner 
your support and leadership for the Honorable Sam Johnson's bill 3385 
on September 20, 2005 at the Committee for Ways and Means.
    My husband, Jerry and I live in Richardson, Texas where Jerry owns 
and manages Canyon Creek Art & Frame. In April of 1999, I joined Avanex 
Corporation and accepted a lower salary in lieu of an Incentive Stock 
Option grant. I was unfamiliar with ISOs but it was explained to me 
that someday the company might go public and that the stock could 
potentially provide a small gain or contribute nicely to a retirement 
fund.
    The company went public in February of 2000, and like many 
companies in that same year, did surprisingly well. It was scary and 
exhilarating all at the same time. The company advised their employees 
to talk to a financial advisor regarding long-term capital gains, 
short-term capital gains and AMT. We consulted a tax accountant, who 
told us we needed to be concerned about the capital gains, but that AMT 
was only for the very wealthy and we did not qualify. The tax 
accountant explained that we should buy what we could and hold it to 
protect against short-term capital gains. Later that year a coworker 
mentioned the need to check out the AMT situation and again we inquired 
with our tax advisor and again he assured us that we had nothing to 
worry about.
    We soon discovered that he was incorrect and we were truly 
uninformed about AMT. When we finally discovered the problem, it was 
too late to sell as the stock-trading window had closed and before the 
next open window arrived, the stock had plummeted. Our tax bill came to 
$92,000, more then double my starting annual income, and in order to 
pay the bill, we were worried we might have to take out a second 
mortgage and may lose our business. Fortunately, for our financial 
future, during the next open window, we were able to sell all our stock 
and pay most of the bill. By depleting our savings, we were able to pay 
the remaining balance. Now, with no savings and the hope of a small 
retirement fund from our ISO grant gone, we are starting over with 
retirement planning.
    We are outraged that the government saw fit to apply a tax to 
phantom money! We are outraged that we now have NO savings and NO 
retirement!
    I respectfully and urgently request your support of H.R. 3385.

                                                  Barbara Cornelius

                                 <F-dash>

                                          Alameda, California 94052
                                                    August 31, 2005

Committee on Ways & Means
U.S. House of Representatives
1102 Longworth House Office Building
Washington D.C. 20515

Dear Committee on Ways & Means:

    My name is Eric Delore and I am writing on behalf of myself and my 
family to ask for your active support and co-sponsorship of H.R. 3385. 
I have a huge Alternative Minimum Tax (AMT) tax debt incurred on 
``phantom'' gains due to the application of the Alternative Minimum Tax 
to incentive stock options (ISOs). I owe $420,000 of AMT on under 
$5,000 of actual income derived from the sale of frightfully deflated 
Incentive Stock Options (ISOs). I am not wealthy. I am a middle-classed 
citizen struggling to raise a family on a single income.
    I have already paid the IRS $40,000+ of taxes, but they want more. 
They want everything. One collection agent suggested that I sell my 
home and give them all the proceeds. Bear in mind that by raiding 
various immediate and extended family bank accounts, I have already 
paid the California State Franchise Tax Board $100,000 of AMT tax on 
this same $5,000 of income. That more than $140,000 of taxes paid to 
date.
    Again, I would like to ask for your active support and co-
sponsorship of H.R. 3385. This important legislation was recently 
introduced by Reps. Johnson (TX), Neal, McCrery, Jefferson, Ramstad, 
Lofgren, Shaw, Honda and Johnson (CT), to provide relief for taxpayers 
subjected to unfair and unjust tax treatment due to the AMT treatment 
ISOs. In addition to unfairly affecting me, this serious problem has 
impacted many employees of small and large companies across America, 
often resulting in taxes up to and exceeding 300 percent of these 
employees' annual salaries. Workers are being forced to pay tens of 
thousands, hundreds of thousands, and even millions of dollars in tax 
overpayments on income they will never receive.
    Please join the groundswell of support for remedying this serious 
injustice through this ISO AMT legislation. This bi-partisan effort is 
building support in Congress, the Press, Corporate America, the 
Taxpayer Advocate's office. Grassroots organizations like the 
ReformAMT, www.reformamt.org, and the Coalition for Tax Fairness, 
www.fair-iso.org, are actively supporting this important legislation, 
and may be contacting your office to secure your support.
    I thank you for your leadership on this effort, as your support is 
critical to restoring a fair and just tax system for all Americans--
including hard-working, entrepreneurial Americans. Please do not 
hesitate to contact me if you have any questions.

                                                        Eric Delore

                                 <F-dash>

          Statement of the Doherty Family, Chantilly, Virginia

    Mr. Chairman and Members of the Committee: My name is Nina Doherty 
and I would like to first thank you for the opportunity to speak with 
you today.
    I am a married working mother of three living in a modest Northern 
Virginia suburb with my husband of 17 years. Today, I work full time 
for a small software company. I am sharing my story with you in the 
hope that it will shed light on how the Alternative Minimum Tax 
treatment of Incentive Stock Options can have a devastating impact on 
average hard-working people like me.
    In 1994, I became the first employee of a small start-up 
Telecommunications Company. Part of my compensation included Incentive 
Stock Options. Seven years later, I found out to my huge shock that 
there could be an egregious impact from exercising Stock Options due to 
unintended consequences of the Alternative Minimum Tax.
    Back in March 2000, before I learned about the Alternative Minimum 
Tax, I exercised some stock options and it appeared that all my hard 
work and sacrifice in working for a start-up would pay off. My company 
was going public as many did at that time, and it was everyone's 
expectation that the stock value would remain stable and perhaps even 
grow. Unfortunately, shortly thereafter, the stock market tumbled and 
my ``paper'' stock value was reduced to nothing. Despite the dwindling 
stock value, I never thought to sell them even after my restrictions 
lapsed in September 2000. I continued to hold onto my stock because I 
was told by my financial advisor before I ever exercised any options 
that due to the way the law was written with regard to capital gains 
tax penalties, it was more beneficial for me to hold it for more than 
one year.
    In April of 2001, while on a Girl Scout trip with one of my 
daughters, I got a call from my accountant about the taxes he had just 
prepared. He told me that because of the Alternative Minimum Tax, I 
owed a lot of money, but he didn't want to tell me how much until I got 
back into town. Alarmed, I asked him to tell me right there and then--
and that is how I found out that I owed tax equal to 100% of our annual 
family income! I was dumbfounded, and quite frankly, so was my 
accountant. Now my family is facing potential financial ruin as a 
result of this massive penalty.
    Unfortunately, the highly complex nature of the Alternative Minimum 
Tax code befuddled both my highly trained financial advisor and my 
accountant, a situation affecting family after family across this 
country.
    And it wasn't just complicated code that led me to hold onto the 
stock. The spirit and intent behind the incentive in an Incentive Stock 
Option is that employees like me are encouraged by law to hold onto our 
stocks for a longer period of time, to help our companies grow by 
investing in the future. Certainly, the intent was NEVER to hurt the 
very people that contributed to a company's success. Despite this, 
countless families are facing financial ruin due to the ISO AMT issue--
mine is not a unique story.
    The big problem with paying the AMT is that the tax payment is 
simply a prepayment of tax. When this law was written in the sixties, 
the volatility of the stock market was not anticipated by Congress and 
there was no evidence at that time that prepaying this tax would create 
hardship. Unfortunately, many families like mine cannot afford to 
prepay this tax. Because there was no actual gain for victims like me, 
this tax will generate a useless tax ``credit,'' meaning that our 
prepayment of this tax is nothing more than an interest-free loan to 
the government. By today's law, we can only recover the tax prepayment 
in credits at $3,000 per year, which for our family means 30+ years--
for many people the credit will well exceed their life expectancy.
    Recently, the IRS levied our bank accounts, seizing $30,000 that my 
husband had in savings from a loan against his 401(k). This money was 
needed to do repairs on our ten year old home and replace our failing 
minivan. Next we received official notice that there was a Federal lien 
filed by the IRS on any and all property that we own. With this and the 
past three years of worry about this problem, there has been terrible 
strain on my family and my marriage. Every day this issue is like a 
dark cloud over our heads and we wonder if we should just declare 
bankruptcy.
    My family and I respectfully urge those of you on the Committee to 
take immediate action on correcting this injustice, through a repeal of 
the AMT/ISO provision, or through targeted and principled measures that 
will help those of us currently facing this problem, and also prevent 
similar results from occurring in the future. For many families like 
mine, time has run out: the IRS is enforcing the strict letter of the 
law--threatening to take our homes and retirement funds to collect the 
money despite the fact that we never had any actual gain.
    Please don't allow this injustice to continue. Taxpayers deserve 
fair treatment in connection with simpler rules, and we appreciate your 
current consideration of a solution that is fair and just.
    Again, thank you for your time.

                                 <F-dash>

                 Statement of Rol Donie, Houston, Texas

    Job loss in America has become a major problem. Our jobs keep 
flowing offshore. American workers are showing up on the dole instead 
of showing up for work. One of the biggest reasons for fewer jobs is 
the way we collect taxes. The income tax system drives away existing 
jobs and limits the creation of new jobs to boot.
    A better plan is the FairTax. The FairTax (H.R. 25/S. 25) 
implements a National Retail Sales Tax to replace the income tax. The 
amount of taxes collected will remain the same. Government will receive 
the same amount of funding it receives now. The big difference is that 
the FairTax lets us fund government without losing jobs in the process.
The FairTax Plan
    <bullet>  Lets businesses spend the billions now spent annually on 
tax compliance on job growth instead.
    <bullet>  Lets businesses create new jobs based on good business 
planning instead of tax planning.
    <bullet>  Lets businesses redirect the hundreds of millions now 
spent on tax lobbyists into creating productive jobs instead.
    <bullet>  Lets businesses spend all the money they now pay as 
matching Social Security contributions on expanding their workforce.
    <bullet>  Lets businesses compete in the global marketplace on a 
more level playing field. Prices for American products will no longer 
include all the embedded expense incurred with the income tax. Demand 
for cheaper American products will soar. Job growth for Americans will 
soar.

    Americans that want their job back, Americans looking for their 
first job and Americans concerned about the way our jobs are going can 
find more information at www.fairtax.org.

                                 <F-dash>
           Submission of Charles Emery, Aiken, South Carolina
    Ladies and Gentlemen of the Panel,
    Job loss in America has become a major problem. Our jobs keep 
flowing offshore. American workers are showing up on the dole instead 
of showing up for work. One of the biggest reasons for fewer jobs is 
the way we collect taxes. The income tax system drives away existing 
jobs and limits the creation of new jobs to boot.
    A better plan is the FairTax. The FairTax (H.R. 25/S. 25) 
implements a National Retail Sales Tax to replace the income tax. The 
amount of taxes collected will remain the same. Government will receive 
the same amount of funding it receives now. The big difference is that 
the FairTax lets us fund government without losing jobs in the process.
The FairTax Plan
    <bullet>  Lets businesses spend the billions now spent annually on 
tax compliance on job growth instead.
    <bullet>  Lets businesses create new jobs based on good business 
planning instead of tax planning.
    <bullet>  Lets businesses redirect the hundreds of millions now 
spent on tax lobbyists into creating productive jobs instead.
    <bullet>  Lets businesses spend all the money they now pay as 
matching Social Security contributions on expanding their workforce.
    <bullet>  Lets businesses compete in the global marketplace on a 
more level playing field. Prices for American products will no longer 
include all the embedded expense incurred with the income tax. Demand 
for cheaper American products will soar. Job growth for Americans will 
soar.

    Americans that want their job back, Americans looking for their 
first job and Americans concerned about the way our jobs are going can 
find more information at www.fairtax.org.
    Please consider the FairTax for the sake of American jobs as well 
as a host of other reasons for this change in the way federal taxes are 
collected. Thank you for your time and consideration.

                                 <F-dash>

                                            Chandler, Arizona 85226
                                                    August 31, 2005

Dear Honorable Chairman and Members of the Ways and Means Committee

    I wish to bring to your attention the story of ISO and AMT and how 
it impacts me and many Americans who have been affected by AMT tax 
laws.
    ISO stocks were granted as an incentive to employees to reward them 
for good performance and long term retention. Favorable tax rate was 
one of the key elements of ISO stocks. It was recommended that ISO 
stocks be held for at least one year after exercise so that they do not 
become ``disqualified disposition.''
    While this strategy worked for upward moving markets where stocks 
appreciated in value, no one (including the proponents of the ISO/AMT 
tax codes) ever fully comprehended the unprecedented financial havoc 
this may cause in case of drastically decreasing stock market and 
market that is depressed for a long time.
    The AMT rules pertaining to ISO stocks do the following.

    <bullet>  Calculate paper profit based on exercise price and option 
price.
    <bullet>  Recognize the paper profit as income in a parallel 
calculation under AMT rules.
    <bullet>  Adjust income with some other incomes, refund etc.
    <bullet>  Levy tax based on AMT income (more than real income), 
which includes paper profit.
    <bullet>  The difference between regular tax and AMT tax is imposed 
as additional AMT tax.
    <bullet>  When the ISO stocks are sold later (after the hold 
period), part of the advanced AMT tax can be recouped.

    Please note that in a rapidly declining and continuously depressed 
market, the AMT tax cannot be fully recouped as the exercised stocks 
will always be below the exercise price. By selling the exercised 
stocks, the individual will further incur regular capital gain, and 
accumulate AMT Capital Loss.
    This results in paying tax once (AMT tax) for exercising the ISO 
and, taxed again due to regular Capital gain by selling the stocks 
(albeit at lower than exercise price). Opportunity to recoup the AMT 
taxes is very slim in the current environment, and we will not probably 
be able to recoup it in our lifetime.
    I personally paid (forced to pay) AMT taxes in hundreds of 
thousands of dollars, and in the process was burdened with huge loans. 
I humbly request the intervention by Congress to relieve us from the 
loan burden, and return us the advanced taxes we paid in the form of 
AMT taxes. The advanced AMT taxes are rightfully ours, which we can 
never get back unless Congress makes sweeping changes in the ISO/AMT 
tax rules.
    I am a strong believer of paying our fair share of taxes for the 
benefit of the society, but it is utterly unfair to pay taxes based on 
fictitious profit and not be able to get it back.
    I urge you to support the Tax Reform proposal by Honorable Sam 
Johnson's H.R. 3385. I respectfully and urgently request your support 
of H.R. 3385.

                                                   Mohammad Faruque

                                 <F-dash>

                                         Cary, North Carolina 27511
                                                    August 31, 2005

To House Ways and Means Committee

Dear Honorable Chairman Camp and Ranking Member McNulty:

    I have submitted my testimony and shared my story at these 
following events:

    <bullet>  6/15/2004, Hearing on Tax Simplification, Oversight 
Subcommittee
    <bullet>  6/23/2004, Hearing on Select Tax Issues, Select Revenue 
Measures Subcommittee
    <bullet>  6/08/2005, Hearing on Tax Reform, Full Committee
    <bullet>  April/May 2005, Senate Finance Committee Chairman 
Grassley
    <bullet>  Spring/Summer 2005, President's Tax Reform Advisory Panel

    I now wish to share my story directly with you. I hope this 
Committee will extend the relief H.R. 3385 offers people that executed 
Incentive Stock Options (ISO) in years 1999, 2000, and 2001 to people 
that executed NonQualified (NQ) stock options in those same years. H.R. 
3385 will not help my situation, because H.R. 3385 requires a person to 
have ``AMT credit.'' I have no AMT credit, since my stock options were 
NQ, but I suffer the same detrimental effects of executing stock 
options in year 2000.
    I am in a very bad situation because of the tax liabilities that 
were generated in year 2000. Because of the economic downturn of the 
telecommunication industry, I was laid off from Cisco in March of 2000. 
This situation forced me to execute the NonQualified (NQ) stock options 
I had accumulated over the 5+ years I had worked at Cisco, or lose them 
forever.
    I did not know that the single act of executing NQ stock options 
becomes a taxable event in the eyes of the IRS. I did not sell stock; I 
did not receive any cash; I did not realize any gain whatsoever in the 
transaction--not a single dime! I only executed the option to buy Cisco 
stock at a price offered to me when I was hired.
    Because of the complexity of the tax laws, I paid a CPA $900 to 
prepare my taxes and tell me I owed $1.7 million in taxes for the year 
2000 even though I make less than $100,000 a year! How can this be? The 
CPA office that prepared my taxes commented to me:

          ``This is the most unfair and unfortunate tax return our 
        office has ever prepared. Many officers have verified the 
        accuracy of your return and we believe it to be correct.''

    I was a habitual saver and lived a very meager lifestyle. At the 
time I executed the NQ stock options, I lived in a 1,400 sq. ft. house 
with my wife, a dog and a cat. I drove a 1979 F100 pickup, no air, 
manual steering, 3 speed on the column, 160,000 miles--worth about 
$600. My wife drove a 1987 Olds Cutlass with 224,000 miles. I did not 
live the life of our executives--I was just an engineer trying to save 
for a brighter future.
    The Cisco stock that I bought declined more than 80% in 2000 and 
2001. I sold everything and took out multiple loans to pay the IRS. 
Because of my prior savings, my meager lifestyle, and the kindness of 
my bank; the IRS received the money April of 2001. My bank has given me 
two interest only loans. Today I live in a 60 X 14 trailer by myself. 
My wife and I divorced in 2004. I still drive the same Ford pickup 
(over 270,000 miles now). 70% of my salary goes to maintaining these 
loans, which I have been paying for over 4 years now.
    This unfortunate situation has taken my financial future from me. I 
am addressing this letter to you so that you may know how this stealth 
tax is destroying the lives of so many common people, like me. It is 
just plain wrong to tax people of all their assets when they have 
realized no financial gain whatsoever.

                                                     Kevin R. Frank

                                 <F-dash>

             Statement of Scott Frisoli, Chicago, Illinois

    In 2000, I exercised stock options with the company I work for, 
PurchasePro.com. As the stock market continued to fall, I was forced to 
sell my stock well below the price I paid for them to pay my 2000 AMT 
bill. I paid my 2000 AMT taxes in the amount of $286,000 after getting 
nothing back from the sale of my stock. I was married in December of 
2000 and our family has been set back a great deal financially. I had 
to sell many of my assets and borrow a large amount against my house. 
We are way too young to have financial problems for the rest of our 
lives. The way current tax code is written it will take 43 years before 
I get all of my money back without interest! I am now stuck holding 
onto thousand of shares of a company that is out of business with NO 
HOPE of recouping my money.

                                 <F-dash>

                                           Madison, Wisconsin 53703
                                                    August 26, 2005

Dear Honorable Chairman Camp and Ranking Member McNulty:

    I am writing to ask for your support and would appreciate your 
taking a moment to read this. I have submitted my testimony and shared 
my story for previous hearings regarding this issue. I now wish to 
share my story directly with you in hopes of garnering your support and 
leadership of the Honorable Sam Johnson's H.R. 3385.
    I'm currently 43 years old and have worked very hard for 9 years 
for a start-up Internet Service Provider that was successful. In 1999 I 
left the company to move back to Wisconsin to be with family and raise 
my own family. When I left the company I was required to exercise my 
stock options (WorldCom stock).
    Doing so caused us to incur an AMT liability well in excess of $1 
million, which we paid in April 2000. It's now well known that the 
WorldCom stock lost virtually all its value. Our AMT tax payment is now 
a credit (amounting to an interest-free loan to the government) that we 
can never effectively use because the ways in which we can draw it down 
are too restricted. In essence, we've lost almost all of our investment 
money simply to create a tax credit in our IRS account. It is 
fundamentally unfair to have been forced to pay a large AMT bill on a 
phantom gain rather than an actual gain.
    Along with many of my co-workers and friends, I now find myself in 
this situation, many others are much worse off. Several of us had to 
declare bankruptcy and others are forced to sell or liquidate assets 
(including college funds, savings, cars, 401k/IRA pension plans, homes, 
etc.) or to refinance homes to help pay the taxes. In our case, we had 
to liquidate our life savings and obtain a loan secured by my in-law's 
assets to pay our tax bill, we're now deferring college and retirement 
savings as we pay back this loan with its interest--all while we have 
$1 million tax credit. We're hard-working, honest taxpayers who are 
incurring financial difficulties due to the unintended consequences of 
the AMT laws.
    To summarize, it's fundamentally unfair that we have provided the 
government a substantial (over 1 million dollars) interest free loan 
that will never be repaid while we're having to pay off a loan with 
interest and defer college and retirement savings. Further aggravating 
the unfair situation, the complexities of the AMT law require us, an 
average middle-class family, to pay premium accounting fees to navigate 
the complexities of our tax situation.
    I respectfully and urgently request your support of H.R. 3385.

                                                     Shari Galitzer

                                 <F-dash>

            Statement of Sunil Ganu, Santa Clara, California

    My life is changed because of the alternative minimum tax (AMT). I 
am suffering from acute panic disorder and stress. If my age is X, I 
look like X+10 years, thanks to this AMT. Moreover, people think either 
I was either greedy or stupid. I never did anything wrong in my life to 
have all this trouble. My credit scores are 758+. I always paid my 
credit card balances and loan amounts on time. I followed the advice of 
my advisors at Morgan Stanley. They advised me not to sell the stock I 
purchased through the exercise of incentive stock options (ISOs) 
earlier--but there is no point in blaming anybody now. It's my mistake 
and it seems nobody can save me now. I have already paid more than 
$150,000 in AMT from the tangible assets I had and owe substantially 
more. My AMT credits will exceed $400K, which I will only be able to 
claim at a rate of $3,000 per year for the rest of my life or 133 
years.
    I exercised (bought) 15,000 ISO shares. I couldn't sell most of 
them before the company (Exodus Communications) filed for chapter 11, 
as I hadn't owned the shares for at least one year. Initially I paid 
$110K in AMT by selling some of the stocks at $15.00 per share in 2001, 
remember now, I was taxed as if I sold them for $76 a share! I didn't 
realize that my company would be bankrupt soon. I still owe $150K plus 
penalties. The IRS has kept all my refunds--worth about $45K in the 
last 3 years--but penalties keep accruing.
    I have tried to negotiate with the IRS but we are rejected on every 
offer I made. My first OIC was turned down in 2002. I have appealed to 
the IRS again and increased the amount of my OIC. That too was turned 
down in April 2003. The IRS evaluation process is faulty. They are 
looking for all the money available in my 401(k) plan apart from 
whatever assets assessments are done based upon my car, credit cards 
statements etc. Though I don't have any bank balances, the IRS already 
put a lien on my Condo and basically I will be in a debt trap if I 
borrow from my credit card to pay off IRS as the interest rates are so 
high. The important point is that the IRS is seeking all this money for 
income I never realized. What a nightmare! Meanwhile I got laid off in 
August 2003. Luckily I got a job in another company with a lower salary 
in 3 months. The trauma I went through during that time is 
unimaginable.
    Please do what is necessary to reform the draconian provisions of 
the law. Morally I don't believe I owe anything to the IRS but then 
legally and financially I have a sword hanging over my head.

                                 <F-dash>

                                                Aloha, Oregon 97007
                                                    August 31, 2005

Dear Honorable Chairman Camp and Ranking Member McNulty:

    I have submitted my testimony and shared my story at these 
following events:
    Ways and Means Committee Hearings:

    <bullet>  6-15-2004, Hearing on Tax Simplification, Oversight 
Subcommittee
    <bullet>  9-23-2004, Hearing on Select Tax Issues, Select Revenue 
Measures Subcommittee
    <bullet>  6-08-2005, Hearing on Tax Reform, Full Committee
    <bullet>  April/May 2005, Senate Finance Committee Chairman 
Grassley
    <bullet>  Spring/Summer 2005, President's Tax Reform Advisory Panel

    We now wish to share our story directly with you in hopes of 
garnering your support and leadership of the Honorable Sam Johnson's 
H.R. 3385.
    We are Liles and Naomi Garcia and we are homeowners. Liles was in 
the Air Force for four years, and has worked for three high-technology 
companies for a total of thirty years. Naomi has worked for a high-
technology company, Tektronix, Inc., for thirty-two years.
    When Liles was working for PMC-Sierra, Inc., the company gave him 
some stock options which often occurs in high technology companies. At 
the end of September 1999, PMC-Sierra laid off some employees and Liles 
was terminated at this layoff. There was no warning of the PMC-Sierra 
layoff; it was a complete surprise. Because of the layoff termination, 
Liles had to purchase his stock options within a short period of time 
or else lose them.
    At that time the stocks were worth about $965,000.00, and when 
Liles purchased his stock, we unknowingly incurred a $273,000 
Alternative Minimum Tax. We have been doing our own income taxes for 
many years, and did not know what the AMT was.
    We submitted an Offer-in-Compromise to the IRS in July 2001. The 
IRS rejected our OIC and an OIC Appeals Officer told us that he would 
only settle for the entire amount. This decision devastated both of us 
because of the large amount that we will be required to pay. We are 
currently making monthly payments to the IRS, but we still owe more 
money than we will ever be able to pay. The IRS can take everything 
that we have through their collection process. To us, this does not 
seem right. Many thanks for any help that your Committee can give us. 
We respectfully and urgently request your support of H.R. 3385.

                                             Liles and Naomi Garcia

                                 <F-dash>

                                       Southbury, Connecticut 06488
                                                  September 1, 2005

Dear Chairman Camp and Ranking Member McNulty:

    I have submitted my testimony and shared my story at the following 
events: Spring/Summer 2005, President's Tax Reform Advisory Panel and 
the 6/08/2005 Hearing on Tax Reform, Full Committee. As a resident of 
the 5th Congressional District, I now wish to share my story directly 
with you in hopes of garnering your support and leadership of the 
Honorable Sam Johnson's H.R. 3385.
    As a 64 year old retired taxpayer the current alternative minimum 
tax is of great concern. Each year more and more Americans fall prey to 
this unfair tax. Approximately five years ago, because of the ISO AMT 
provision, I incurred a huge federal and state tax bill, which I paid. 
The year following my huge tax overpayment my accountant informed me 
that I would have to live another 60 years to recoup my AMT credit. 
This was hard for me to believe! Five years have since passed and I 
have reduced my AMT credit by about 8%. At age 64, I do not believe 
that I will last another 60 years. The Federal Government continues to 
hold my money without paying me one penny of interest. Once I leave 
this earth my AMT tax credit will become property of U.S. Treasury 
coffers. The credit will not be passed on to my heirs. Does this seem 
fair?
    One thing that I do know is that my federal tax credit will follow 
me no matter where I reside in the United States. This is not true on 
the state side. If I move out of Connecticut I lose my ability to 
recoup my state AMT tax credit. This foolish law that was intended to 
prevent wealthy individuals from escaping federal income tax has become 
a burden to the all classes of taxpayers.
    I respectfully and urgently request your support of H.R. 3385.

                                                 Leonard P. Garille

                                 <F-dash>

                                      Paso Robles, California 93446
                                                    August 30, 2005

Dear Honorable Chairman Camp and Ranking Member McNulty:

    I have submitted my testimony and shared my story with the 
President's Advisory Panel On Tax Reform on April 29th, 2005.
    I now wish to share my story directly with you in hopes of 
garnering your support and leadership of the Honorable Sam Johnson's 
H.R. 3385.
    The following describes the devastating effect the AMT has had and 
is still having on my wife and I.
    My wife received stock options from her company as part of her 
compensation for all her hard work. Throughout the year in 2000, we 
saved money and used it to exercise the options. We considered the tax 
implications of selling or holding. We were advised and agreed to 
follow the strong tax incentives Congress put in place for ISOs to hold 
on to the stock for long term capital gain and support her company, 
rather than selling immediately and paying approximately $50,000 more 
in short term taxes. We believed strongly and still do in our company, 
and in the market for the long term, looking to accumulate stock and 
other assets for our future and for our eventual retirement.
    In 2001, the market's steep decline reduced the value of our stock 
by over 90%. To make matters worse, we received a tax bill from the IRS 
and the California Franchise Tax Bureau (FTB) for a combined amount of 
close to $150,000. This was over 5 times the amount we realized from 
our stock holdings. We had never heard of the AMT, nor could we have 
ever imagined we would have to pay taxes on stock GAINS WE NEVER 
REALIZED.
    Our situation grew steadily worse, I lost my job, our savings were 
dwindling quickly, and we started getting calls from IRS and FTB 
collection agents demanding that we pay the taxes due. We could barely 
pay our bills much less pay $150,000 in cash to the IRS and the State 
of California. The IRS had suggested an installment agreement, but the 
$3,800 a month they required was far beyond anything we could afford. 
We were also warned that if we accepted the agreement and missed or 
were late on a single payment, the full amount would be due immediately 
and collection actions would be taken, i.e. seizing of assets and 
property.
    The IRS knew we never made the money on the stocks for which we 
were being taxed, but that didn't matter to them. They were aware I had 
been unemployed for 18 months, and they didn't care. They said I had 
the potential to earn, which in their mind is the same as cash.
    Meanwhile, we tried to refinance our home to lower our payments so 
we could have additional money to pay bills, but the IRS had placed a 
lien on our property and we were denied the opportunity to take 
advantage of the lowest interest rates in history. The IRS refused to 
lift the lien, even temporarily, to allow us to refinance.
    We were forced to hire tax attorneys and CPA's to help us with our 
predicament, all to no avail. We submitted an Offer In Compromise. We 
were rejected, the IRS claimed we had the ability to pay, even though I 
had been unemployed for over a year and a half and had been dipping 
into my home equity line of credit just to survive and pay our bills. 
For over three years we lived in constant fear of losing our home, our 
car, our bank accounts, everything. All the while dealing with 
harassing calls from the IRS and the FTB. My wife was afraid we'd be 
sent to prison for not paying the taxes. She had heard so many horror 
stories of what the IRS does to people who don't pay their taxes.
    Having been an independent contractor for many years and using 
credit cards to pay for travel and business expenses, I had established 
a fairly high credit limit. The IRS told me that I had access to credit 
so PAY UP. I was forced into an installment agreement to keep from 
losing our home (the IRS had placed a lien on it). The IRS demanded 
$50,000 in cash and monthly payments of $730 per month to pay off the 
remaining $74,000. I was forced into putting it on my credit card. 
Since the IRS compounds interest daily, we will never be able to pay 
off the balance in our lifetime. Prior to that, we had been forced into 
an installment agreement with the FTB, paying $700 per month. There was 
no way we could pay both monthly payments, equaling over $1,400 per 
month (remember, I had been unemployed for 18 months), so we were 
forced into paying the remaining $18,000 balance due the FTB with my 
credit card to eliminate at least one of the monthly payments.
    I was unable to keep up with the credit card payments on an 
outstanding balance of close to $70,000. Now, I am several months 
behind on credit card payments. The credit card companies and 
collection agencies are now making threatening calls daily. I'm now 
getting letters from attorneys on behalf of the credit card companies. 
My credit rating, which was perfect all my life, is now ruined. This 
nightmare just keeps going on and on . . .
    I'm 51 years old and I should be turning my thoughts toward 
retirement and a comfortable future. My own government has dashed these 
hopes and dreams forever. We are being punished in the worst way 
possible, and our crime? Our crime was working hard and being honest. I 
always felt that these were the values that America embraced. Study 
hard, get a good education, get a good job, work hard, be honest and be 
rewarded. Unless relief comes quickly, I will have been sadly mistaken.
    This law needs to be changed immediately to help the thousands of 
people who are in the same predicament as my wife and I. We hope that 
you will understand that there are some very good people who have been 
caught in the AMT nightmare and are facing financial ruin for the rest 
of their lives. Please show your leadership and do what you can to 
change this law.
    I respectfully and urgently request your support of H.R. 3385.

                                                        Mark Garner

                                 <F-dash>

                                     Redwood City, California 94065
                                                    August 25, 2005

Dear Honorable Chairman Camp and Ranking Member McNulty:

    I have submitted my testimony and shared my story at these 
following events:

    <bullet>  6-15-2004, Hearing on Tax Simplification, Oversight 
Subcommittee
    <bullet>  9-23-2004, Hearing on Select Tax Issues, Select Revenue 
Measures Subcommittee
    <bullet>  6-08-2005, Hearing on Tax Reform, Full Committee
    <bullet>  April/May 2005, Senate Finance Committee Chairman 
Grassley
    <bullet>  Spring/Summer 2005, President's Tax Reform Advisory Panel

    I now wish to share my story directly with you in hopes of 
garnering your support and leadership of the Honorable Sam Johnson's 
H.R. 3385.
    My name is Hisham Ghazouli and I am writing on behalf of my wife 
Irma, and our two children. We appreciate the opportunity to discuss 
the hardships we are suffering due to an outdated and complicated 
portion of the tax code called the Alternative Minimum Tax.
    In July 1998, I went to work for a startup in Redwood City, Ca. In 
exchange for a lower paying job, I was granted 60,000 shares of 
incentive stock options. I worked very hard helping the company develop 
its product and grow. In Feb of 2000, the company went public and the 
stock quickly climbed to $100. I could not exercise my options at the 
time because I was blocked from doing so. Approximately 6 months later, 
when the stock was trading around $20, I decided to exercise my options 
and hold the stock for 18 months. By the end of the year the stock was 
trading at $1.00 a share. I didn't know that exercising the stock 
options would trigger AMT, which taxes you on the day of exercise even 
though incentive stock options are not supposed to be taxed until sale. 
After filling out our tax returns, we realized that we had a $33,000 
AMT Federal tax bill and a $6,000 state AMT tax bill. I was forced to 
pay taxes on stock options as if they were trading at $20 a share 
regardless of the reality that the stock was trading at less than $1 a 
share.
    We had to liquidate all of our savings to pay for the AMT bill. 
That year we paid over $65,000 in Federal taxes on income of $100,000, 
which I am sure is an unintended consequence of the tax law. As of tax 
year 2003, I have received less than 10% of the AMT money I loaned the 
government in 2000. It will take another 5-10 years to fully recover 
the amount.
    I don't believe that the law was intended to so severely tax hard-
working and honest middle class Americans. Please fix the law so that 
we don't have to pay taxes on income we don't receive, and we can 
access the ``credits'' in a more timely manner.
    I respectfully and urgently request your support of H.R. 3385.

                                                    Hisham Ghazouli

                                 <F-dash>

         Statement of the Gorokhov Family, Germantown, Maryland

    Members of the Committee: My name is Mark Gorokhov and I am writing 
on behalf of my wife Nadezhda Gorokhova and our family. We appreciate 
the opportunity to discuss problems we faced due to an outdated and not 
fair portion of the tax code called Alternative Minimum Tax.
    In August of 1998 I took a job as a software engineer at Celera 
Genomics. The offer letter stated that I was granted a stock option 
(ISO). The essence of employee stock options involves employees sharing 
in the future growth and success of a company by receiving financial 
rewards based on future increases in stock price. In 2000 I exercised 
my Incentive Stock Option. In plain English this means that I bought my 
company stock at discounted rate $8.56 while its market value was in 
$70-$100 range. When I exercised my ISO I did not have any monetary 
gain because I did not sell my stocks. However, the tax law required us 
paying huge AMT tax on this phantom gain. This had dramatic impact on 
our family. The total tax we had to pay significantly exceeded our 
entire family taxable income we reported on form 1040 for the year 
2000. The effective tax rate was 130%.
    The deadline to pay this huge sum to IRS was April 15, 2001. By 
that time stock price plunged and we could not pay our tax even if we 
sell all stocks we acquired. We borrowed all available money from my 
wife's and my retirement investments, from 2nd mortgage and credit 
cards. Also, we emptied all our assets on bank accounts. In year 2004 
we are still paying loans we made to pay tax year 2000.
    The tax we paid for exercised ISO stocks is a prepayment of tax 
with a corresponding Minimum Tax Credit that applies against capital 
gains tax when we sell stocks. Now when the stock price drops we do not 
have an efficient way to recover the leftover excess pre-payment of 
tax. Thus we gave the Federal Government an interest free loan in the 
sum, which is over $100,000.
    In 2001 tax return we recovered $2,433 from our AMT tax carry 
forward. At this pace it would take 51 years to recover the whole sum.
    In 2002 tax rate was lowered, but AMT rate stayed the same. In 2002 
tax return we recovered $820 from our AMT tax carryforward. At this 
pace it would take 149 years to recover the whole sum.
    In 2003 and 2004 tax rate was lowered again, but AMT rate stayed 
the same. In 2003 and 2004 tax return we recovered $0 from our AMT tax 
carryforward. At this pace we NEVER recover the whole sum of credit we 
gave to a government.
    We ask your help to change the outdated AMT tax law and help us to 
recover the AMT tax we paid in year 2000.

                                 <F-dash>

                                                 Allen, Texas 75013
                                                    August 31, 2005

Dear Honorable Chairman Camp and Ranking Member McNulty:

    I have submitted my testimony and shared my story at these 
following events June 2004.
    I now wish to share my story directly with you in hopes of 
garnering your support and leadership of the Honorable Sam Johnson's 
H.R. 3385. I live in his district. This is my previous statement:
    I do telecommunications development for Cisco Systems. No one would 
likely call me financially rich, but I am a very blessed man with a 
wife and 2 adopted daughters.
    I have ISOs from Cisco that I could exercise and, according to one 
part of the tax code, I should receive preferential tax treatment if I 
hold the stock for at least a year. Truth be told, I think the smarter 
investment would be to buy the stock and hold it for at least 10 years.
    However, with the present ISO AMT laws and with fluctuations in 
telecommunication stock prices, I can not make such smart investment 
choices (buy Cisco and hold for 10 years) because the stock price may 
go down temporarily, and I would owe more in taxes than the stock is 
worth. It doesn't make sense that on the one hand the tax law would 
encourage my long term investment (which, under normal circumstances 
would be a wise strategy for me, my employer and the economy), but on 
the other hand the tax law so heavily discourages such long term 
investment by mandating taxpayers risk losing more than their 
investment to acquire the stock.
    Please bring sense to these laws. Thank you.

                                                      Duane Guthrie

                                 <F-dash>

           Statement of Angela Hartley, San Diego, California

    Dear Congressmen:
    I have submitted my testimony and shared my story at several 
Congressional hearings, including written testimony for April 17, 2005 
hearing. I will share my story again in support of the Honorable Sam 
Johnson's H.R. 3385--it is my last hope for financial survival. Please 
support this bill.
    In 2000, few people were even aware of the AMT, and even fewer 
understood it, including many tax professionals and even some IRS 
agents. When I exercised Incentive Stock Options in 2000, I followed 
the standard recommendation of holding that stock for one full year to 
achieve the capital gains treatment for which Incentive Stock Options 
had originally been designed. Imagine my surprise when I discovered 
that there was a parallel universe called the AMT, where the rules were 
opposite of common sense and regular IRS rules, and instead of 
benefiting from long term capital gains treatment like an ordinary 
stockholder, I was penalized for NOT selling my stock.
    As a result, my effective tax rate for 2000 was almost 250% and 
left me with state and federal tax obligations well over $300,000. This 
was impossible to pay because it was many times my annual income and 
the stock had dropped to a fraction of its former value. Although I 
have made payments against the debt, it grows too rapidly to ever pay 
off.
    The irony is that the AMT also allows a credit back to me that 
would offset this liability--but there is a cap on the amount of credit 
I can recover each year--it will take over 90 years for me to gain the 
entire credit back, and unlike my AMT liability to the government, I 
receive no interest on the money owed back to me by the government. So 
my debt grows by leaps and bounds and the government holds my money 
interest-free indefinitely.
    I have offered all the equity in my 1,500 square foot home, my car, 
my life savings, and my retirement to settle this--everything I have 
managed to put aside over my entire working life to pay arbitrary and 
excessive taxes on profits I did not receive (by the way, the IRS 
refused this offer as insufficient). Actually, after paying over 
$100,000 so far, I have only about $11,000 left out of my savings/
retirement and the IRS has a lien on my house, which also serves to 
ruin my credit. I am 52 years old and have been a compliant taxpayer 
since I earned my first dollar, paying in full and on time, without 
complaint, but I fail to see how bringing an honest middle-class 
taxpayer to financial ruin serves any purpose.
    Legislation is being introduced that would allow me to pay the 
proper percentage of whatever gains were actually realized from the 
stock sale. While I realize the entire AMT needs to be addressed, the 
first logical step would be to support relief for those who have 
suffered the most unfair and egregious effects of this outdated law. 
Please stop the unnecessary financial crippling of some of your most 
hard-working and productive citizens. We can't wait two or three more 
years--we are losing our homes, our retirement, and our entire economic 
futures today!! There is no way a ``fix'' several years from now will 
ever allow us to recover.
    The AMT no longer serves its intended purpose, if it ever did, and 
is increasingly punishing hard-working families. We respectfully ask 
that each of you understand the enormous risk involved in ignoring this 
growing malignancy in our tax system, and take action now.

                                 <F-dash>

                             La Canada Flintridge, California 91011
                                                    August 31, 2005

    I am writing to beg you to change the tax code so that stories such 
as mine never happen again. You can help do so by approving ISO AMT 
Bill H.R. 3385.
    When eToys was started in 1997, its founders quickly realized that 
it would be difficult to know their market if everyone that worked for 
them was a childless, young male. So it wasn't surprising that they 
hired me as their 5th employee, a mid-thirties suburban mother with 
experience in marketing and website design. I only worked part-time, 
however, as I wanted to spend time with my young children. When the 
company was low on cash, they offered to give me part of my 
compensation in stock options. I didn't know anything about stock 
options, but accepted, knowing that whatever happened, I was there 
primarily because I really enjoyed my job.
    The company went public in May 1999, but because of a lockout 
period and a blackout period, we weren't able to sell any of our stock 
until February 2000. In the meantime, I exercised as many shares as I 
could, sometimes when the stock was trading as high as $68. I had also 
become a full-time employee, because the company decided it didn't want 
part-timers anymore.
    Unfortunately, by February 2000 I needed to sell my stock just to 
pay my tax bill. Even though my income for 1999 had been $85,500, I had 
to pay an Alternative Minimum Tax of $424,100 because I was taxed as if 
I'd had income as high as the price the stock was selling for each day 
I exercised my options.
    Thankfully, the company's stock hadn't been de-listed yet, so I was 
able to sell my shares to pay my tax bill. I've been trying to get this 
money back from the IRS, so far to no avail.
    I implore you to do what you can to reform our nation's tax code so 
that this doesn't happen to anyone else. Taxation without income is 
wrong. Thankfully, so is taxation without representation, and I'm 
relying upon my representatives to do the right thing. Please vote 
``yes'' on ISO AMT Bill H.R. 3385.

                                               Kathryn C. Hernandez

                                 <F-dash>

                                           New York, New York 10024
                                                    August 29, 2005

Dear Honorable Chairman Camp and Ranking Member McNulty:

    I am writing to respectfully request your support of H.R. 3385, 
otherwise known as the AMT Credit Fairness Act of 2005.'' I have 
submitted my testimony and shared my story at the following events:

    <bullet>  Hearing on Tax Simplification, Oversight Subcommittee (6-
15-2004)
    <bullet>  Hearing on Select Tax Issues, Select Revenue Measures 
Subcommittee (9-23-2004)
    <bullet>  Hearing on Tax Reform, Full Committee (6-08-2005)
    <bullet>  Senate Finance Committee Chairman Grassley (April/May 
2005)
    <bullet>  President's Tax Reform Advisory Panel (Spring/Summer 
2005)

    I wish to share my story in brief with you in hopes of garnering 
your support and leadership of the Honorable Sam Johnson's H.R. 3385:
    ``I am yet another unsuspecting victim of the Alternative Minimum 
Tax. Due to a stock options exercise in 2000, I'm being taxed over $1.2 
million on stock that yielded actual capital gains of approximately 
$125,000. I can't possibly afford to pay a tax on money I never 
received, yet the IRS seems unable or unwilling to work out a solution 
that is in line with the actual capital gain I realized.
    Four years has passed, and I've gone through a failed Offer in 
Compromise and seemingly endless paperwork in Tax Court. My wife and I 
are expecting our first child next month, and I have no idea how we'll 
ever cover our basic costs if the IRS starts garnishing my wages. I 
can't even begin to describe the negative impact this experience has 
had on my personal and professional life.
    I still hold hope that there is light at the end of the tunnel--I 
don't believe the AMT was ever intended to snare taxpayers for capital 
gains never received, and that's what this legislation can help 
remedy.'' I respectfully and urgently request your support of H.R. 
3385.

                                                      Tony Kadillak

                                 <F-dash>

           Statement of Todd Keen, Westminster, Massachusetts

    Dear Honorable Chairman Camp and Ranking Member McNulty:
    I have submitted my testimony and shared my story at these 
following events: Spring/Summer 2005, President's Tax Reform Advisory 
Panel.
    I now wish to share my story directly with you in hopes of 
garnering your support and leadership of the Honorable Sam Johnson's 
H.R. 3385.
    I was contacted yesterday via email by an organization I have been 
associated with for the last several years known as ReformAMT 
(www.reformamt.org). I joined this organization sometime after being 
hit with a substantial tax bill in the form of AMT tax in the tax year 
2000. They have informed me of your panel and you're looking for input 
on the following items regarding current tax laws:

    <bullet>  Headaches, unnecessary complexity, and burdens that 
taxpayers--both individual's and businesses--face because of the 
existing system.
    <bullet>  Aspects of the tax system that are unfair.
    <bullet>  Specific examples of how the tax code distorts important 
business or personal decisions.
    <bullet>  Goals that the Panel should try to achieve as it 
evaluates the existing tax system and recommends options for reform.

    In regards to the following item:

    <bullet>  Headaches, unnecessary complexity, and burdens that 
taxpayers--both individuals and businesses--face because of the 
existing system.

    I have worked most of my adult life at start-up high technical 
companies which commonly issued stock options as a form of 
compensation. One grant I received in 1997 was for ISO options, the 
rest were for Non-Qualified options. It is the ISO options that have 
created my headache. With the ISO options the general prevailing 
philosophy on the sales of these options was to exercise them and hold 
them for at least a year so that they would be taxed as long term 
capital gains. This philosophy appears to have been a recipe for 
overtaxation in the form of AMT tax when held in the context of the 
boom period of 1999-2001. While my employer held seminars on the 
implications that stock options had on potential tax burdens, we would 
be advised to consult with our own private tax consultant on our 
specific details. The problem is many tax consultants seemed to be 
inadequately informed on the matter of stock sales, ISO options and AMT 
tax implications. The result of attempting to do the correct thing for 
me to put myself in a tax situation where my ISO options would be 
taxable as long term gains resulted in being taxed on potential income 
that I have never made. Indeed four years later the stock my ISO's were 
granted in have still not approached the values that my AMT tax was 
based upon. I have since sold these shares to pay for my AMT 
obligation, but I am extremely disappointed at the opportunity lost. I 
am not an accountant and to this day still do not know what would have 
been the correct way to handle my ISO options.
    I have continued to seek accounting help in this area several years 
after the fact, I have involved myself in the organization ReformAMT 
and hope that some day a clearer more representative taxation on my ISO 
sales will be implemented and I will have some restitution on my AMT 
taxes paid.
    I am not a millionaire. I do not earn $200,000.00 every year. I had 
several exceptional earnings years based upon stock options in the late 
90's and early 2000. I am not now nor have I ever been close to 
bankruptcy. I have paid all my tax bills. I do believe that due to the 
current tax laws and lack of correct advice I have been overtaxed in 
the form of AMT tax on ISO options for profits I will never earn. I 
also feel that the government has impacted my ability to provide 
greater stability in the form of financial security to both my children 
and my spouse and I as we get older. This seems shameful to me that 
taxation laws could have this kind of impact on a family.
    In regards to the following item:

    <bullet>  Aspects of the tax system that are unfair.

    Any tax law that taxes people on potential future earnings and then 
does not return those taxes if the earnings are not realized is just 
plain unfair.
    In regards to the following item:

    <bullet>  Specific examples of how the tax code distorts important 
business or personal decisions.

    For me my important decisions had to do with funding my children's 
educations and providing for my wife and I in retirement. Due to the 
complexity and lack of correct advice in ISO/AMT matters my ability to 
properly plan for these items have been adversely impacted.
    In regards to the following item:

    <bullet>  Goals that the Panel should try to achieve as it 
evaluates the existing tax system and recommends options for reform.

    My primary goal for this panel is to recover AMT taxes assessed in 
the year 2000 for exercise of ISO stock options. My secondary goal 
would be obviously for others who have been impacted similarly to have 
their AMT recovered as well. My third goal would be a review of the AMT 
tax laws to see if they make sense and do whatever it is they were 
originally intended to do. If they do a new less complicated method of 
implementing these needs to be developed. Currently the AMT taxation 
rules are even too complicated for most accountants to properly explain 
to clients.
    While I have not commented on specifics of my AMT impact other than 
the time frames and personal feelings towards the issue, I would be 
more than happy to meet with the panel to discuss any specific detail 
of my AMT experience. I am not comfortable providing more specific 
details in this letter, as I am told it would be public record.
    I respectfully and urgently request your support of H.R. 3385.

                                 <F-dash>

                                            Lakeland, Florida 33803
                                                    August 25, 2005

Dear Honorable Chairman Camp and Ranking Member McNulty:

    I wish to take this opportunity to share my story with you and the 
other Members of the Ways and Means Committee, and to request your 
support for H.R. 3385.
    The Alternative Minimum Tax, required to be paid in advance and in 
anticipation of profit, had had a profound effect on our family.
    Our son, with a young family, was excited to be given stock options 
in Dragon Systems. When he was finally able to exercise these options, 
he invested 15,000 hard earned dollars. He was prohibited from selling 
these shares for a period of time, and during that time the company was 
sold, and the stock became worthless.
    In the meantime, the IRS tax form required that he check the box 
stating that he'd exercised his options. His tax burden on the 
`unearned but anticipated profit' was an identical $15,000. If our son 
had not had family to help pay this tax, he would have lost everything 
to the IRS for inability to pay.
    This was over five years ago, and the IRS still has the $15,000 in 
taxes he paid, but will never have a profit in his name to charge 
against his account.
    I sincerely hope you can find it in your hearts to find a way to 
release these funds back to the hard-working, honest individuals who 
have been adversely affected by the AMT by supporting H.R. 3385.

            Thank you,

                                               Beatrice C. Kempster

                                 <F-dash>

            Statement of Daniel T. Kirby, Pensacola, Florida

    Distinguished Congressmen and Congresswomen;
    Thank you for letting me have this opportunity to speak on behalf 
of the Fair Tax Act or national sales tax. Congressman Linder has done 
an excellent job in creating this idea. It is fair and would work 
better then a flat tax.
    Simply put, the Fair Tax would replace the way we're currently 
taxed, based on our annual income; with a tax based on goods and 
services.
    Briefly outlined is the FairTax. The FairTax proposal is a 
comprehensive plan to replace federal income and payroll taxes, 
including personal, gift, estate, capital gains, alternative minimum, 
Social Security/Medicare, self-employment, and corporate taxes. The 
FairTax proposal integrates such features as a progressive national 
retail sales tax, dollar-for-dollar revenue replacement, and a rebate 
to ensure that no American pays such federal taxes up to the poverty 
level. Included in the FairTax plan is the repeal of the 16th Amendment 
to the Constitution. The FairTax allows Americans to keep 100 percent 
of their paychecks (minus any state income taxes), ends corporate taxes 
and compliance costs hidden in the retail cost of goods and services, 
and fully funds the Federal Government while fulfilling the promise of 
Social Security and Medicare.
Americans take home their whole paychecks.
    Not only do more Americans have jobs, but they also take home 100 
percent of their paychecks (except where state income taxes apply). No 
federal income taxes or payroll taxes are withheld from paychecks, 
pensions, or Social Security checks.
No federal sales tax up to the poverty level means progressively like 
        today's tax system.
    To ensure no American pays tax on necessities, the FairTax plan 
provides a prepaid, monthly rebate (prebate) for every registered 
household to cover the consumption tax spent on necessities up to the 
federal poverty level. This, along with several other features, is how 
the FairTax completely untaxes the poor, lowers the tax burden on most, 
while making the overall rate progressive. However, the FairTax is 
progressive based on lifestyle/spending choices, rather than simply 
punishing those taxpayers who are successful. Do you see how much freer 
life is with the FairTax instead of the income tax?
No tax on used goods. The amount you pay to fund the government is 
        totally visible.
    With the FairTax you are only taxed once on any good or service, 
the sales tax is charged just as state sales taxes are today. If you 
choose to buy used goods--used car, used home, used appliances--you do 
not pay the FairTax. If, as a business owner or farmer, you buy 
something for strictly business purposes (not for personal 
consumption), you pay no consumption tax. When you decide what to buy 
and how much to spend, you see exactly how much you are contributing to 
the government with each purchase.
Retail prices no longer hide corporate taxes or their compliance costs, 
        which drive up costs for those who can least, afford to pay.
    Did you know that hidden income taxes and the cost of complying 
with them currently make up 20 percent or more percent of all retail 
prices? It's true. According to Dr. Dale Jorgenson of Harvard 
University, hidden income taxes are passed on to the consumer in the 
form of higher prices--from an average 22 percent on goods to an 
average 25 percent on services--for everything you buy. If competition 
does not allow prices to rise, corporations lower labor costs, again 
hurting those who can least afford to lose their jobs. Finally, if 
prices are as high as competition allows and labor costs are as low as 
practical, profits/dividends to shareholders are driven down, thereby 
hurting retirement savings for moms-and-pops and pension funds invested 
in Corporate America. With the FairTax, the sham of corporate taxation 
ends, competition drives prices down, more people in America have jobs, 
and retirement/pension funds see improved performance.
The income tax exports our jobs, rather than our products. The FairTax 
        brings jobs home.
    Most importantly, the FairTax does not burden U.S. exports as they 
are with the current income tax. So the FairTax allows U.S. exports to 
sell overseas for prices 22 percent lower, on average, than they do 
now, with similar profit margins. Lower prices sharply increase demand 
for U.S. exports, thereby increasing job creation in U.S. manufacturing 
sectors. At home, imports are subject to the same FairTax rate as 
domestically produced goods. Not only does the FairTax put U.S. 
products sold here on the same tax footing as foreign imports, but the 
dramatic lowering of compliance costs in comparison to other countries' 
value-added taxes also gives U.S. products a definitive pricing 
advantage which foreign tax systems cannot match.
The FairTax strategy is revenue neutrality: Neither raise nor lower 
        taxes so consumer costs remain stable.
    The FairTax pays for all current government operations, including 
Social Security and Medicare. Government revenues are more stable and 
predictable than with the federal income tax because consumption is a 
more constant revenue base than is income.
    If you were in a 23-percent income tax bracket, the Federal 
Government would take $23 out of your paycheck for every $100 you made. 
With the FairTax, if the Federal Government gets $23 out of every $100 
spent in America, the same total revenue is delivered to the Federal 
Government. This is revenue neutrality. So, instead of paycheck-earning 
Americans paying 7.65 percent of their paychecks in Social Security/
Medicare payroll taxes, plus an average of 18 percent of their 
paychecks in federal income tax, for a total of about 25.65 percent, 
consumers in America pay only $23 out of every $100. Or about 30 
percent at the cash register when they elect to spend on new goods or 
services for their own personal consumption. And this tax is collected 
only on spending above the federal poverty level, providing important 
progressively.
Tax criminals--don't make criminals out of honest taxpayers.
    Today, the IRS will admit to 25 percent non-compliance with the 
code. FairTax.org will be generous and simply take the position that 
this is likely a conservative estimate of the underground economy. 
However, this does not take into account the criminal/drug/porn 
economy, which equally conservative estimates put at one trillion 
dollars of untaxed activity. The FairTax will tax this--criminals love 
to flash that cash at retail--while continuing to provide the federal 
penalties so effective in bringing such miscreants to justice. The 
substantial decrease in points of compliance--from every wage earner, 
investor, and retiree, down to only retailers--also allows enforcement 
to concentrate on following the money to criminal activity, rather than 
making potential criminals out of every taxpayer struggling to decipher 
the current code.

                                 <F-dash>

                                          Scottsdale, Arizona 85260
                                                    August 29, 2005

Ways and Means Committee:

    H.R. 3385 comments from AZ 5th district:
    This letter is a request for support of H.R. 3385 which provides 
fair relief to taxpayers who have been caught in the unfair AMT ISO 
trap.
    My story. I am a long time resident in Arizona's 5th district. I 
was a senior executive at FINOVA--a NYSE listed commercial finance 
company based in Scottsdale, Arizona. During FINOVA's heyday I made 
lots of money, gladly paid lots of taxes, and contributed to local 
charities. In fact, during my last six years with FINOVA I paid over 
$2.1 million in Federal Taxes. In March 2001 FINOVA filed for Chapter 
11 protection and my employment was simultaneously terminated. The 
value of FINOVA's stock plummeted with the bankruptcy filing. During 
the two year period before FINOVA's bankruptcy filing and for three 
months after my employment termination, I was prevented from selling my 
FINOVA stock under SEC insider trading rules. Consequently, I lost most 
of my net worth which was heavily concentrated in FINOVA stock, and 
lost my lucrative employment at the same time.
    My history. During FINOVA's good times, I exercised Incentive Stock 
Options (ISO's), borrowed money to exercise the ISO's and pay 
Alternative Minimum Tax, I held the related stock since I was precluded 
from selling the stock under SEC insider rules, and finally sold 100% 
of the stock after my departure at a significant loss.
    I followed the IRS rules for ISOs which effectively required me to 
prepay taxes in the form of AMT. The IRS rules were undoubtedly 
established with the belief that this ``prepayment'' was appropriate 
since the taxpayer would incur an eventual gain on the ISOs. A logical 
rule that put taxes into the Treasury coffers. But the critical problem 
is the very difficult process of recapturing this credit if the ISO 
gain never materializes. In my situation, the gain never occurred as I 
sold the stock at a loss. So, in summary I prepaid taxes for a gain 
that never occurred. And the only way to get those prepaid taxes back 
under current IRS rules is to make lots of money (more than $500k per 
year)--and in my four years after leaving FINOVA my earnings have 
averaged under $100,000 per year.
    Fortunately H.R. 3385 has been introduced to right the inequity of 
the AMT ISO trap. H.R. 3385 does not try to fix all of the issues with 
AMT--it focuses solely on the ISO trap. When I try to be as unbiased as 
possible on this issue, I can still can not justify the unfair nature 
of AMT credits related to ISO. The only argument I can muster against 
H.R. 3385, is that it reduces tax revenue in a time of budget deficits 
and record debt. But the continuation of an unfair tax because it is 
not comfortable to address the source of repayment is little comfort. 
Without this bill, I have no way in the foreseeable future to recoup 
$135,000 in taxes I paid for a benefit I never captured.
    Please support this bill.

                                                    Robert M. Korte

                                 <F-dash>

                                    Mountain View, California 94040
                                                    August 11, 2005

    Dear Chairman Camp, Ranking Member McNulty, and Committee Members:

    Thank you for the opportunity to voice my concerns regarding tax 
reform. I have previously submitted my testimony to the President's Tax 
Reform Panel earlier this year, as well as to the Tax Reform Hearing of 
June 2005, and to the Tax Simplification Hearing of June 2004, 
regarding the ``AMT/ISO problem'' (alternative minimum tax treatment of 
incentive stock options). At this time, I would like to ask for your 
support of H.R. 3385, the AMT Credit Fairness Act, introduced by Rep. 
Sam Johnson.
    Originally from Cincinnati, Ohio, I graduated in 1985 with a degree 
in engineering from Case Western Reserve University, and then began a 
career in Silicon Valley. I joined Netscape as an engineer in 1996. 
Five years later, I exercised incentive stock options and held the 
shares, due to my belief in the company, and paid AMT of over $180,000, 
about twice my annual income, on ``phantom gains.'' By 2004, I had sold 
off all of the stock, but my actual gains were far lower than the 
``phantom gains'' I had paid tax on. Now, I find that I have a six-
figure AMT credit balance that is probably not recoverable in my 
lifetime. Needless to say, this is very disappointing. Whereas I fully 
accept responsibility for any gains or losses in the stock that I held, 
I am at a loss to understand why many years worth of my hard-earned 
savings must be permanently forfeited to pay an outrageously high tax 
involving ``phantom gains.''
    H.R. 3385, while not providing a ``quick fix,'' will accelerate the 
return of these tax overpayments by providing refunds in chunks over a 
period of years. This will help to ease the burden on people like 
myself, as well as other affected taxpayers who were unfortunate enough 
to have to sell their homes, declare bankruptcy, and face financial 
ruin, all because of a severe and unfair tax on ``phantom gains.'' This 
is not about giving a tax break to the rich, it is a means to return 
overpayments of tax to ordinary working people who were taxed as if 
they had gotten rich from stock options, but in reality did not.
    Therefore, I respectfully and urgently request your support of H.R. 
3385. Thank you for your attention to this matter.

            Sincerely yours,

                                                       Hans Lachman

                                 <F-dash>

                                       Ben Lomond, California 95005
                                                    August 30, 2005

Dear Honorable Chairman Camp and Ranking Member McNulty:

    This letter is to add testimony to those given by others who are 
suffering from the AMT issues on incentive stock options. In my case it 
is devastating and has taken all that I have saved to carry me through 
retirement and left me in a dire position.
    I am a software engineer and have worked for wages all my life. 
I've been continuously employed since I was twelve years old. I'm from 
a large (5 boys and a girl) poor family. We lived on one income from my 
father as a technician. I worked my way through high school and college 
at various jobs to provide me with clothes and transportation and to 
help supplement the family income.
    I have been fortunate enough to work at the state of the art in 
computer science while at the DOE where I implemented operating systems 
on supercomputers. My 22 years with DOE at various facilities exempted 
me from FICA and when I left DOE to work in aerospace, I was quite 
behind my peers in acquiring Social Security credits. While at various 
positions in Silicon Valley where I was again working at the state of 
the art in networking and computer security, there was no real 
retirement benefits. The work was all consuming and most enjoyable and 
the years seemed to fly by. When I reached fifty-five, I noticed that I 
should work carefully to amass a nest egg to carry me through my 
retirement years. The point was driven home when my grandmother could 
no longer take care of herself and had no support to help provide 
comfort until she died. I was her only support as the eldest child (my 
mother and father died at an early age). She had nothing but Social 
Security and that was just not sufficient to take care of her. While I 
had sufficient income to allow her the care she required, it made me 
aware of the state of risk that I was in. I had never given the fact 
that I may not be ABLE to work any significant thought and at the age 
of fifty-five, I did not have many years left to save for a time when I 
may have to stop working.
    I took a position at Exodus Communications as an early employee for 
a reasonable, but not outstanding salary with stock options. It was 
explained that if I worked hard and the company prospered, my stock 
options would become valuable. I liked that idea; I have always been an 
overachiever. During my tenure at Exodus, I worked harder than I ever 
have in my life. I worked days at a time and traveled constantly. I 
have never worked under such stress in my life, but I built a security 
managed services business for Exodus that was their most profitable 
service. Eleven group members generated over $15 million in annual 
revenue. We were the highest producers in the corporation and watched 
over a world wide network of security services for the Exodus 
clientele.
    The five years at Exodus took a heavy toll on me and my family but 
we all supported each other and took pride in the fact that we were 
building a business that anyone could be proud of. We were counting 
heavily on the value of the stock options to provide us with the 
retirement income necessary. We built a retirement home in Colorado and 
purchased a nice home here in Santa Cruz County that we hoped would 
provide a little estate for our two children after we passed away.
    That was not to be; shortly after the company went public, a new 
set of management was brought in as part of the process of becoming a 
large corporation. Ellen Hancock and her staff squandered all the value 
that all the hard-working staff had generated and drove the company 
into bankruptcy in a very short time. I was not sure what had happened, 
but as I learned about Enron, Worldcom, and other corporate criminals, 
it became obvious that I too was a victim of corporate greed. When it 
became obvious that all the stock options I had purchased had become 
worthless, I was most disappointed, but we still had our two houses, an 
IRA, some savings and I still had a good reputation as a leading 
software development manager. However, that was not to be. In August, 
after filing two extensions, my CPA and financial advisory informed me 
that I had a $1.7 million tax bill based on all that worthless Exodus 
stock. That's just not possible, I paid over a half million dollars in 
taxes the year before, how could I owe another 1.7 million based on 
worthless stock.
    I can assure you that you have never experienced a shock like the 
one I got when the CPA informed me that I REALLY owed the State and 
Federal Government all that money. Many times over what I had left from 
my time at Exodus or that I could make in my viable working years. 
Until that day, my biggest problem was with finding a new job to 
replace the income I had at Exodus. Now that I was 60 and the market 
was tight, no one wanted to hire me even though I'm still the best in 
the business.
    So here I am at 61 still telling myself that just CAN'T happen to 
me. There must be some way this is incorrect. I've attempted to work 
out settlements with the IRS and FTB and they now have all the cash and 
retirement savings I have accumulated during my 50 years of employment 
and it appears they are about to take the rest of my possessions. I 
never thought I'd end up as one of those you see on a street corner 
with a cardboard sign, but I'm not far away from that today. I've been 
looking for work for nearly a year now and living on savings which have 
just been taken by the IRS. There are tax leans on both houses so I 
can't sell them to buy food and pay rent. There are zero balances in my 
bank accounts and all the monthly bills are coming due.
    I feel really bad for my wife who depended on me to provide us with 
some sort of retirement. The frustrating thing is with this job market, 
I can't just say ``Oh well, I'll just work until I die.'' I can't even 
find a job with sufficient income to pay medical insurance or rent. I 
just don't know what I'm going to do. It's a mess.
    Thanks for your attention. I do hope that some equitable changes 
can be made in the tax system before we lose our last remaining assets.

            Sincerely,

                                       Leroy Lacy and Janis K. Purl

                                 <F-dash>

                                                 Hutto, Texas 78634
                                                    August 31, 2005

Honorable Chairman William M. Thomas and House Ways and Means Committee

Dear Chairman Thomas and Committee Members:

    Thank you for looking into what is an extremely egregious 
situation. The AMT as it affected us due to ISO stock options has 
forced us into bankruptcy, and due to the extremely large amount of tax 
it calculates, it may cause us to lose everything we own, including our 
house. At a minimum, it is forcing us into a Chapter 11, preventing us 
from a Chapter 13 or Chapter 7, which means our bankruptcy costs are 
about $15,000-$16,000 instead of $2,000 to $3,000. Our effective tax 
rate was over 600% and if nothing is done, it will take us over 70 
years to utilize our tax credits. This happened at a bio-tech company 
not a telecom company, so there are some of us in many facets of U.S. 
industry, not just one.
    How is this fair or right? We went from thinking we were on our way 
to having a decent retirement after struggling for 20 years to living 
the last 5 years under the constant stress of what is going to happen 
to us and how are we going to survive. There hasn't been a single day 
that we haven't had some issue, be it physical, emotional, stress, or 
depression to deal with. So far we have been able to stay married and 
sane, but it has not been easy. Instead of helping our children and 
parents they are having to help us. Is this the American Dream? Since 
finding out about the AMT repercussions, almost everything we do has 
been based on how to deal with it. All we did was exercise my ISO 
options. How can we owe taxes on something that we never realized? How 
can the U.S. Government and its tax code be responsible for making 
thousands of people paupers?
    For those of us that are either on the brink of ruin or over the 
edge, it would be a big help to us to be able to resolve this 
equitably. It will not put things right for us because we still will 
not have any retirement or funds and will have to try to rebuild, but 
it will at least help us to get started. If we can either take the 
credits that are due to us more quickly so that we can recover the 
credits that are due to us or if we can treat the exercise and final 
sale/resolution of ISO options/stock as a single year occurrence, we 
can at least have a fair way of dealing with this issue.
    We have been a middle-income family since we were married almost 25 
years ago. We have worked for everything we acquired, and have not been 
extravagant spenders. In fact since our 2 children started their 
activities, ballet and dance, ice hockey and figure skating, most of 
our expendable income has gone for them. I worked at a company, Luminex 
Corp. that I helped to be successful enough to go public, and was 
offered ISO stock options as a reward for my efforts. Due to management 
changes I left the company in July of 2000, and had to exercise my 
options, but was not aware of the tax implications of the AMT. Everyone 
including our stockbroker told us to hold on to the stock to get long 
term gain tax gains as well as I thought the company had a future. What 
we didn't realize is that the IRS wanted us to pay the taxes on the 
gain (AMT) even though we did not sell the stock. This would be like 
paying taxes for the increase (gain) in value of your land, even though 
you never sold it. All we have left is the house we have been living in 
for the last 12 years, as we no longer have any savings or retirement, 
and both of our vehicles are over 6 years old. Also, since I came from 
the technology sector, I was out of a job in my industry for over 2.5 
years, and worked at whatever jobs I was able to find. I am now working 
in industry again, but this burden of the AMT is having very serious 
consequences that are not only affecting ourselves, but is also 
affecting our children. Instead of being able to pass along some of the 
fruits of our sacrifices and hard work, we are not able to help our 
children start their own lives, and in fact are concerned for ours in 
our later years as our children (17 and 22) are having to help us now.
    We had to exercise my ISO options in August 2000. The IRS says that 
due to the AMT, we owed almost $300,000 from that year even though we 
didn't sell them. Because of what happened with the stock value, if we 
could treat the exercise and the final result as a single transaction, 
or if we didn't have to consider the AMT, the amount would be more 
realistic and manageable. We currently are in bankruptcy and the IRS 
has put a lien on our house for over $400,000, that if we come out of 
bankruptcy (the trustee is trying to say there is no outstanding 
question about the validity of the AMT so is trying to get the case 
dismissed), they will seize it. We don't understand how we can owe 
taxes on something we never had. The judge just ruled that the IRS 
claims are such that we cannot file Chapter 13 but have to file 11, 
which increase our costs to recover from $2,000-3,000 to $15,000-
$16,000. If we are already struggling to recover, how is adding $13,000 
on top of our debt helping?
    Your consideration in this issue is greatly appreciated. Please 
help to make the AMT law apply as it was supposed to, not against 
normal middle-income citizens.

                                                      John Lapaglia

                                 <F-dash>

  Statement of Leo E. Linbeck, Americans for Fair Taxation, Houston, 
                                 Texas

    I serve as the voluntary Chairman of Americans for Fair Taxation 
(FairTax.org). FairTax.org is pleased to submit this statement in 
support of the FairTax (H.R. 25) introduced by Rep. John Linder. H.R. 
25 is superior to all other tax reform legislation being considered by 
the Committee.
    FairTax.org is the nation's largest, single-issue grassroots 
organization dedicated to fundamental tax replacement. FairTax.org is 
the collective voice of more than 500,000 Americans of all ages, ethnic 
backgrounds, political affiliations and walks of life who share two 
views on tax reform:

    <bullet>  That Americans can rise above the failed income and 
payroll tax regimes to develop a more visible, more globally 
competitive, administrable, fairer, understandable and less costly and 
intrusive system of collection; and
    <bullet>  That when educated about alternatives in an unbiased way, 
regardless of ideology and political affiliation, Americans consider 
the FairTax to be the best plan for our national and individual 
prosperity and freedom.
The FairTax Plan
    The FairTax repeals all current taxes imposed by the Internal 
Revenue Code on income and wages; including individual, corporate and 
alternative minimum income taxes, capital gains taxes, estate and gift 
taxes, and Social Security and Medicare taxes. In place of these taxes, 
the FairTax imposes a single, 23 percent tax (tax-inclusive) rate on 
the final retail sale of goods and services used or consumed in the 
U.S. The FairTax plan then amends the U.S. Constitution so that the 
income tax will never return.
    The FairTax plan taxes all personal consumption at the point of 
final consumption. To ensure the FairTax does not cascade, business-to-
business transactions are not taxed. Intermediate goods and services 
are properly treated as inputs into goods and services sold at retail. 
Unlike the current system which taxes income multiple times and on an 
inconsistent basis, the FairTax taxes income only once and then when 
consumed. Furthermore, the FairTax does not tax used goods under the 
principle they will have already been taxed under the income tax or, 
after enactment, the FairTax. The FairTax countenances no exemptions 
for goods or services in order to ensure the broadest conceivable base 
without special interest exemption or compliance problems.
The FairTax is a Progressive Tax
    While permitting no exemptions, the FairTax holds the poor harmless 
through a monthly ``prebate'' equal to 23 percent times the DHHS 
poverty level for the family unit plus an additional amount in the case 
of married couples to avoid a marriage penalty. The prebate ensures 
each family unit can consume tax free up to the poverty level. The 
amount of tax free consumption for a married couple with two children 
in 2005 would be $25,660. Unlike the current system, no poor person 
will pay any tax under the FairTax. And the effective tax rate for the 
lower middle class since the prebate will protect most of their 
spending from tax. Those spending at twice the poverty level will have 
an effective tax rate of only 11\1/2\ percent under the FairTax. Thus, 
a married couple with two children spending $51,320 would pay only 
11\1/2\ percent in sales tax and pay no income tax and no payroll tax.
    A family spending four times the poverty level would pay an 
effective tax rate of 17\1/4\ percent.
The FairTax Rate is Revenue Neutral
    Several independent researchers confirm the FairTax plan is revenue 
neutral at 23 percent. As the starting point for this rate calculation, 
consider that in fiscal year 2003, the total taxes the FairTax repeals 
accounted for about 1.67 trillion. The economy in 2003 produced goods 
and services valued at 10.4 trillion. Of this, 7/8's or $8.6 trillion 
was consumed. To raise the taxes it repealed in that year, the rate on 
this base without any exemptions would be 19.4 percent, derived by 
dividing the taxes replaced by the total consumption in the U.S. The 
FairTax rate must be increased to 23 percent rate to accommodate the 
FairTax's generous ``prebate.'' The actual tax base calculations are, 
of course, more complex. Fairtax.org would be pleased to provide the 
Committee our detailed base calculations.
The FairTax Imposes the Lowest Possible Marginal Rate of Any Tax 
        Neutral System
    It is a mathematical certainty that broadening the base and 
imposing a single rate of tax will reduce average marginal rates. 
Because the FairTax plan utilizes a consumption base larger than both 
the current income tax base and any other alternative, it imposes the 
lowest marginal tax rate of any revenue neutral alternative without 
doubly taxing the same income. In 2001 (the latest year data 
available), total adjusted gross income was $6.17 trillion. Thus, the 
basic building block of the FairTax base--total consumption--is 38 
percent larger than the current tax system's starting point--adjusted 
gross income. Actual taxable income under the current system was only 
$4.22 trillion in 2001, only 49 percent of total consumption.
The FairTax Would Stimulate Economic Growth
    Lower marginal tax rates improve the incentive to work, save and 
invest. A consumption tax base that no longer taxes savings and 
investment multiple times will increase savings and investment. Higher 
investment levels will increase the productivity of employees, demand 
for workers and real wages.
    Economists estimate that the FairTax plan will improve wages and 
the economic wellbeing of virtually all Americans (tax lawyers are an 
exception). Work by Harvard economist Dale Jorgenson shows a quick 9 to 
13 percent increase in the GDP. Similarly, Boston University economist 
Laurence Kotlikoff predicts a 7 to 14 percent increase. Work by Fiscal 
Associates' Gary Robbins shows that replacing the current tax system 
with a flat rate system that taxed capital and labor income equally--
such as the FairTax--would increase the GDP 36.3 percent and increase 
private output by 48.4 percent over the long run. Even work by Nathan 
Associates, commissioned by the National Retail Federation which is 
hostile to the FairTax, shows that the economy would be one to five 
percent larger under a sales tax than in the absence of reform.
The FairTax Untaxes Education
    Tuition is not taxed by the FairTax plan because the FairTax draws 
no distinction between investment in human capital and investment in 
plant or equipment. Rather, the FairTax treats education as a personal 
investment the primary aim of which is to increase future income.
The FairTax Untaxes and Uncomplicates Saving
    Americans today save at low rates because our current income tax 
regime punishes saving and investment. Savings are made with what 
remains after payroll and income tax, and the return on those 
investments is taxed multiple times: the income-producing asset is 
taxed, corporate income (including capital gains) is taxed and 
dividends are taxed. Although assets in qualified pension accounts 
approach being taxed in a manner consistent with a consumption tax, the 
thousands of pages of pension regulations impose further costs that 
discourage pension plans. FairTax supporters do not see the ability to 
save as a privilege to be bestowed by the Internal Revenue Code but 
advocate adoption of the simplest pension plan in the world; one in 
which everyone can participate--if you don't spend it on yourself after 
you've met life's necessities, they don't get to tax it. The FairTax 
offers the equivalent of a universal, unlimited IRA with no 
restrictions on how much to save or on who can save.
The FairTax Reduces Compliance Costs More Than Any Other Tax System
    The current system literally throws away precious economic 
resources on wasted compliance costs that add no value to the economy. 
We collectively filed 227 million tax returns in FY 2004, and more than 
1.4 billion information returns. In 2002, the Tax Foundation estimates 
individuals, businesses and non-profits spent an estimated 5.8 billion 
hours complying with the federal income tax code at a cost of over $194 
billion. This amounts to a 20.4 percent tax compliance surcharge for 
every dollar the income tax system collected and nearly two percent of 
the GDP.
The FairTax Will Ensure Greater Compliance
    The FairTax would be more easily enforced, foster greater 
compliance and be less intrusive than current law or competing plans. 
Despite its intrusiveness and large compliance costs, the current tax 
system is failing. According to the latest IRS data, the annual tax 
gap--the difference between the taxes due the IRS and the actual taxes 
collected--is between $312 billion and $353 billion. The tax gap would 
be reduced for several reasons. First, because marginal tax rates are 
the lowest they can be under any sound tax system, cheaters profit far 
less from cheating. Second, it will be easier to catch cheaters, since 
the number of tax filers will drop by as much as 90% since only 
businesses will file tax returns. Thus, enforcement authorities will be 
required to monitor far fewer taxpayers and if resources are held 
constant audit rates will increase (and audits will be vastly 
simplified). Finally, more than 80 percent of the sales tax is 
collected by 15 percent of the retailers. Third, simplicity and 
visibility add to enforcement. Today the more than 228 million 
taxpayers can cheat in the privacy of an office and bury their cheating 
in the unnavigable 7,000 code sections with plausible deniability that 
the taxpayer even understood the law. The FairTax increases the 
likelihood that tax evasion would be uncovered and leaves little room 
to hide between honesty and outright fraud. In short, tax collectors 
can focus enforcement resources on far fewer taxpayers, with far fewer 
opportunities to cheat, diminished incentives to do so, and a far 
greater chance of getting caught if they do.
The FairTax Fully Eliminates the Current Self-imposed Tariff Against 
        American Producers
    American manufacturing faces unprecedented foreign competition. 
With a negative trade balance in goods with every principal nation and 
region, the U.S. trade deficit is approaching $600 billion per year, 
more than 5 percent of GDP. Despite this, the U.S. has failed to 
address the central problem: the increasing reliance by our trading 
partners on border adjusted taxes. 29 of 30 OECD nations (and China) 
employ border-adjusted consumption taxes rebated on exports and levied 
on imports at an average rate of 17.7 percent ad valorem. Border 
adjusted taxes enhance, through WTO legal means, the competitiveness of 
exports. Since these nations in turn levy consumption taxes on imports, 
U.S. produced goods are effectively double taxed--paying U.S. income 
and payroll taxes and foreign value added taxes. Similarly, foreign 
goods sold in the U.S. bear neither foreign consumption tax or any 
appreciable U.S. tax.
    As the purest version of a destination principle consumption tax, 
the FairTax completely removes the self-imposed tariff we now impose on 
U.S. produced exports. The FairTax does not tax goods or services used 
or consumed outside the U.S. Conversely, it taxes imports the same as 
U.S. produced goods when they are sold at retail in the U.S. For this 
reason, the FairTax can play a central role in revitalizing the 
American manufacturing base lost to foreign competition, and return to 
America the high-wage manufacturing jobs we have driven overseas. It 
will also help to make U.S. agricultural and forestry products more 
competitive.
The FairTax Benefits Charities More Than Any Other Plan or the Current 
        Tax System
    The FairTax will enhance resources available to charities (1) by 
improving the primary determinant of charitable giving--economic growth 
and national income; and, (2) by giving every taxpayer the equivalent 
of a supercharged charitable contribution by enabling contributions 
free of income, payroll and sales tax.
    Some supporters of the income tax argue the steeper the rate of 
tax, the more one is inclined to be ``charitable,'' but empirical data 
confirm a high correlation between economic growth and the national 
giving. Total philanthropy has held steady at around 2% of GDP for more 
than two decades even while the top marginal rate has fluctuated 
between 28 and 70 percent. Simply put, as people become more 
prosperous, they give more to philanthropic causes. And virtually every 
economist who opines that deductions are needed for charitable 
contributions also makes the case that a consumption tax would improve 
economic prosperity.
    Equally important, the FairTax lowers the costs of charitable 
contributions for all taxpayers in ways unmatchable by the income tax. 
The appropriate question with respect to the charitable contribution is 
not `how much of a deduction is provided?' but rather `what must a 
taxpayer earn in order to make that contribution?' A taxpayer under the 
FairTax must earn $100 to contribute $100, but a taxpayer able to 
deduct the contribution today, must earn at least $108.28 to contribute 
$100 ($118 if both employer and employee share of payroll taxes are 
considered paid by the contributor). A non-itemizing taxpayer (three-
quarters of all taxpayers) in a 28 percent bracket must earn $176 to 
make a $100 contribution to charity given the combined effect of the 
15.3 percent payroll tax.
    To match the power of the charitable ``incentive'' under the 
FairTax, the income tax would not only have to permit charitable 
contribution deductions against payroll taxes, but eliminate the 
distinction between itemizers and non-itemizers and the many other 
restrictions on the deduction.
The FairTax Benefits Home Ownership More Than Any Other Plan or the 
        Current Tax System
    The FairTax lowers the ``true costs'' of buying a home. The 
purchase of new property is taxed as a consumption item under the 
FairTax, in a manner not unlike today. We currently require homebuyers 
to pay for their new home with what remains after payroll and income 
tax today. There is no deduction for the purchase of a home. But unlike 
under the current regime, the FairTax imposes a lower marginal rate of 
tax and capital gains from the sales of used or new property are not 
taxable to the sellers under the FairTax. Moreover, the cost of newly 
constructed homes should decline as much as 20 percent as a result of 
the elimination of taxes imposed upstream. More importantly still, 
purchasers of existing homes (the most common properties bought by 
first time homebuyers) pay no FairTax on the home sale.
    The mortgage interest deduction (MID)--now permitted for servicing 
the interest on mortgage debt--pales in comparison to the full non-
taxation of interest by the buyer or the lender under the FairTax. The 
intended result of the MID is the non-income taxation of mortgage 
interest (or more precisely, the funds used to pay mortgage interest). 
But as in the case of the charitable deduction, the MID cannot be taken 
against payroll taxes which represent about 43 percent of income-based 
taxes by receipt. Three-quarters of all Americans pay more payroll than 
income taxes and they are disproportionately the first time homebuyers. 
By repealing income and payroll taxes alike, the FairTax plan ensures 
mortgage interest payments are made with totally untaxed earnings. If 
the MID were to treat mortgage interest that favorably, it would have 
to allow the deduction against payroll taxes. Finally, since lenders 
are not taxed on interest they receive the FairTax is estimated to 
lower interest rates by about 250 basis points (toward the tax-free 
bond rate) which will further reduce the carrying costs of purchasing a 
home. The FairTax also benefits home ownership because it enables 
homebuyers to save without swimming against the tide of taxation to 
amass the down payment.
The FairTax Will Provide a Template for a Uniform System of Taxation 
        for States
    States today are struggling with how to tax Internet and mail order 
sales. They miss the larger picture. It is not the sale of goods and 
services that presents a problem, but the taxation of income which can 
shift around the world as the speed of light. The FairTax offers states 
a chance for uniformity in adopting a common tax base that will enable 
states to reach out-of-state retailers selling into the state. And 
using all measures of variance, consumption is less variable than the 
taxable income.
Unlike Other Plans, The FairTax Will Not Morph Into The Income Tax
    Not only does the FairTax tax consumption rather than income, it 
would eliminate the administrative means to collect an income tax. The 
FairTax offers the only alternative that can assure no return of the 
income tax because it is the only comprehensive reform that can exist 
after repeal of the 16th amendment. The flat tax, the USA tax and other 
similar plans keep the entire income tax apparatus in place and can 
easily be transformed back into an income tax.
The FairTax Will Bring Honesty to Government by the Most Visible and 
        Transparent Tax
    Today, small changes to the Code shift tens of billions of dollars 
to particular groups of taxpayers in ways not as visible as direct 
appropriations, but just as effective. With each special exemption, 
credit, deferral, deduction or definition that results, the marginal 
tax rates are increased on everyone else. When taxes are transparent, 
they are generally more difficult to raise.
The FairTax Respects Privacy More Than Any Other System
    The FairTax eliminates the need for individuals to file tax 
returns. It will make our tax system consistent with our historically 
hallowed notions of privacy. The truth is that we could hardly have 
devised a more intrusive tax system for prying into our houses, our 
papers, our effects, our lifestyles, or our decisions. And we could 
have hardly devised a tax that--because of its many temptations to a 
large number of filers, its perceived unfairness, and its complexity--
requires such intrusiveness as a prerequisite to its enforceability. By 
its own unalterable nature, from the cradle to the grave, the income 
tax eventually extracts, collates, and chronicles almost every detail 
of our financial and personal lives as a necessary condition of its 
enforceability.
The FairTax is Supported by Small Firms
    The FairTax is the only plan specifically endorsed by a wide array 
of small business groups; including, the National Small Business 
United, the Small Business Association of Michigan, the Council on 
Smaller Enterprises, the Associated Builders and Contractors and the 
American Farm Bureau Federation. These groups, who consist of retailers 
as well as manufacturers and service providers, support the FairTax 
because it will eliminate tax on productive income, reduce compliance 
costs, and create economic growth.
The Flat Tax and the Freedom Flat Tax Act
    The Hall-Rabushka-Armey-Forbes flat tax is a modified value added 
tax that taxes labor value added at the individual level and capital 
value added at the business level. It retains the basic income tax 
apparatus with tax returns filed by both businesses and individuals. 
Because it expenses capital and treats savings as if they were in a 
Roth IRA, the Hall-Rabushka flat tax is a type of consumption tax. The 
flat tax taxes U.S. exports and imposes no tax on imports into the U.S.
    Princeton economist David Bradford and more recently Robert Hall 
(the Hall in Hall-Rabushka) have proposed the X Tax which is the flat 
tax with graduated rates on labor income.
    The flat tax could be converted back into a serviceable graduated 
income tax with the following changes:

    1.  Depreciate capital rather than expense capital;
    2.  Deduct inventories when sold rather than when purchased;
    3.  Make interest both taxable and deductible;
    4.  Tax dividends, royalties and capital gains; and
    5.  Make tax rates graduated rather than flat.

    The fact that such straightforward modifications can transform the 
flat tax into a graduated rate income tax should give its supporters 
pause.
    Although an improvement over the current system the flat tax is 
inferior to the FairTax because:

    1.  it retains the income tax apparatus and can be easily 
transformed into a graduated rate income tax;
    2.  it requires individuals to continue to file tax returns;
    3.  it is not nearly as transparent or understandable as the 
FairTax (as is evidenced by the fact that most flat tax supporters 
don't even understand what it is)
    4.  it hides a large portion of the total tax burden in the 
business tax; and
    5.  it continues to place American producers at a disadvantage both 
in U.S. markets and abroad.

    Rep. Michael C. Burgess has introduced the so-called Freedom Flat 
Tax (H.R. 1040). This proposal would allow taxpayers to choose between 
a flat tax and the current system. The proposal thus would retain all 
of the special exclusions, credits, preferences and deductions in the 
current system and all of its complexity and compliance costs. It then 
adds a new layer of complexity. The proposal cannot be revenue neutral 
because it affords taxpayers an option between the current system and 
the flat tax. Virtually all taxpayers will do their tax returns both 
ways and file whichever way leads to the lowest tax bill.
The Simplified USA Tax Act or ``SUSAT''
    Rep. Phil English has proposed the simplified USA Tax. The proposal 
would impose both a business transfer tax (a subtraction method value 
added tax) and a type of consumed income tax (with graduated rates) 
where all individual savings is treated as if they were in a Roth IRA. 
The proposal does represent an improvement over the current tax system 
in that the tax base is consumption and the marginal tax rates are 
somewhat lower than the current system. In addition, the business 
transfer tax is border adjusted and would improve the competitiveness 
of U.S. producers in international markets.
    Nevertheless the proposal retains the current income tax apparatus. 
It is quite complex compared to the FairTax and would have much higher 
compliance costs. Although an improvement over the current system the 
simplified USA Tax is inferior to the FairTax because:

    1.  it retains the income tax apparatus, including graduated tax 
rates;
    2.  it only modestly reduces marginal income tax rates;
    3.  it requires individuals to continue to file tax returns;
    4.  it is not nearly as transparent or understandable as the 
FairTax; and
    5.  it hides a large portion of the total tax burden in the 
business tax.
Conclusion
    The FairTax is superior to the current tax system and to all of the 
alternatives being considered by the Congress. The FairTax represents 
the best plan to improve the wellbeing of the American people while 
raising the revenue needed to fund the Federal Government. It is more 
fair, will better promote economic growth and competitiveness, will 
better foster thrift, charitable giving, education and home ownership, 
will reduce needless compliance and administrative costs and protect 
privacy.

                                 <F-dash>

                                        San Diego, California 92122
                                                    August 26, 2005

Dear Honorable Chairman Camp and Ranking Member McNulty:

    I have submitted testimony and shared my story to the President's 
Tax Reform Advisory Panel during the Spring of 2005.
    I now wish to share this story directly with you in hopes of 
garnering your support and leadership of the Honorable Sam Johnson's 
H.R. 3385.
    In Year 2000 during my employment at a high technology company, I 
exercised unvested incentive stock options that were issued by my 
company with an exercise price that was significantly less than the 
fair market value on the date of exercise. I wasn't able to sell these 
in Year 2000 so I incurred a significant AMT preference item that 
resulted in my alternative minimum taxable income being much greater 
than my regular taxable income. As a result, I had to pay approximately 
$34,000 in AMT to the Federal Government and approximately $5,000 in 
AMT to the state of California. These AMT values that I paid are over 
and above the regular tax amounts that I paid in Year 2000. The AMT tax 
itself that I paid was actually greater than the ordinary tax that I 
paid. I submitted an 83(b) election which effectively recognizes the 
AMT income in the year that this election was submitted. In order to 
pay the tax, I sold all equity holdings that I possessed.
    The payment of these taxes put me and my family in a very 
challenging financial situation. I refused to take on any credit card 
debt in order to maintain our standard of living so we cut our spending 
dramatically. In fact, I turned off the heat in our house during the 
winter in order to save a few hundred dollars a month although I did 
keep a space heater running in our new baby's bedroom during the night. 
We did not contribute to our IRA accounts in Year 2001 and I even cut 
back my bi-weekly 401K contribution rate to one percent of my salary 
from a contribution rate that would result in me contributing the 
maximum yearly amount.
    The AMT that is paid becomes an AMT credit which can be claimed by 
an amount that equals the regular tax minus the alternative minimum 
tax. In Year 2004, I will be able to claim approximately $1,500 of this 
AMT credit. The yearly rate of reclamation of the AMT credit is 
generally low relative to the outstanding AMT credit for people in my 
situation. This AMT credit provides federal and state governments with 
an interest free loan that is paid for by the taxpayer since the 
taxpayer can't collect any interest on this money for himself. In fact, 
I understand that the taxpayer actually loses this credit upon his 
death.
    Understanding the AMT tax system took many hours of my time. The 
time was spent reading appropriate tax books, reviewing some message 
boards on appropriate websites, and long discussions with my colleagues 
at work. The time required to understand this tax has a negative effect 
on productivity at my place of work. I can imagine that Joe taxpayer 
generally won't even be able to comprehend this tax even though he will 
be affected by it sooner or later.
    I know well over twenty people who were adversely affected by 
staggering amounts of AMT. I know of one individual that needed to sell 
his house and move his family in order to pay the tax as he got laid 
off as well in Year 2001. Many of these individuals suffered 
psychologically as a result of the financial straits that they were 
subjected to as a result of the AMT. As a result, work productivity 
notably suffered as well.
    I would like to add that many of my colleagues at work were 
adversely affected by exercising non-qualified stock options where the 
exercise price was much less than the fair market value on the date of 
exercise. The tax that is based on the difference between these two 
values becomes due on the date of exercise. It counts as regular tax 
and not alternative minimum tax. Unfortunately, my colleagues were not 
able to sell immediately since the shares weren't vested. The 
underlying stock price had already fallen dramatically enough when the 
exercised shares could be sold. The result is the tax paid in Year 2000 
is much greater than the amount for which the shares could be sold. 
Reclamation of this loss will take decades for most of these 
individuals as only $3,000 of the amount could be reclaimed annually. 
This regular tax coupled with their AMT burden has adverse financial 
consequences for my colleagues to this very day.
    Some Recommendations for Tax Reform:

    1.  Elimination of the alternative minimum tax and payment of all 
outstanding AMT credit to individuals that are due this credit.
    2.  The loss of the billions of dollars from AMT payments by 
individuals needs to be obtained from other sources. This may be 
achieved by the following methods:
      a.  Changing the marginal tax rates to their prior values at 
minimum
      b.  Establish a federal consumption tax. In order to mitigate the 
regressive effects of this tax on low income families, provide 
additional income tax relief to people in this group.
      c.  SIMPLIFY! The simplest solution is almost always the best 
solution and the correct solution. Any lack of coverage by a simplified 
tax code will be more than made up by the billions of dollars that will 
be saved by administering a complex tax code, the decrease in worker 
productivity that occurs when individuals spend many days trying to 
figure out the best tax strategy, the corresponding loss of tax revenue 
as companies earn less when the employees are less productive, and 
anecdotally, the hundreds of millions of dollars that are unnecessarily 
paid to tax preparers that are required to prepare complex tax returns.

    I respectfully and urgently request your support of H.R. 3385.

                                                     Gerald M. Marx

                                 <F-dash>

                                          Boca Raton, Florida 33432
                                                    August 31, 2005

Honorable Chairman William M. Thomas and House Ways and Means Committee

Dear Chairman Thomas and Committee Members from the Florida 22nd 
Congressional District:

    I was an employee of Qtera, in South Florida, of one of the many 
acquisitions of Nortel Networks during the telecommunications boon of 
1998 to 2000. I received incentive stock options and subsequently have 
paid to the U.S. Treasury Department, Alternative Minimum Tax, in 
excess of $230,000.00.
    I was hired as the 17th employee in 1998, three years after 
completing a Bachelors degree in Mechanical Engineering. Working for 
Qtera, in Boca Raton, FL, was a fantastic experience. The team that was 
assembled was of the highest quality and some of the most motivated 
individuals I have ever worked with. Our devotion, hard work and 
technical expertise made us an acquisition target of both Cisco Systems 
and Nortel Networks in late 1999, Nortel Networks ultimately acquired 
us; seventy employees had achieved the impossible. Instantly, all our 
Qtera ISO's were converted to Nortel Networks ISO's at approximately 
$60 per share. Our success received a wealth of media coverage, from 
the Wall Street Journal to NPR.
    Soon after the media broke the news of our success, the 
stockbrokers and investment bankers began courting our employees. As 
employees with much work ahead of us, we had little time or energy to 
learn about the Alternative Minimum Tax code. Some of the investment 
firms provided seminars on the Alternative Minimum Tax code but usually 
we were left with more questions than answers. AMT soon became the 
number one discussion topic, on the surface, we found ourselves quite 
versed in the subject, yet few of us really understood the dirty 
details.
    My plan was to exercise and hold the shares as Congress had 
intended then after holding the stock for a year, sell enough shares to 
pay AMT and invest the rest. The first sign of trouble was the gradual 
decline in Lucent's stock price during 2000. We continued working 
incredible hours to meet our company milestones during our one-year 
transitional period.
    By the middle of 2000 many employees had stockbrokers managing 
their investments. Not only brokers, but accountants, estate planners 
and life insurance brokers, everyone was after our potential wealth. I 
retained a local accounting firm to manage my tax liability and a 
nationwide brokerage house to manage my account. The accountants were 
confident they were experienced with Alternative Minimum Tax. Their 
experience turned out to be limited, but since they had fifteen of my 
co-workers on a yearly $4,000 retainer, they had no problem getting 
their hands dirty with the tax code. I reasoned that the Alternative 
Minimum Tax code was so complicated that I should have professional 
support, no matter the cost.
    April 15th 2001. The year had gone so quickly and I exercised 
options twice during the previous year resulting in an Alternative 
Minimum Tax on ``Paper Gains'' of $195,000.00. It was strongly 
suggested, by my investment broker, use margin to pay the tax bill. The 
margin loan sounded like a reasonable idea, the investment firm 
provided a low interest loan without liquidating the account, as long 
as the account value is not less than the loan. Little did I know the 
bottom was about to drop out.
    I began to diversify my account, but the majority was still in 
Nortel stock. Meanwhile, while no one was watching, Nortel stock fell 
below $20 per share. The Nortel management was positive on the 
company's growth and their overall market position, the low price was 
just a small correction in the overall market. (We now know these 
earnings were inflated.)
    By summer of 2001, the margin debt was nerve-racking and I was 
forced to sell Nortel shares and diversify as the share price continued 
to slide. I began to exercise and sell, just to raise cash for the 2001 
Alternative Minimum Tax. Nothing could stop the hemorrhaging stock 
price or margin calls. The tax models the accountant had prepared last 
year were useless. My only concern was having enough cash to pay the 
AMT and pay off the margin debt. By the end of 2001, we got word that 
Nortel would soon be downsizing their operations in Florida. Nortel 
Networks needed to reach the ``break even point'' and the cutbacks 
began. By the third quarter of 2001, the share price was under $10 and 
Nortel was laying off two thirds of their worldwide workforce.
    April 15th 2002. I had paid estimated tax throughout the year, in 
hopes of making the April payment manageable and avoiding penalty fees. 
Each of those quarterly tax payments went on the margin loan. By April 
2002, I reached my personal debt limit and liquidated my account to pay 
off my debt and pay the AMT. The 2001 tax bill was only $37,000.00, a 
few thousand less than my yearly salary! I ended my contract with my 
accountant, sold 90% of my investment account, and prepared myself for 
the possibility that I too would soon lose my job. My fears were 
realized and by the second quarter of 2002, I was unemployed.
    I learned many valuable lessons through this experience and I am 
fortunate that I am not financially ruined like so many of my former 
colleagues. Many will have their wages garnished, or have filed for 
personal bankruptcy, some were fortunate enough to negotiate 
settlements with the IRS. The Alternative Minimum Tax code was 
implemented to prevent wealthiest 2% of Americans from using special 
tax benefits to pay little or no tax. For various reasons the 
Alternative Minimum Tax has reached many hard-working, middle class 
Americans in South Florida 22nd Congressional District, some who don't 
have very high incomes or special tax benefits. I hope those in the 
United States Congress have the compassion and foresight to realize the 
growing negative effect of the Alternative Minimum Tax and bring change 
to the outdated tax code.

                                                    Timothy Masters

                                 <F-dash>

                                                Austin, Texas 78736
                                                    August 31, 2005

Honorable Chairman William M. Thomas and House Ways and Means Committee
Washington, DC

Dear Honorable Chairman Camp and Ranking Member McNulty:

    I have previously submitted 6/05 to the Ways & Means Tax Reform 
Hearing.
    I now wish to share my story directly with you in hopes of 
garnering your support and leadership of the Honorable Sam Johnson's 
H.R. 3385.
    Our three children, and I, along with my wife Julie have been 
seriously impacted by the Alternative Minimum Tax (AMT) that I had to 
pay due to the exercise of stock options. The AMT laws pertaining to 
Incentive Stock Options are unfair and I would venture, 
unconstitutional. I appreciate the time you and the Committee are 
taking to review this matter, and would ask that you consider changing 
this seriously flawed and unjust law of the tax code. I also ask that 
you consider doing what's right for those already impacted, a large 
majority of which, was caused by the ``perfect storm'' when the market 
went south in 2000.
    I, personally, consider myself one of the lucky ones. . . . I have 
the possibility of actually recovering the AMT amount paid in over my 
lifetime, if everything works out, and even though it's having a direct 
impact now on our lives, it could have been worse. Thank God I only 
exercised 346 of the 512 stock options I was originally going to! Even 
with this stated, I am personally writing for those who have had their 
lives turned upside down. It's devastating to hear some of these 
stories! Single mothers who are janitors owing hundreds of thousands of 
dollars . . . just because they listened to their tax accountants, the 
IRS and a poorly written policy, called AMT. This belittles the 35-
$40,000 (52.55% affective rate) difference the AMT law made on my tax 
bill ($29,355 in actual taxes owned + the amount I would have got back, 
had it not been for the AMT ``law'').
    My story starts back in the middle of 1996. I had a prior job with 
a retirement benefit that I received. As I was struggling to make ends 
meet while supporting my wife (who's presently disabled) and three 
children (two of which were from my wife's prior marriage, and at that 
point, had received NO child support. I loved my family then, and do to 
this day, so it was just one of life's struggles we have to deal with), 
we had to roll over the retirement account to a standard IRA. Around 
1999, I found out about the ROTH IRA, and as things were looking better 
with my job and our finances, it sounded like a good item to move 
towards looking into our future. We realized it would be a struggle to 
pay the taxes on it, but were going to deal with that hardship to 
invest in our future retirement. So in early 2000, things were looking 
like we could finally pull off coming up with the taxes at the end of 
that year, so we converted the IRA to a ROTH IRA. In Feb. 2000, when 
our companies stock was doing well, I contacted some tax accountants 
and made several calls to the IRS regarding exercising my stock options 
utilizing the 83-b, so I could lock in the tax benefits. Things were 
really looking up and we were highly encouraged to invest in our 
company by management, and so I did. All my calls to the IRS didn't 
really amount to much as hardly anybody knew about the Form 83-b, but 
the basic information they kept telling me is that it's a huge tax 
benefit. I'd only have to pay long term capital gains tax on the 
options exercised, as long as they weren't sold for a year (even the 
options which hadn't vested yet, and wouldn't until even the latter 
part of 2001). As the markets kept dipping and our stock started taking 
a dive (much later than most in that year), and I started hearing more 
mentioned about the AMT tax, I started looking into the AMT 
implications. I had at least 20 conversations with the IRS themselves, 
along with consulting with two different tax accountants. NONE of them 
really knew of this area of the tax code, and ALL called it a ``very 
gray area.'' Many times, the IRS would have to escalate up the ladder 
to a more knowledgeable expert in that area. I NEVER did get any real 
information from ANY of them other than ``it's a gray area.'' If the 
IRS couldn't tell me about the ISO-AMT laws, who could???
    At the beginning of 2001 I continued to keep placing calls to the 
IRS to find out exactly how my options will be taxed and what or how 
AMT would apply. I finally got a copy of some tax software after I 
couldn't get answers to my questions from either the IRS or the tax 
advisors I was working with. Well, I couldn't believe my eyes when I 
plug my numbers in. I then made many more calls to the IRS. Finally 
AFTER the 2000 tax year was completed, some of these ``gray areas'' 
start turning into answers. They went something like ``Oh, I just had 
to look into a few of these last week and the IRS has started 
publishing more/better information on these `gray areas.' '' To my 
amazement, now that the tax year is over, the IRS had finally got 
specific, but by now, it was too late for me to do anything. It was a 
blow that I couldn't ever have expected, nor believed that there was 
any constitutional way that I could be liable for this kind of tax. It 
meant that we were to pay tax on money we would NEVER receive. It meant 
that for a $2 stock option, I was going to have to pay almost $24/share 
in taxes . . . yet the value of the stock was only a small fraction of 
that. EVEN THOUGH I COULD SELL THE STOCK FOR A PROFIT OVER THE $2 GRANT 
PRICE, I STILL HAD TO PAY TAXES IN AN AMOUNT THAT MEANT I LOST MONEY. 
How can you pay taxes on stock that you NEVER saw a gain from???
    Now, comes the real shocker . . . so this is a pre-paid tax . . . 
I'll just be able to get the tax money back I paid when I file my 2001 
taxes, and pay off the money I owed the IRS. . . . NO SUCH LUCK! This 
law is written to where the only way you could do that is OWE a huge 
amount of AMT tax again the next year. I will probably NEVER owe AMT 
tax again (so I thought) in my life . . . now that I'm reading more 
about it, I find even that may not be true.
    So, here I am, I bought exercised the stock, NEVER sold it and now 
I have this HUGE debt, with an effective tax rate of 52.55% (it's 
realistically higher, as I didn't get back the $$ I should have), and 
am expected to live on that. My disabled wife needed a different used 
car as hers was becoming undependable with over 130,000 miles on it, I 
couldn't afford that, I couldn't afford anything I worked for. The IRS 
kept charging me penalties and interest on my AMT bill, and so I 
finally had to go into serious debt by borrowing money off of my credit 
cards to pay off the IRS to get them off of my back.
    Now, I went from thinking I could actually do something nice for my 
family and take our first real vacation, to being horrifically in debt! 
Something's wrong here. . . . I'd previously in my life worked two jobs 
for almost two years (putting in 70-100 hrs a week), to get myself 
where I didn't have to worry about serious debt (mostly due to a 
robbery), and now because I worked hard and my company attempted to 
reward me, I'm in the worst shape of my life! I didn't try to get out 
of the taxes I truly owed . . . never have, never will. But, why isn't 
our government treating me the same exact way? George Washington would 
be turning in his grave if he knew about this. Hard work in this 
country is supposed to be rewarded, not a punishment. I worked hard for 
everything I have, never getting any handouts, nor expecting them. I 
just want my country to treat me fairly in the same manner, as it 
should treat ALL in this country that way. Please correct this 
injustice . . . if not for me, but for ALL citizens, especially those 
such as the hard-working single moms who have been blindsided so hard 
by a lack of information and poor tax laws and interpretations of them. 
Please repeal AMT retroactively, and replace it with something that is 
TRUELY FAIR.
    I was about to stop there, but wanted to add one more piece I think 
you should know about . . . this isn't just about money here . . . this 
law is putting a serious strain on people's health too. I try to avoid 
thinking about AMT as much as I can. . . . It gets me literally sick 
every time I think of it. This was hard once again to write to try to 
have some action taken on this subject. I knew what would probably 
happen . . . but I had to write anyway. I've NEVER felt so strongly 
about a law so much in my life . . . don't get me wrong, I have strong 
moral values, and feel there are many which could be improved upon, but 
this law, I feel, is just plain robbery.
    I respectfully and urgently request your support of H.R. 3385.

                                                      Steven D. May

                                 <F-dash>

                                        Fallbrook, California 92028
                                                    August 17, 2005

Dear Honorable Chairman Camp and Ranking Member McNulty:
House Ways and Means Committee

Dear Chairman and Members:

    I respectfully and urgently request your support of H.R. 3385 as my 
wife and I are among other Americans who have been hugely impacted by 
the Alternative Minimum Tax (AMT) and its treatment of Incentive Stock 
Options (ISOs).
    In 1998, I joined a Silicon Valley software startup. Within 18 
months, I exercised incentive stock options and we were instantly 
``millionaires'' on paper. Unfortunately, our stock value plummeted in 
2001 with the rest of the NASDAQ. As a result of the AMT, however, we 
were still liable for nearly $300,000 in federal income taxes and 
approximately $75,000 in state taxes based on the value of the stock at 
exercise. Given the dramatic fall in the value of the stock, we were 
unable to pay the liability in full.
    Over the next 3\1/2\ years, we tried to reach a reasonable 
compromise with the IRS on the remaining balance, but our offer in 
compromise (OIC) with the IRS was rejected, as was our appeal of the 
rejection. Most recently, at great family hardship, we did a cash-out 
refinance of our home and liquidated all of our remaining assets to 
come up with $262,000 (which included $187,000 in federal tax and 
$75,000 in penalties and interest) to pay the balance of our year 2000 
taxes.
    My wife and I are now starting over financially due to the AMT. I 
am 47 years old and the first of my two teenage children will enter 
college next year, which my wife and I are committed to fund. Given 
that the AMT has depleted all savings, investments, 401ks, college 
funds, etc., we plan to cash flow our children's education over the 
next 7 years and then at age 54, we will begin to re-save for 
retirement.
    Please help us, and quickly. We are hopeful that our Leadership 
will recognize that the AMT and its impact on families like ours is 
unfair and distorted. We are also hopeful that new legislation, 
specifically H.R. 3385; AMT Credit Fairness Act, will soon provide 
relief for families in our situation. The ability to apply our AMT 
credits against normal income and tax events would allow us to regain 
some of our financial security.

            Sincerely,

                                                      Steve Mazingo
                                 <F-dash>
The Honorable Michael McCaul, Representative of Congress from the State 
                                of Texas
    Mr. Chairman, I would like to thank you for allowing me the 
opportunity to submit my thoughts for the record on the Fair Tax Plan. 
I would like to commend Mr. Linder for his leadership on this very 
important issue.
    The income tax has been a permanent part of the American tax system 
for ninety-two years. Increased government spending has resulted in 
such a steep income tax rate that a significant amount of the average 
hard-working American worker's salary never even reaches his or her 
pocket. As a conservative, I believe that the American taxpayer is a 
better judge of how their own money should be spent, and not the 
government.
    Mr. Linder's plan would permanently abolish the income tax and 
replace it with a national sales tax. His plan would allow workers to 
receive one hundred percent of their earnings in their paychecks, 
giving them the right to decide how best to use all of it. American's 
will pay taxes based on their personal consumption of products, as 
opposed to how much the government chooses to take from them based on 
what they earn through their hard work. Taxpayers will save thousands 
of dollars and hundreds of hours a year by simplifying this process. No 
more confusing tax forms, no more costly tax compliance. Additionally, 
our government will save millions of dollars in collection costs and 
enforcing taxpayer compliance. The fair tax is most, and perhaps only, 
efficient way to collect federal taxes.
    Many tax proposals will be reviewed in the coming months by your 
Committee. I strongly urge the Committee to adopt the fair tax model 
for fundamental tax reform. The economic benefits this plan will bring 
for the country and cost savings for the government are undeniable. It 
is time the government stopped carving up taxpayers hard earned 
paychecks and started allowing working Americans to keep their own 
money.

                                 <F-dash>

                                        Catonsville, Maryland 21228
                                                    August 26, 2005

Dear Honorable Chairman Camp and Ranking Member McNulty,

    We have submitted our testimony and shared our story at these 
following events:

       6-15-2004, Hearing on Tax Simplification, Oversight Subcommittee
       9-23-2004, Hearing on Select Tax Issues, Select Revenue Measures 
Subcommittee
       6-08-2005, Hearing on Tax Reform, Full Committee
       April/May 2005, Senate Finance Committee Chairman Grassley
       Spring/Summer 2005, President's Tax Reform Advisory Panel

    We now wish to share our story directly with you in hopes of 
garnering your support and leadership of the Honorable Sam Johnson's 
H.R. 3385.
    My name is Rita Miller and I am writing on behalf of myself and my 
husband, Arthur, regarding a huge tax debt that we incurred on phantom 
gains that were created by the application of the Alternative Minimum 
Tax. We submitted our testimony previously, but we are respectfully 
requesting your support of H.R. 3385.
    In November 1997, I took a job in Linthicum, MD as an 
Administrative Assistant for a start-up Internet security company, 
VeriSign, Inc., whose headquarters is in Mt. View, CA. We incurred a 
huge tax debt starting in the year 1999 by exercising Incentive Stock 
Options (ISOs) I received while working for VeriSign, Inc. We held some 
of the stock. We didn't realize ANY profit from the exercised, unsold 
stock. We just took the stock from VeriSign and put it into our newly 
created stock brokerage account.
    We have always been in the lower portion of the middle class income 
bracket. We never owned even one share of stock before. We thought the 
stock market was for the rich and famous. For that matter we never 
really ever had a savings account. We raised three sons while just 
making ends met. But now it had looked as though the all-American dream 
might be coming true for us. We now had a vehicle to change our 
financial position and the ability to really be able to save for 
retirement. I am 56 years old and my husband is 58.
    We read everything we could about stocks and taxes and everything 
pointed to exercising and holding the stock for long term capital 
gains. We enlisted the help of a reputable financial advisor. The 
advice from the financial advisor was to exercise and hold the stock so 
as not to incur the higher short-term capital gains rate. And we did--
we held the stock. But unbeknownst to everyone, if you exercise and 
hold onto stock for the long term and carry it over a tax year, a tax 
called AMT (alternative minimum tax) can apply, and it did.
    We were taxed on the value of the stock on that particular day we 
exercised them. On some of those days the stock traded as high as $220. 
We were taxed as if we sold the stock that day and made a profit. We 
didn't sell the stock at $220. We didn't receive, as it would appear, 
the huge profit on those shares of stock, but we were being taxed as if 
we did. Taxed on ``phantom income.'' As if we had the monetary gains 
sitting in a bank account somewhere. That was not the case.
    All other assets, like real estate and stock purchased on the open 
market, are taxed based on the value at the time of the sale, when you 
actually receive a profit, not at the time of the purchase. Why aren't 
we just taxed when, and if, we sell the stock? That then would be a 
legitimate profit made and a legitimate tax due.
    Our total federal taxes due from the years 1999 through 2002 was 
$448,873. We managed to pay $314,784 by selling whatever shares of 
stock we had. During the year 2000 when the stock market started to 
plummet, so did the value of our stock. When we sold the stock the 
prices ranged from $34 to as low as $9. Keep in mind that the original 
amount of $448,873 was the tax due based on the stock trading at an 
average $220 per share. As you can see I didn't sell it for $220 but 
I'm being taxed as if I did.
    This is not even to mention the amount that we owed to the state. 
We negotiated with the IRS and went on a payment plan to pay the 
remaining $134,089, likewise with the state. We never missed a payment 
until both my husband and I lost our jobs within a few months of each 
other in the year 2002. I was unemployed for over a year, my husband is 
still unemployed.
    We requested an OIC and the IRS rejected it--stating that we had a 
house, a car and some retirement money and if we sold the house, the 
car and turned in the retirement, we could pay the ``phantom taxes'' we 
owed. We came to realize that after filing subsequent years taxes, the 
IRS now ``owes'' us $124,297 in credits for actual overpayment of 
taxes. We immediately filed another OIC. We offered $8,002 along with 
the credit of $124,297 that the IRS admits was an overpayment of taxes 
bringing our tax debt to a ``paid-in-full'' status. Can you imagine our 
disbelief when we received the notice that the IRS is rejecting this 
offer too? The IRS wants us to pay them first, then they want to give 
us back the $124,297 of ``overpayment'' by allowing us to recover a 
small portion, approximately $3,000, of the credit per year! My husband 
and I will have to reach the age of 99 and 97 respectively to recover 
the entire amount of the overpayment.
    A travesty just occurred in our lives that added additional 
hardship. My husband, who has been unemployed since August 2002 and has 
spent more than a year of processing for employment with the Department 
of Defense was just notified that the DoD is withdrawing his offer of 
employment due to the outstanding IRS debt. They said that the tax 
issue brought into question his credibility--but we only owe this tax 
because we were honest enough to report our exercise of the stock 
options in the first place. At almost 60 years old where is he going to 
find another opportunity like the one with the DoD? We are hard-
working, trustworthy and honest people. We have never avoided paying 
taxes and have always engaged in honest financial practices. We 
understand the AMT was put into place to make sure that the very 
wealthy people paid their fair share of taxes, but it's not working the 
way it was intended. There has to be some consideration for people like 
us, those of us that were caught in the AMT trap.
    Whenever you tell anyone the details of our situation they are 
appalled. They say that's impossible. It just couldn't be. Well it did 
and we have been living a nightmare for over 3 years with daily fear 
that one day when we open our mailbox there's going to be a letter 
there from the IRS stating that they are taking our home, the one that 
we worked all our life for.
    We respectfully and urgently seek your support of H.R. 3385.

                                               Rita & Arthur Miller

                                 <F-dash>

                                            Las Vegas, Nevada 89149
                                                    August 26, 2005

Dear Honorable Chairman Camp and Ranking Member McNulty:

    I have submitted my testimony and shared my story on a number of 
occasions in the hope something can be done to fix a travesty in the 
tax code. I now wish to share my story directly with you in hopes of 
garnering your support and leadership of the Honorable Sam Johnson's 
H.R. 3385.
    My name is Nield Montgomery. I very much appreciate the opportunity 
to tell my story of suffering and hardship brought on by the 
application of the out of date and destructive rules for the treatment 
of Incentive Stock Options under the Alternative Minimum Tax (AMT) 
code.
    My difficulties and those of thousands of others were brought about 
by events never contemplated when the AMT was devised, i.e., the 
significant negative tax impact that happens with stock options when a 
company's stock price experiences a dramatic decline. At the risk of 
being too basic, please allow me a brief explanation of stock options. 
A stock option is the right to buy a share of stock at its current 
price (the strike price) at some time in the future. Non-Qualified 
Options (NQOs) and Incentive Stock Options (ISOs) differ in their tax 
treatment. I'll talk first to ISOs. When the option holder exercises 
the right to buy (obviously the current market price exceeds the strike 
price), they create an Alternative Minimum Tax (AMT) taxable event. The 
AMT treats the spread between the option strike price and the stock 
price when the option is exercised as income (otherwise called 
``phantom'' income). That is, even though there's no tangible income, a 
tax consequence occurs non-the-less. Now to be fair, when the AMT 
exceeds the regular tax owed calculation, the taxpayer gets a credit 
against taxes in future years (the credit's application is complex and 
can take years if ever to recover). A subsequent sharp decline in stock 
price does not alter the tax owed even if the stock price goes to zero.
    When the tech bubble burst, huge numbers of share owners were left 
with tax bills resulting from the AMT treatment of ISOs while their 
shares had become nearly or even totally worthless. Remember, the real 
value of the stock has nothing to do with taxes owed. What was supposed 
to be an ``incentive'' and accepted in lieu of cash compensation turned 
into a tax nightmare (an obligation to pay taxes where no income/gain 
was realized). People were forced to mortgage/sell their homes, take 
out loans, or sell whatever they could to pay these absurd tax bills. 
It seems incomprehensible the IRS would enforce such harsh collection 
measures for tax dollars that become a credit in the taxpayers account. 
This AMT tax treatment is complex and unfair and has caused untold 
financial hardship, ruin, and heartbreak. Side note: how does the 
government account for these prepaid taxes?
    The tax treatment for NQOs is even worse. Tax law requires the 
treatment of the NQO as an income event at the time of grant. The 
income results from the difference between the strike price of the 
option and the stock price on the grant date. This is without regard as 
to whether the NQOs are even exercised and, if they were, whether or 
not the shares were sold. Again, in a market such as we've experienced, 
a decline in the price of the stock is just a personal misfortune. The 
tax is owed even if the stock price goes to zero.
    Looking at the larger picture, I'm not sure anyone can assess the 
positive impact the awarding of stock options has had on our economy. I 
know their use has been widespread and it's my opinion they've been a 
significant factor in holding down wages and inflation. Thousands of 
employees had been willing to accept below market wages in exchange for 
options. The belief was that by working hard and making their company a 
success, they'd have a share of that success. Unfortunately, for many, 
it didn't work out that way. If the negative tax treatment of stock 
options isn't fixed, their use as an incentive and benefit on holding 
down wages will be lost.
    Now for my story. By way of background, I worked 31 years in the 
telephone industry starting at the lowest entry level job and working 
my way to General Manager. In 1993, I left a good paying job to become 
an ``entrepreneur.'' Two years later, I founded MGC Communications. 
Having worked my entire career in large impersonal corporations, I 
thought it was important that our employees be owners as well. We 
accomplished that goal by granting stock options to everyone who joined 
the Company. At the most senior level, we were able to hire very 
qualified people at compensation levels below market rates by 
sweetening employment packages with stock options. As a young Company, 
it was essential we conserve our cash. Since salaries and bonuses 
represented such a significant portion of on-going cost, the use of 
ISOs was an effective way to do that. ISOs also incented our employees, 
as owners of the Company, to really apply their talents to building the 
business.
    As the most senior officer/leader of the Company, I was committed 
to and embodied these goals. In lieu of a salary more typical of my 
position (my successor's annual salary was $500,000), mine was $150,000 
with ISOs as additional compensation. In lieu of cash bonuses (my 
successor's annual bonus was $500,000), I took ISOs. Little did I know 
of the tax nightmare lying ahead.
    Unlike many victims of this cruel conspiracy of events, I had 
access to good tax planning help. My personal banker was with one of 
the largest public stock firms in New York. When he didn't have 
answers, he had the best talent available to him in the corporate 
offices. My accounting firm was one of the big five national firms. 
Like my banker, when they needed help, they turned to specific experts 
on their corporate staff. Yet with all this knowledge and talent, none 
of them really understood the complex treatment of options within the 
AMT.
    Here's what happened in my case. When I exercised my options in 
early 2000, the stock priced was $66 per share. Since the options had 
been granted in the early days of the business, the strike price for 
the options was very low. When the spread was calculated and the AMT 
rules were applied, I owed an additional tax of $4,400,000. Within six 
months of exercising my options, the stock had lost 90% of its value 
(the Company eventually declared bankruptcy). While the intended 
holding period for ISOs is one year, I was forced to sell shares sooner 
to raise the money to pay the taxes. To further compound the situation, 
I owed taxes on the shares being sold. In the end, I sold all the 
shares acquired thru options to pay the AMT and still ended up $200,000 
short. I have said many times jokingly, if the IRS would have accepted 
everything I owned in the Company in exchange for the AMT owed, I would 
have been money ahead.
    All I have to show for founding the Company, creating thousands of 
jobs and building a good business is a substantial tax bill; a tax bill 
that resulted from a purchase event. I understand and accept the tax 
consequences when there's a purchase and sale which results in a net 
gain. What I reel at is the application of a 28 percent tax on the 
purchase of stock as though some form of gain had been realized. This 
is a virtual sales tax! And, as noted earlier, the tax code is so 
complex it was/is impossible to find anyone sufficiently knowledgeable 
to provide accurate tax planning.
    As I've talked to other people similarly situated, I've realized 
how pervasive this problem is. I also discovered there are three ways 
in which taxpayers deal with this issue. The first group, like me, 
reported the exercise event and faced the tax consequences. The second 
group knew they should report but chose not to. Since there's no 
reporting/tracking mechanism, the IRS doesn't know there's been a 
taxable event. The third group just didn't realize they had to report. 
Of the three groups, I believe those who reported were in the minority. 
One of the fundamentals of our tax code is the fair and uniform 
application of the law. Clearly that did not happen here.
    As for reform, here are some ideas. Change the AMT formulas so this 
kind of injustice doesn't happen in the future. Those of us who have 
credits, at a minimum, make the credit directly applicable to all 
future taxes owed and not just a factor in the AMT calculation as it is 
now. At the extreme, send us a check equal to the credit (that would be 
a real ``rebate''; these are real dollars we've paid in excess of what 
we would have otherwise owed). And if you must hold our money, at least 
pay us interest at the rate the IRS charges us for late payments. It is 
absolutely absurd that our prepayment of taxes is a free loan to the 
government. Finally, if the AMT must continue, please insure it is 
indexed down proportionate to the regular tax rate schedule.
    As for the tax treatment of NQOs, stop treating the event as income 
at the time of grant. Taxes should be owed when income/gain is 
realized. That means determining taxes owed when the stock is sold. I 
would agree a portion could be treated as income and the change in 
subsequent stock price as a long/short term gain/loss.
    If I sound like a tax professional, I'm not. I'm one of the 
thousands of people granted options only to have this tax nightmare. 
I've become knowledgeable by default! I just couldn't believe I'd owe 
taxes for options granted when I hadn't received income or realized a 
gain. In hindsight, I would have been so much better off to have taken 
the pay instead of the options. I know thousands of others feel the 
same way (not a scenario that bodes well for business and our economy). 
At least I'd have the income to pay the related taxes. We need your 
help; fix this grave injustice!
    I respectfully and urgently request your support of H.R. 3385.

                                                Nield J. Montgomery

                                 <F-dash>

                                        Cupertino, California 95014
                                                    August 20, 2005

Dear Honorable Chairman Camp and Ranking Member McNulty:

    I have submitted my testimony and shared my story at 6-15-2004, 
Hearing on Tax Simplification, Oversight Subcommittee.
    I now wish to share my story directly with you in hopes of 
garnering your support and leadership of the Honorable Sam Johnson's 
H.R. 3385.
    My name is Kimhoe Pang. I am a software engineer of Network 
Appliance. I exercised some stock option in year 2000 under the 
Incentive Stock Options (ISO) scheme. I did not sell any of the 
exercised stock to get profits. The ISO exercise created a huge AMT 
tax. I have $367,684.00 tax due in 2000. The amount is more than 3 
times my annual salary. This tax payment actually becomes a credit and 
can never be recovered by me. In essence, I can lose all the investment 
money, and also other assets, simply to create a tax credit in my IRS 
account.
    Due to the stock crises in 2000, I did not have enough money to pay 
tax. I filed an Offer in Compromise (OIC) and the OIC was denied after 
two and half years. IRS has started the collection process and has put 
a lien on all my properties. I am the only one who brings income to my 
family. My family (five people) still live in a two bedroom rented 
apartment. However, the IRS officers told us that they were only 
concerned about the tax we have not paid. They are regardless about the 
fairness of the tax.
    We are still facing financial crisis. IRS already started 
collection process. We have to pay the huge tax that is based on the 
profit we never made.
    I respectfully and urgently request your support of H.R. 3385.

            Sincerely,

                                                        Kimhoe Pang

                                 <F-dash>

                                              Newnan, Georgia 30263
                                                     August 6, 2005
Committee on Ways & Means
U.S. House of Representatives
1102 Longworth House Office Building
Washington D.C. 20515

Dear Chairman Thomas and Members:

    My wife and I ask the Committee to report favorably on H.R. 25, the 
Fair Tax proposal by Rep. John Linder of Georgia.
    We support the elimination of the income tax, the IRS, and the 
current harmful tax code.
    We support a national retail sales tax with a prebate to every 
household of a portion of estimated sales tax payments.
    Thank you.

            Sincerely,

                                                    Kimball L. Peed

                                 <F-dash>

                                         Issaquah, Washington 98027
                                                    August 24, 2005

Honorable Chairman Camp and Ranking Member McNulty
House Ways and Means Committee

Dear Honorable Chairman Camp and Ranking Member McNulty:

    I have submitted my testimony and shared my story at the following 
events:

    <bullet>  6-15-2004, Hearing on Tax Simplification, Oversight 
Subcommittee
    <bullet>  9-23-2004, Hearing on Select Tax Issues, Select Revenue 
Measures Subcommittee
    <bullet>  6-08-2005, Hearing on Tax Reform, Full Committee
    <bullet>  April/May 2005, Senate Finance Committee Chairman 
Grassley
    <bullet>  Spring/Summer 2005, President's Tax Reform Advisory Panel

    I now wish to share my story directly with you in hopes of 
garnering your support and leadership of the Honorable Sam Johnson's 
H.R. 3385.
    In 1997 I went to work for a new Internet company, Exodus 
Communications, who granted sales employees pre-IPO stock shares upon 
hiring. After the IPO and some time of employment I hired a financial 
planning firm to advise me on how to best handle these options. I was 
advised to exercise the options as they became available and then hold 
for one year from that date before diversification. I took this advice. 
During this time between 2000 and 2001 (within several months) the 
stock fell from the high $100s per share to landing at less than $10. I 
was laid off in May of 2001 when we finally sold our shares at $.10 
after Exodus's bankruptcy.
    I was laid off just before Exodus declared bankruptcy and found 
myself unemployed for 7 months. Meanwhile, we had to sell our house and 
all other valuables to make it through this period financially. My 
husband had quadruple bypass surgery unexpectedly in 2001 causing 
further financial difficulty and personal stress. We have not recovered 
from the financial challenges that losing my job, stock value and 
medical bills caused our family, not to speak of the outstanding 
balance expected by the IRS for AMT fees.
    Since 2001 we have been attempting to work with the IRS as the 
amount they calculated we owed them based on the AMT value is over 
$600,000. As you can tell from this writing we incurred a huge loss on 
the ``ownership'' of these granted shares. The IRS denied our Offer In 
Compromise and has not proactively worked with us. We have retained 
counsel to help us try to avoid all collection issues with the IRS and 
had to borrow money exceeding $15,000 to gain representation.
    We have no means to pay the IRS and, of course, feel there is no 
real debt to re-pay. This has been going on for nearly 5 years with a 
lien on our credit and ongoing fees to attorneys to keep collection at 
bay. The next step is the IRS waves our fees or we must declare 
personal bankruptcy. This AMT situation seems completely unfair and not 
the proper application for its original intention. We join AMT reform 
in asking Congress to instruct the IRS to hold off on current 
collection efforts until new legislation can be addressed.
    We respectfully and urgently request your support of H.R. 3385.

                                            Bob and Susan Pessemier

                                 <F-dash>

                                        Sunnyvale, California 94086
                                                      July 25, 2005

Dear Ways and Means Committee Members:

    We strongly encourage the Committee's support of Congressman 
Johnson's recently introduced bill, H.R. 3385, to correct the existing 
inequities associated with individual taxpayers' ability to recover 
Alternative Minimum Tax credits. The current law makes it very 
difficult, if not impossible, for individual taxpayers to recover AMT 
credits, resulting in perpetual interest-free loans to the government.
    We are a two-income household (both with full-time jobs as 
individual contributors--not managers or company officers) with three 
young children living in California--a high-tax state, as you well 
know. Years ago in lieu of a higher salary, incentive stock options 
became part of our compensation.
    As a result of exercising and holding (to qualify for the long-term 
capital gains tax rate) Incentive Stock Option (ISO) shares in 2000, we 
incurred a Federal AMT bill of several times our normal annual income. 
Luckily, in that year we sought and received sound advice on the AMT 
implications of that plan. Between doing same-day-sales in 2000 on 
remaining ISO shares and taking out a loan against a 401(k) retirement 
account, we were able to meet our AMT obligation on April 15, 2001. 
Thus, we have not run afoul of the IRS and have not had to worry about 
losing our home, unlike many others who exercised and held ISOs during 
that time period.
    With the large decline in the stock markets since 2000, the shares 
we still hold are worth a small fraction of their value upon exercise. 
So, at this point the government is holding our entire gain 
(representing many years of hard work) from the ISOs in the form of a 
large AMT credit. Please also note that for tax year 2000 we paid (on 
shares that we purchased then, but have held for five years now) at the 
AMT rate of 28%, while under the current law our long-term capital 
gains rate upon sale would be 15%. The mandatory pre-payment of tax 
under AMT was at almost double the rate that the regular tax system 
requires!
    When we first saw the size of our AMT credit, we thought we would 
be lucky to finish recovering it before we both died of old age. After 
filing our last four tax returns, though, we see that unless something 
changes we will never recover the vast majority of that credit during 
our lifetimes.
     Here is how much we've been able to recover, on a percentage 
basis, for the 2001-2004 tax years. (Note that our tax returns for 
these years have included no other extraordinary events.)


------------------------------------------------------------------------
                                                     % of AMT credit
                                         Tax Year       recovered
------------------------------------------------------------------------
                                             2001             0.56%
                                             2002             0.17%
                                             2003             0.13%
                                             2004             0.00%
                                                   ------------------
                                            Total             0.86%
------------------------------------------------------------------------


    Less than one percent of our AMT credit has been recovered in the 
four tax years since the credit was established! And the trend down to 
zero in 2004 does not bode well for future years.
    Under the current tax law we have very little hope of recovering 
this interest-free loan to the government. These funds would go a long 
way toward ensuring that we will be able to afford college educations 
for our three children.
    Please support Congressman Johnson's H.R. 3385 to accelerate 
individual taxpayers' ability to recover AMT credits!
    Thank you very much for your consideration.

            Sincerely,

                                           Steven and Danna Pintner

                                 <F-dash>

Statement of The Honorable Tom Price, a Representative of Congress from 
                          the State of Georgia

    Tax System Reform unites the American people unlike any other. 
Everyone can agree that reform is much needed and long overdue. 
Reducing the onerous burden imposed by an overly complicated tax code 
that creates enormous compliance costs for American citizens and 
businesses should be a priority for Congress.
    The current U.S. tax code numbers over 10,000 pages, 600 forms, and 
16,000 lines. If that is not complicated enough, those who call the 
Internal Revenue Service get correct answers to their questions only 
fifty-three percent of the time.
    The purpose of this letter is to urge the Committee on Ways and 
Means to support the FairTax proposal which would create a National 
Retail Sales Tax. The goals of the FairTax are consistent with 
responsible goals for our tax structure--fair, simple, and efficient. 
Americans deserve and desire a tax system that encourages savings, a 
tax system that is void of loopholes, and a tax system that is no 
longer subject to the influence of special interest groups. The FairTax 
meets these objectives by eliminating the income tax in its entirety 
and replacing it with a consumption tax on spending for new goods and 
services.
    The FairTax is more equitable than our current tax system because 
it is based on what one spends over a lifetime, not what one earns in a 
given year. Furthermore, the FairTax has a rebate component so as not 
to burden the poor, the elderly, or those on fixed incomes.
    The FairTax rebate was created in part to eliminate the tax that 
Americans pay on the purchase of necessities. In fact, the FairTax is 
the only proposal, including current law, that completely ``untaxes'' 
the poor by (1) eliminating the payroll tax, a highly regressive tax 
that only targets wages, (2) eliminating hidden federal taxes, 
corporate taxes, income taxes, and payroll taxes that businesses pass 
on to consumers in the form of higher prices, and (3) assuring that no 
American pays taxes on spending up to the poverty level. The rebate 
feature of the FairTax assures its progressivity and, in fact, makes it 
the least regressive viable system.
    One reason our current tax structure is more regressive is that it 
deters people from saving. Currently, national savings is at the lowest 
rate in the history of our country. The FairTax is applied only when 
consumers spend, not when they save or invest. Saving and investing 
creates economic wealth not only for ourselves, but also for others. 
Dale Jorgenson of Harvard University predicts that in the first year 
under the FairTax, invested capital will rise by 80 percent over 
projected levels under current law. Over the first decade of the 
FairTax, the savings rate will level off to 20 percent more than under 
the current system. This effect will result in a higher standard of 
living for both those who save (invest in others) and those who work 
for wages (because the market value of their work will be increased by 
investment). The value of capital will increase because their buildup 
is not taxed, and the level of real wages will rise because of the rise 
in real investment.
    Under the FairTax, the United States will become the most 
attractive industrialized country in the world in which to base 
production facilities because we will be the only nation with a zero 
rate of taxation on profits. As a consequence, American overseas 
investment can be repatriated and direct foreign investment will flow 
to our shores.
    Perhaps the most basic benefit of the FairTax system is that it 
simply costs far less--about $225 billion (90 percent) less--to collect 
the same amount of revenue as the current income tax. Research shows 
that Americans spend an estimated $250 billion a year just complying 
with the current tax code. That's $888 per year for every man, woman, 
and child in America or nearly $2,800 per family--$2,800 that would be 
better spent on education, a mortgage payment for a new house, or a 
more secure retirement.
    The simplicity of the FairTax makes enforcement easier and evasion 
harder by allowing us to focus resources on fewer filers and by 
lowering the total number of tax filers from 212 million to only 14 
million (retailers). By eliminating loopholes, the FairTax also keeps 
the tax base broad and marginal tax rates low, dramatically lower than 
any other tax proposal or current law. This reduces the potential gain 
from evasion and therefore reduces evasion temptation. The elimination 
of exceptions also decreases the ability of government to pick winners 
and losers through tax code enticements, thereby unfairly gaming the 
system. The FairTax would save money by collecting the current level of 
revenue in a more efficient way.
    Please give your serious consideration to this common sense 
solution to the challenge and need of fundamental tax reform--the 
FairTax is the answer.

                                 <F-dash>
               Joshua Pritikin, Santa Barbara, California
    I support H.R. 25, the FairTax.org proposal.
    The rationale for this bill is already well explained with others, 
such as Jonathan Steere of Maryland. With this letter, I merely add my 
support.
    Thank you.

                                 <F-dash>

                                           National Taxpayers Union
                                         Alexandria, Virginia 22314
                                                     August 9, 2005

The Honorable E. Clay Shaw, Jr., Chairman
Subcommittee on Trade
Committee on Ways & Means
U.S. House of Representatives
1102 Longworth House Office Building
Washington D.C. 20515

Dear Chairman Shaw:

    On behalf of the 350,000 members of the National Taxpayers Union 
(NTU), I write to offer our thoughts on a bill currently being 
considered for inclusion in a miscellaneous trade package. It is NTU's 
strong belief that H.R. 521, the Milk Import Tariff Equity Act, should 
not be included in this legislative vehicle.
    Earlier this year NTU strongly condemned the introduction of H.R. 
521, which would restrict the importation of milk protein concentrates 
(MPCs), casein, and caseinate by raising tariffs. As tariffs are 
nothing more than taxes on the flow of goods and services across 
national boundaries, NTU believes that this bill would both harm 
relations with our trading partners and place unnecessary financial 
burdens on American consumers who use everyday products containing 
MPCs, such as coffee creamer and infant formula.
    In addition to substantive policy concerns with H.R. 521, NTU feels 
that the bill is simply too contentious for a legislative package that 
seeks to make technical corrections to U.S. trade laws. The 
Subcommittee listed ``attract[s] controversy'' as one of the criteria 
by which to reject bills for inclusion in the trade package, and since 
its introduction H.R. 521 has indeed proved to be an extremely 
controversial proposal. The already fierce reactions to H.R. 521 from 
various groups--the most important of whom are taxpayers and MPC 
consumers--would only intensify if the bill were inserted into what is 
supposed to be an innocuous legislative package. The provisions of H.R. 
521 require further congressional scrutiny and therefore should not 
weigh down a technical trade measure.
    Because of policy and procedural concerns, NTU respectfully 
requests that the Subcommittee refrain from adding H.R. 521 or any of 
its components to the proposed miscellaneous trade package.

            Sincerely,

                                              Kristina M. Rasmussen
                                         Government Affairs Manager

                                 <F-dash>

          Statement of ReformAMT.org, Foster City, California
To the Honorable Chairman Camp, Honorable Ranking Member McNulty, and 
        the Honorable Members of the Select Revenue Measures 

        Subcommittee:
    Thank you for allowing ReformAMT the opportunity to communicate our 
support for H.R. 3385, the AMT Credit Fairness Act of 2005. This 
important legislation is addressing some aspects of the Alternative 
Minimum Tax (AMT) and its treatment of Incentive Stock Options (ISO). 
The average individual in our organization faces tax rates that exceed 
300% of their income.
Introduction
    Formed in April 2001, ReformAMT is a national grass roots 
organization whose mission is to educate, correct, and prevent the 
injustices created by the ISO AMT and its inappropriate means of taxing 
Incentive Stock Options, which are intended to be a form of 
compensation. We have members in 48 different states, plus Puerto Rico 
and the District of Columbia.
    Through ReformAMT, we plead with Congress to support H.R. 3385 
which helps to correct some aspects of this flawed tax code that has 
resulted in financial devastation for not only our members but also 
thousands of others across the country who are too embarrassed or 
discouraged to publicize their dilemma. Originally intended to ``ensure 
that a very small group of high-income individuals who paid no income 
tax would pay at least some income tax,'' the AMT has hit hardest those 
honest, hard-working employees who traded longer work hours, lower 
salaries, fewer benefits, and job security for stock options that might 
someday provide for their children's education, assist in purchasing a 
home, or help fund their retirement. Unfortunately, caught in the AMT 
trap, these workers were forced to pay taxes on money they never 
received and never will receive. Consequently, they are losing or have 
lost their homes, education funds, and retirement funds.
    These people were committed, dedicated, and loyal to their 
companies. ``Hold for the long term,'' ``be a part of the company,'' 
and ``don't dump and cash in'' was the advice of brokers, Certified 
Public Accountants, financial advisors, and the companies themselves. 
However, as we all now know, the Incentive Stock Option AMT provisions 
tax when you buy, NOT when you sell, forcing these workers to pre-pay 
taxes on stock gains they never realized. To add insult to injury, 
these taxpayers have honestly complied with this self-reported tax. 
While the IRS machine destroys their lives, they have watched many of 
their fellow coworkers go unharmed by simply omitting the reporting of 
the stock option transaction.
Demographics
    These are the results of a recent survey of our members in April 
2005:

    <bullet>  65% of our members affected by AMT are secretaries, 
engineers, lower level managers and other rank & file employees (as 
opposed to Managers, Executives and Founders).
    <bullet>  Our members owe or owed an average of $322,428 in ISO AMT 
over and above what they would owe under the regular tax code for 
income received (that is 100 times what the average taxpayer hit with 
AMT pays in additional taxes, according to testimony by the GAO at a 
recent Senate Hearing).
    <bullet>  Our members' average tax rate was 355% of their income.
    <bullet>  Our members have an average outstanding AMT credit of 
$213,620 due to their overpayment of taxes. With the current annual 
deduction for AMT credits of $3,000 per year, it will take 71.2 years--
more than a lifetime--to finally recover their overpayment credit. 
Also, this credit does NOT accrue interest--on the flip side--
individuals who still have outstanding liabilities are expected to pay 
interest and penalties on this tax prepayment.
    <bullet>  Because of the extreme difficulty/impossibility of paying 
huge taxes on money never received, about 3% of ReformAMT members have 
filed bankruptcy, with another 18% admitting they are considering 
bankruptcy.
    <bullet>  For every 2 people who complied with the AMT regulations, 
there were 3 people who did not, taking advantage of the fact that no 
independent reporting exists.
    <bullet>  For every 4 people who complied, there was 1 person who 
expatriated rather than have their lives destroyed by working the rest 
of their lives to pay taxes on income they never received.
    <bullet>  We know of 2 members who committed suicide due to the 
horrendous effects this ISO AMT tax had on their lives.
Flaws of the AMT Treatment on ISOs that Distort Business and Personal 
        Decisions and Create Unfair and Unjust Results for Hardworking 
        Americans
    <bullet>  Prepayment Credit Flaw--The regular tax code provides 
significant incentives to hold on to the stock and grow the company. 
However, the AMT imposes tax on the purchase date, not the sale date, 
making the tax rational only in a bull market. In a down market, the 
AMT can result in unreasonable and totally disproportionate tax rates, 
easily exceeding an individual's income or even exceeding an 
individual's entire net worth.
      <bullet>  ISO AMT credit can easily outlive a taxpayer, since it 
can be applied only to the difference between the AMT and regular 
income tax. For those who are ready to retire and who have responsibly 
saved their entire lives to provide for a proper retirement, the 
ability to recoup the credit can be impossible.
      <bullet>  The credit that is generated does not pass along to 
your family or estate.
    <bullet>  The government does not pay interest on the credit.
    <bullet>  Complexity Flaw--Due to the complexity of the AMT, 
investment counselors and ``tax experts'' are frequently unable or 
unwilling to give proper advice to constituents about the consequences 
of the ISO AMT. Many people were completely blindsided by the AMT 
despite getting professional advice on how to treat their stock 
options.
    <bullet>  Reporting Flaw--The exercise of incentive stock options 
is not reported to the IRS by the company or by the broker--it is only 
reported by the individual, making it a self-reported tax. Thus, the 
ISO AMT provisions punish those who are honest and reward those who 
fail to accurately report their taxes under the AMT code (either 
through ignorance or intent).
Unintended Consequences
    In order to pay their AMT bills, taxpayers have been forced to 
liquidate much or all of their assets, including savings, retirement 
accounts, and children's college funds. Many have lost their homes. 
Some are forced to take out second mortgages and loans in order to 
comply with this pre-payment of tax. Others are forced into bankruptcy 
or expatriation.
    Those who have attempted to resolve their outstanding liabilities 
through the IRS's Offer in Compromise (OIC) program have faced 
rejection after rejection. The offers often take years to resolve and 
result in unrealistic IRS demands, requiring the taxpayers to live at 
or below the poverty line. According to Nina Olsen's (TAS) 2004 report 
to Congress, only one OIC submission under the use of Effect Tax 
Administration (ETA) was accepted that year. The Tax Court recently 
upheld the IRS position on its refusal to consider the Section 7122 
``equity and public policy'' considerations of the offer in compromise 
process for ISO AMT, stating that while it sympathized with the 
taxpayers, the remedy rests solely with Congress.
    The emotional and financial hardship caused by the AMT's treatment 
of ISOs has taken its toll on thousands. Marriages and families have 
suffered under the daily stress of dealing with the IRS; they have 
divorced, decided not to have children or to adopt children; their 
friends and parents watch in horror as their loved ones lose an entire 
life's work because of how the AMT can force them into pre-paying taxes 
on stock for which they never received gains (for individual stories, 
visit www.reformamt.org). Meanwhile, those who did not comply with the 
law are leading their normal lives.
    Aside from the obvious ``un-American'' treatment of imposing taxes 
based on no realized gain, the effects also reach beyond individuals 
and families. The ISO AMT provisions are destroying and stifling the 
productivity, innovation, and companies that contribute greatly to 
America's economic success and growth. It undermines confidence in the 
tax system, encouraging non-compliance. These effects cannot be what 
Congress intended.
Request for Relief
    With the new bankruptcy laws going into effect in a few months, 
ReformAMT respectfully asks the Select Revenue Measures Subcommittee to 
support quick passage of H.R. 3385, a key component that will come just 
in time to prevent even more severe harm to honest Americans.
    Our members are struggling with huge tax bills and IRS collections. 
They have pre-paid taxes from stock compensation for which they never 
received economic gain. Some of the companies whose stock was affected 
are now out of business. Our members are on the brink of financial 
ruin, suffering anxiety and depression that is so severe, it is 
destroying their daily lives. Please help us.
    Thank-you for your time.

                                 <F-dash>

            Statement of Robert W. Richards, Abilene, Texas

    Mr. Chairman, Ranking Democratic Member McNulty, and Members of the 
Subcommittee, I appreciate having the opportunity to submit my comments 
regarding reform of the Federal Tax Code.
    As you have become aware during your hearings, the current Federal 
Tax Code has become a giant burden to individuals and business, not 
only in cost but also in trying to comply with thousands of pages of 
code and regulations. In 2003, there were 54,846 pages to the Federal 
Income Tax Rules, including the tax code, tax regulations, and IRS 
rulings. That is many more times the pages in the Holy Bible, War and 
Peace, Gone with the Wind, and The Complete Works of William 
Shakespeare (unabridged) combined. The goal of the Tax Reform Act of 
1986 was tax simplification and tax reform, but the number of pages in 
the tax code in 1984 was 26,300. We have more than doubled the tax code 
since then! (Source: http://www.cato.org/dailys/04-15-03-3.html).
    In my opinion, we do not need to just tinker around with the 
current income tax code. We need to scrap it. The Fair Tax Act of 2005 
(H.R. 25), sponsored by Rep. John Linder of Ga., replaces the current 
individual, corporate, estate and payroll taxes with a national retail 
sales tax. I am sure by now you are well aware of this legislation. It 
has my full support.
    I would hope that Congress would be bold in its reform of the tax 
laws. Please do what is right for this country and eliminate the beast 
that the current tax laws have become. Please pass the Fair Tax!
    Thank you very much.
                                            Robert W. Richards, CPA
                                 <F-dash>
                                                 Allen, Texas 75002
                                                            8/23/05
Dear Ways and Means Committee Members,

    My name is William Rinehardt and I am writing on behalf of myself 
and my fiancee, regarding a huge AMT tax debt that I incurred on 
``phantom'' gains due to the application of the Alternative Minimum Tax 
to incentive stock options (ISOs). I owed 124% of my taxable income in 
Federal income tax for year 2000. I owed more AMT taxes due to the 
exercise of my ISO shares than the market value of the shares when I 
sold them. I couldn't pay the AMT at the time. If I would have sold all 
my shares, my house, my car, all of my savings, all of my stocks, my 
IRA and my 401K, the proceeds from these sales would not be enough to 
cover my tax liability. I still owe over $40K in back taxes due to 
penalty and interest. The truly depressing part of this sad story is 
that the Federal Government owes me over $150K in AMT credits. Of 
course I will not see any interest from the government and it'll take 
me decades to recover these credits back under the current AMT tax 
laws.
    I would like to ask for your active support of H.R. 3385. This 
important legislation was recently introduced by Reps. Johnson (TX), 
Neal, McCrery, Jefferson, Ramstad, Lofgren, Shaw, Honda and Johnson 
(CT), to provide relief for taxpayers subjected to unfair and unjust 
tax treatment due to the AMT treatment ISOs. In addition to unfairly 
affecting me, this serious problem has impacted many employees of small 
and large companies across America, often resulting in taxes up to and 
exceeding 300 percent of these employees' annual salaries. Workers are 
being forced to pay tens of thousands, hundreds of thousands, and even 
millions of dollars in tax overpayments on income they will never 
receive.
    Please join the groundswell of support for remedying this serious 
injustice through this ISO AMT legislation. This bi-partisan effort is 
building support in Congress, the Press, Corporate America, the 
Taxpayer Advocate's office. Grassroots organizations like the ReformAMT 
www.reformamt.org and the Coalition for Tax Fairness www.fair-iso.org 
are actively supporting this important legislation, and may be 
contacting your office to secure your support.
    I thank you for your leadership in this effort, as your support is 
critical to restoring a fair and just tax system for all Americans--
including hard-working, entrepreneurial Americans.
    Here's my personal story:
    I moved from Plano, TX to become an employee of Qtera Corp., in 
South Florida, one of the many acquisitions of Nortel Networks during 
the telecommunications boon of 1998 to 2000. I received incentive stock 
options and subsequently have paid to the U.S. Treasury Department, 
Alternative Minimum Tax, in excess of $250,000.00.
    I was hired as the 31st employee in 1999. Working for Qtera Corp., 
in Boca Raton, FL was a fantastic experience. The team that was 
assembled was of the highest quality and some of the most motivated 
individuals I have ever worked with. Our devotion, hard work and 
technical expertise made us an acquisition target of both Cisco Systems 
and Nortel Networks in late 1999, Nortel Networks ultimately acquired 
us; around seventy employees had achieved the impossible. Instantly, 
all our Qtera ISO's were converted to Nortel Networks ISO's at 
approximately $60 per share. Our success received a wealth of media 
coverage, from the Wall Street Journal to NPR. Qtera Corp. moved me to 
Denver to work in the Sales office for our largest customer, Qwest.
    Soon after the media broke the news of our success, and the 
stockbrokers and investment bankers began courting our employees. As 
employees with much work ahead of us, we had little time or energy to 
learn about the Alternative Minimum Tax code. Some of the investment 
firms provided seminars on the Alternative Minimum Tax code but usually 
we were left with more questions than answers. AMT soon became the 
number one discussion topic, on the surface, we found ourselves quite 
versed in the subject, yet few of us really understood the dirty 
details.
    The plan laid out by my financial advisors was to exercise and hold 
the shares as Congress had intended; then after holding the stock for a 
year, sell enough shares to pay AMT and invest the rest.
    The first sign of trouble was the gradual decline in Lucent's stock 
price during 2000. We continued working incredible hours to meet our 
company milestones during our one-year transitional period.
    By the middle of 2000 many employees had stockbrokers managing 
their investments. Not only brokers, but accountants, estate planners 
and life insurance brokers, everyone was after our potential wealth. I 
retained a local accounting firm to manage my tax liability and a 
nationwide brokerage house, (they recommended the accounting firm) to 
manage my account. The accountants were confident they were experienced 
with Alternative Minimum Tax. Their experience turned out to be 
limited, but since they had fifteen of my co-workers on a yearly $4,000 
retainer, they had no problem getting their hands dirty with the tax 
code. I reasoned that the Alternative Minimum Tax code was so 
complicated that I should have professional support, no matter the 
cost.
    April 15th 2001. The year had gone so quickly and I exercised 
options during the previous year resulting in an Alternative Minimum 
tax on ``Paper Gains'' of over $250,000. This even though I only made 
$92,000 a year. It was strongly suggested, by my investment broker to 
use margin to pay the tax bill. The margin loan sounded like a 
reasonable idea, the investment firm provided a low interest loan 
without liquidating the account, as long as the account value is not 
less than the loan. Little did I know the bottom was about to drop out.
    I began to diversify my account, but the majority was still in 
Nortel stock. Meanwhile, while no one was watching, Nortel Stock fell 
below $20 per share, then $16, then soon after $12. The Nortel 
management was positive on the company's growth and their overall 
market position, the low price was just a small correction in the 
overall market. (We now know these earnings were inflated.) At one 
point the stock fell to $0.40 per share but is now at a healthy $2.60 
per share. I paid the AMT rate of 28% for $60, $70 and $80 per share.
    By the summer of 2001, the margin debt was nerve-racking and I was 
forced to sell Nortel shares and diversify as the share price continued 
to slide. I began to exercise and sell, just to raise cash for the 2001 
Alternative Minimum Tax. Nothing could stop the hemorrhaging stock 
price or margin calls. The tax models the accountant had prepared last 
year were useless. My only concern was having enough cash to pay the 
AMT and pay off the margin debt. By the end of 2001, we got word that 
Nortel would soon be downsizing their operations. Nortel Networks 
needed to reach the ``break even point'' and the cutbacks began. By the 
third quarter of 2001, the share price was under $10 and Nortel was 
laying off two thirds of their worldwide workforce.
    By the summer of 2001, I reached my personal debt limit and 
liquidated my account to pay off my debt and pay most of the AMT. I 
sold my home that I had purchased in Denver and sold my car. The IRS 
had placed a tax lien on my home and took the money that I desperately 
needed to live on when I closed the sale. I ended my contract with my 
accountant, sold over 90% of my investment account, and prepared myself 
for the possibility that I too would soon lose my job. My fears were 
realized and by the second quarter of 2002, I was unemployed. I packed 
up my used truck and moved back to where I started, Texas. I was broke, 
unemployed and pretty darn disheartened.
    I learned many valuable lessons through this experience and I am 
fortunate that I am not currently financially ruined like so many of my 
former colleagues. Many will have their wages garnished, or have filed 
for personal bankruptcy. None that I know of were fortunate enough to 
be able to negotiate settlements with the IRS. The Alternative Minimum 
Tax code was implemented to prevent wealthiest 2% of Americans from 
using special tax benefits to pay little or no tax. For various reasons 
the Alternative Minimum Tax has reached many hard-working, middle class 
Americans in Texas and all over this great country. Most of those folks 
don't have very high incomes or special tax benefits. I hope those in 
the United States Congress have the compassion and foresight to realize 
the growing negative effect of the Alternative Minimum Tax and bring 
change to the outdated tax code. AMT is not a fair tax. Why are certain 
Americans being punished with AMT? Because, we were perceived to be 
``rich'' for a six month period of our lives? This is truly ludicrous! 
This will inevitably lead to bankruptcy for many Americans guilty of 
nothing more than exercising the promise of long-term investment in an 
employer they trusted. Not even the most diabolic communistic state 
could have come up with a worse tax system! I just can't understand 
this AMT tax law. It is so unfair! Income tax should be on INCOME!
    In the end I, (along with many other Americans) could very well 
have to declare bankruptcy if a tax relief bill isn't passed into law.
    I hope that you would be able to help us with this situation, by 
trying to abolish the current AMT Tax law, (hopefully retroactively to 
1999). I would again like to ask for your active support of H.R. 3385. 
Please let me know what I can do to help you and what your thoughts on 
this matter are? I'm a law abiding, tax paying, Gulf War vet that 
thought I was living the American dream. I responsibly held my stocks. 
When the market crashed, I knew that I had to take the losses. What I 
didn't know is that I had to pay taxes of ``phantom'' gains. No 
American should have to pay taxes on income that was never income!
    Thank you and best regards,

                                               William R. Rinehardt

                                 <F-dash>

                                                Austin, Texas 78734
                                                    August 22, 2005

Committee on Ways and Means
U.S. House of Representatives
Washington, DC

Dear Sirs:

    Several years ago, I BOUGHT stock by exercising ``incentive'' stock 
options where I worked.
    I NEVER SOLD that stock.
    I made NO PROFIT on that stock, and I have no hope of ever making 
any profit on it.
    Despite those facts, current Alternative Minimum Tax law required 
me to PAY INCOME TAX AS IF I HAD MADE A PROFIT the day I exercised the 
options.
    The law allows the U.S. Treasury to collect tax on ``PHANTOM'' 
PROFITS.
    I have, in effect, provided the U.S. Treasury an interest-free loan 
by PREPAYING TAX on income that I will NEVER receive.
    This is so bizarre and so unfair that it is hard to comprehend. The 
U.S. Congress never could have intended to cause such INJUSTICE and 
should be anxious to correct it.
    H.R. 3385, The AMT Credit Fairness Act, was recently introduced by 
Representatives Johnson (TX), Neal, McCrery, Jefferson, Ramstad, 
Lofgren, Shaw, Honda and Johnson (CT), to provide relief for taxpayers 
subjected to this UNFAIR TAX.
    Please work to pass H.R. 3385--AMT Credit Fairness Act.
    Thank you for your leadership to ensure a fair and just tax system.

            Sincerely,

                                                     Dr. Terry Ross

                                 <F-dash>

                                         Excelsior, Minnesota 55331
                                                    August 25, 2005

To: Members of the House Ways and Means Committee--Hearing on Member 
Proposals on Tax Issues/Reform

Dear Committee Members:

    I have submitted my testimony and shared my story on Alternative 
Minimum Tax (AMT) at a number of events, including the recent 
President's Tax Reform Advisory Panel. I am writing this letter to you 
directly to provide my personal testimony with regards to Alternative 
Minimum Tax (AMT) for individual tax payers and to ask for your support 
and leadership in regards to Bill H.R. 3385, introduced by the 
Honorable Sam Johnson on July 21, 2005 and co-sponsored by a number of 
Ways and Means Committee Members.
    Our family paid over $1.7 Million AMT in Tax Year 2000, due to 
phantom gains on Incentive Stock Options (ISOs) that were exercised but 
not sold. Specifically, the AMT was paid due to paper gains on 70,000 
Ariba ISOs that we exercised when at the stock's value was over $110/
share. Due to a Blackout Period, I was unable to trade the stock until 
after the end of the tax year. The stock is now worth less than $1/
share, with an economic benefit of about $70,000, as opposed to the 
$7,700,000 paper gain we were taxed on. I ask that you focus on those 
numbers. We paid a $1,700,000 tax for an economic benefit of $70,000 
due to what Senator Joe Lieberman described as a ``Kafkaesque 
situation'' and the ``tax equivalent of the perfect storm.'' These 
statements were part of Senator Lieberman's Congressional Record 
statement made when he introduced Bill #S. 1324, an Alternative Minimum 
Tax (AMT) relief bill with respect to Incentive Stock Options (ISOs) 
for tax year 2000, on August 8, 2001.
    Senator Lieberman is not alone in his search of a fair law to 
replace the current AMT law and the problem does not appear to be a 
partisan political issue. Many bills were introduced on this subject 
prior to 2001 and numerous bills have been introduced since. Several 
have been introduced into this session of Congress, including the most 
recent Bill H.R. 3385 for which this letter requests your support. My 
analysis shows that both Republicans and Democrats support ISO AMT 
reform. This support includes many Members of the 109th Congress 
Committee on Ways and Means: Reps. Wally Herger, Jim McCrery, Jim 
Ramstad, Eric Cantor, E. Clay Shaw Jr., Sam Johnson, Phil English, 
Jerry Weller, Ron Lewis, Mark Foley, Kevin Brady, Richard Neal, William 
Jefferson, and Lloyd Doggett.
    There is no question that AMT is not serving the purpose for which 
it was originally intended and that it must be totally revised soon for 
many reasons. This hypothesis is supported by most informed civilian 
and government agencies aware of the original intent and the current 
implementation of the law, including:

    <bullet>  The United States General Accounting Office
    <bullet>  Congress Joint Committee on Taxation
    <bullet>  The Brookings Institution
    <bullet>  The National Taxpayers Advocate (a division of the IRS)
    <bullet>  The American Bar Association (ABA)
    <bullet>  American Institute of Certified Public Accountants 
(AICPA)
    <bullet>  Tax Executives Institute (TEI)
    <bullet>  The National Venture Capital Association

    Tax law for AMT on ISOs as currently written is highly confusing 
and very unfair. The Instructions for Form 6251 (AMT--Individuals) when 
filing my 2000 taxes stated the following:

          ``The tax laws give special treatment to some types of 
        income, allow special deductions for some types of expenses, 
        and allow credits for certain taxpayers. These laws enable some 
        taxpayers with substantial economic income to significantly 
        reduce their regular tax. The AMT ensures that these taxpayers 
        pay at least a minimum of tax on their economic income.''

    My family has no special credits, deductions, or exemptions that 
significantly reduce our regular tax and we have been caught in a 
situation where our AMT tax burden on ISOs has far exceeded any 
economic benefit we have or ever will gain from ISOs exercised in tax 
year 2000. In short, we are 2000 AMT victims that Senator Lieberman 
described as, ``fell into a trap which the tax code created through its 
perverse and confusing structure'' in his Congressional Record 
statement on August 8, 2001.
    I am not a wealthy executive. I am a 46-year-old sales 
representative that received the ISOs because I joined a company before 
they were well known and opened a territory for them to make them well 
known. My wife, Velinda, is a stay-at-home Mom for our 8-year-old 
daughter Emma and 4-year-old son Quinn. When we became aware of our AMT 
obligation in 2001, we liquidated all of our assets and paid the AMT, 
including a substantial penalty that incurred during the period that it 
took us to liquidate those assets. We paid tax on paper gains that 
exceed my salary for a lifetime. I continue to work and pay taxes. 
Interestingly enough, I seem to get hit with AMT every year. It seems a 
little odd that the taxes we continue to pay continue to be used to 
support people that find themselves the victims of unfortunate 
circumstances, yet no such support is there for those of us that got 
caught in the AMT trap in 2000.
    Please use this testimony as an example of the unfairness of this 
law as it is currently written and to promote reform of the AMT for 
Individuals tax laws, including relief for those of us that lost all of 
our assets in 2001. I believe that doing so is very much on the spirit 
of President Bush's tax relief package, which allows Americans to keep 
more of their own money. I respectfully request your leadership and 
support of H.R. 3385 as a part of your efforts to accomplish this 
vision.

                                                       Tom Schrepel

                                 <F-dash>

       Statement of Joe E. Sheldon, Huntington Beach, California

    My greatest concern is that the Committee (and Congress and the 
President, too, for that matter) will fail to realize that the National 
Anthem is NOT: ``Tiptoe Through The Tax Code Tinkering Tango'' as an 
acquaintance of mine used to say.
    Tinkering with the tax code, no matter how well intentioned, will 
no longer plug all the leaks in the boat but would require bailing so 
fast that the boat would catch fire from the friction or sink (or 
perhaps both).
    I truly hope that is realized (and I think, perhaps, it is).
    Attempting to retain ANY tax system based upon income taxation will 
no longer function as has now been adequately proven after almost 100 
years of trying. It's time for a tax system in tune with the 21st 
century and international competition. It is time for the FairTax.
    As the most thoroughly-researched economic/tax proposal ever 
brought before Congress, the FairTax stands head and shoulders above 
any form of income taxation (including any flat tax which after all is 
what the present system started as) or any form of Value Added 
Taxation.
    Any income-based taxation--flat or round--has the sort of warts we 
have come to know (but not love) such as embedding taxes into the 
prices we all pay; allowing for great political mischief with all of 
the exemptions, deductions, and other special tax favors, treating 
those in similar situations differently (and causing resentment 
thereby), and requiring a much-detested enforcement arm--the IRS. It 
also encourages--almost mandates--attempts by Congress to control the 
populace by altering the Tax Code. Such attempts are bound to fail as 
misguided efforts in ``Trying to Teach the Elephant to Tap Dance'' as 
the old saying goes and they invariably redound to the detriment of the 
citizens and eventually the government itself . . . the current 
untenable AMT being a perfect example.
    It is neither necessary nor desirable for the government to attempt 
to control the lifestyles of its citizens by such means. The citizens 
are fully capable of doing so themselves and the necessary tax revenue 
can be raised without such nonsense. Laws for behavior should be 
separated from tax laws which are, after all, for the purpose of 
raising the money to run the government. Mixing the two does neither 
effort (nor the citizens) justice--not to mention the country itself.
    The FairTax is the only tax plan that I see before Congress that 
meets all of the criteria charged by the President. All of the others 
fail in important aspects. It is time for a real change and not just 
tinkering again. The people want real change which I think should now 
be abundantly clear. Do not be forestalled by those who say ``no one 
else has done it that way'' and other similar non-arguments. Remember 
no other country had even had a Representative Republic before and THAT 
has worked out very well. Slavishly copying failed tax plans from other 
countries is not a recipe for success.
    In addition, the attempts at introducing the FUD Factor (Fear, 
Uncertainty, and Doubt) used by those who would prefer some form of the 
status quo can surely be seen for what they are--emotion based attempts 
to derail a tax system that we so badly need. Claims that the FairTax 
requires a huge boost in rate over that in the H.R. 25 bill or that 
evasion will be rampant are examples of the FUD Factor run amok; 
compliance should actually improve. In fact the FairTax should be 
scored in a fashion that recognizes the increased revenues it derives 
which cannot be done by any income-based taxation system. The 
underground economy in all its many forms of illegal income (illegal 
aliens, drug transactions, prostitution, and just money theft in 
general) completely escapes any income tax-based system while under 
H.R. 25, the cash from those illegal transactions is fully taxed when 
spent for taxable items. In the case of illegal aliens alone this 
represents many, many billions of tax revenue and should be scored as 
such for the FairTax--as should the capture of the other illegal 
income.
    Additionally, the FairTax will obtain tax revenue from foreign 
tourists who, after all, are benefitting by our (formerly) taxpayer-
paid facilities when they visit many places in this country. Also, the 
provisions of H.R. 25 allow border-adjustable taxation which would help 
our exporters reduce their prices to be more competitive in other 
markets . . . and foreign imports would also be taxed when sold as 
taxable items at retail instead of being tax-free as at present--
somewhat like a tariff but allowed and acceptable under international 
agreements.
    Moreover, the FairTax offers another path to the President in his 
desire to reform the Social Security/Medicare systems.
    Perhaps the four overriding goals of a tax system were best 
expressed by Adam Smith in his ``Wealth of Nations'' where he set out 
these four canons----

          ``I. The subjects of every state ought to contribute towards 
        the support of the government, as nearly as possible, in 
        proportion to their respective abilities; that is, in 
        proportion to the revenue which they respectively enjoy under 
        the protection of the state. . . .
          II. The tax which each individual is bound to pay ought to be 
        certain, and not arbitrary. The time of payment, the manner of 
        payment, the quantity to be paid, ought all to be clear and 
        plain to the contributor, and to every other person. . . .
          III. Every tax ought to be levied at the time, or in the 
        manner, in which it is most likely to be convenient for the 
        contributor to pay it. . . .
          IV. Every tax ought to be so contrived as both to take out 
        and keep out of the pockets of the people as little as possible 
        over and above what it brings into the public treasury of the 
        state. . . .''

    The present income tax system fails on all four points; the FairTax 
(H.R. 25) meets all four admirably and in the spirit intended.
    Therefore I urge you . . . NO, I implore you . . . to recognize the 
FairTax as the best alternative for a decent, simple, visible, and 
modern tax system for this country.
    Thank you for your attention and interest.

                                 <F-dash>

                                                    Ely, Iowa 52227
                                                    August 31, 2005

Dear Honorable Chairman Camp and Ranking Member McNulty:

    I am writing to you on behalf of my family because we desperately 
need your help. We have been improperly assessed by a flaw in the tax 
code and we need you to step forward and help save our family. In the 
year 2000 our taxable income was $105,461. For that same year we 
received an Alternative Minimum Tax of $206,191 from the Federal and 
$46,792 from the State of Iowa. A total tax of $252,893 for a gain that 
we NEVER made.
    In December of 1992 I took a chance on a small telecommunications 
start-up in Iowa called McLeodUSA. To compensate the employees the 
company used stock options as part of its compensation. This is what we 
were using to plan our future. We had saved all the options we received 
to use on building a home, our three daughters education, and our 
retirement.
    In 2000 we were ready to start building our home so we spoke to our 
financial and tax advisers to determine the best way to use the stock. 
Based on the current tax laws, they told us to exercise the options and 
hold them for a year so we would be charged long-term capital gains on 
the income. We exercised the stock but did NOT sell it. As the home was 
nearing completion we had our taxes done by an accountant and received 
this unjust tax bill. The stock value had plummeted so we borrowed 
money from a local bank to try to pay the tax. We paid the State tax in 
full and $94,484 of the Federal in payments. Our local IRS collections 
agent reviewed our case and told us there was no way we could pay the 
remainder off and instructed us to inter into the IRS's Offer In 
Compromise program. They said the OIC program was put in place to solve 
impossible situations just like ours.
    After waiting for 8 months we were finally assigned to an OIC 
Specialist. The OIC Specialist has utilized the formulas and guidance 
that our government has put into place and has informed us that we have 
been rejected from the OIC program. He told our attorney that I have 
three things going against me, I am not old, I am not disabled, and I 
have been too consistent. I have been too consistent because I've been 
employed and paying income tax since I was fourteen years old. I've 
never filed bankruptcy. I've never defaulted on a loan. According to 
the archaic computations the IRS used our family should only have 
housing and utility costs of $1,067 per month, our actual is over 
$3,700. Based on their allotment we are supposed to be able to pay 
$2,366 per month to settle the debt and a lien has been placed on our 
home. There is no way we will be able to pay this amount. We have 
appealed our case with the U.S. Tax Court but have been rejected by the 
Court also. Both the IRS and the Court say it's up to Congress to fix 
this. We desperately need Senate Finance to place a ``stay'' on the IRS 
collections pending the Sam Johnson ISO AMT remedial legislation that 
will correct this horrible wrong. Our story is a legitimate case that 
can't be disputed as being horribly wrong. Please use the powers you 
possess to right this inconceivable outright injustice. I beg of your 
help.
    I have been nothing but honest to the letter of the law in paying 
taxes my entire life. It seems incredible to me that I should be 
financially destroyed by a tax that is so unjust.
    I respectfully and urgently request your support of H.R. 3385.

                                                         Ron Speltz

                                 <F-dash>
          Submission of Jonathan Steere, Leonardtown, Maryland
    House Committee on Ways and Means:
    I am writing this letter to discuss the alternatives you are 
considering in overhauling the U.S. tax code as requested by President 
George Bush. In particular, I am in strong support of implementing a 
national consumption tax in replacement of the current federal income 
and corporate taxes. (Also known as the Fairtax.)
    Though the fairtax and flat tax proponents cite the complexity and 
cost of complying with the current income tax code as a supporting 
argument in favor of their respective tax systems, it is not one of my 
reasons for supporting tax change. I fully expect that if the tax 
system is simpler, it would promote better compliance by individuals on 
their taxes, and therefore would be easier to find tax fraud and 
lawbreakers who will cheat the system regardless of how it is formed. 
If this were the only benefit, however, I would have no interest in the 
tax change whatsoever as I don't mind the current annual 1040 tax forms 
and I don't feel huge overhauls are necessary just because some people 
break the law.
    I believe that there are incredible gains in many other areas to be 
achieved by tax reform. I wish to outline them for the Committee now.
Promote Fair Taxation
    One of the biggest fights on taxation seems to always be the 
struggle between progressive and regressive taxation. As tax rates 
increase, the incentive to hide your income at higher tax brackets 
increases, and the incentive to improve your wealth through 
entrepreneurship decreases. If tax rates become too high, then the 
wealthiest and the largest producers of jobs will strive to earn 
revenue in other countries in search of lower tax alternatives, or look 
for tax breaks here, or defraud the government altogether. If the tax 
rates are too low, then those poorest among us complain about the rich 
not paying their fair share of taxes, as the government will struggle 
to pay for low income benefits.
    Unfortunately, taxation is a necessity given the way the government 
is currently structured. But even so, the burden needs to be balanced 
and compassionate. When special interests are allowed to influence 
lawmakers through the tax code, the tax burden becomes more and more 
unbalanced, as tax laws are written to cater to the lobbyists. This 
would happen at any tax rate and any income tax system. Even if a flat 
tax was enacted, it is likely that deductions, tax breaks, and 
incentives would start to creep into the tax code in future 
administrations, thereby undoing all the great work that this Committee 
is trying to enact. Those companies or individuals that qualify for the 
tax breaks pay less than those that don't. Usually, it is the middle 
class that bears the burden, as the poor pay little or no tax, and the 
rich have the resources to utilize the tax shelters set up specifically 
for them.
    The only way to correct this imbalance is to repeal the income tax 
law entirely and revert to a form of taxation that is fair and balanced 
for all, and yet has consideration for the poor. I believe the fair tax 
fits this qualification.
Pro-Growth
    Both the flat tax and fair tax initiatives would promote growth, as 
there is equal incentive to strive for more success at any income 
level. The flat tax, however, has the chance to be undermined by future 
administrations by adjusting the tax rates, re-implementing progressive 
tax brackets that punish success, or giving incentives for special 
interest groups to re-implement complexity through narrow tax breaks 
for special activities. This can be seen in history, as President 
Reagan simplified the tax code in 1986 to two tax brackets, along with 
closing some loopholes and other changes. Twenty years and three 
presidents later, multiple tax brackets have returned and the tax code 
is as complicated as ever.
    Corporate taxes raise costs for domestic companies while reducing 
their competitiveness with foreign companies that have either lower or 
no corporate taxes. Since, it raises costs, it will do one of three 
things. It might reduce their profitability, which slows investment 
income growth. It may cause them to freeze wage increases, lower wages 
or lay people off to cut costs, which reduces the tax base and also 
slows growth. Finally, it might cause them to raise prices on the goods 
they sell, which adds to inflation. It should be easy to see that any 
of these three options result in negative consequences for the economy. 
Indirectly, it also is a form of double taxation for individuals, since 
most companies reject losing profitability in favor of passing on their 
costs to either the consumer or their employees. Competition, labor 
agreements, or resources may restrict their ability to pass these costs 
on. That leaves them with one other possibility, which is the worst of 
all for Americans. This would be that the company stop producing 
locally and import their goods from countries that have cheaper labor 
costs, cheaper resources and/or cheaper tax rates.
    This is the one area where the fair tax is superior to all other 
forms of taxation. It is the only tax system that levels the playing 
field between domestic and foreign operated companies. As I have just 
shown, other taxes make domestic goods more expensive, and many foreign 
companies do not have this problem. Removing corporate taxes actually 
has the long-term result of reducing the costs of goods manufactured or 
services provided in the United States. Although this would be replaced 
by the fair tax, it does help make American goods more competitive by 
taxing goods equally whether they are made here or somewhere else. An 
item manufactured in China would be subject to the same tax as one 
manufactured in America. But with corporate taxes removed, the Chinese 
good would cost 30% more, and the American good's price would be more 
balanced by the lowering of hidden taxes even though the 30% sales tax 
would apply. Note that this is done without invoking any protectionist 
measures that might violate foreign trade agreements and cause 
retaliation by the foreign country.
    It is clearly a political benefit to correct the corporate 
imbalance and make strides towards reducing the incentive for 
outsourcing jobs, something that was a big issue in the last 
presidential election. It also potentially could help reduce the huge 
trade deficits we experience year after year.
Taxes Previously Untaxable Illegal Activities
    One of the political benefits from using the fair tax system is 
that the taxation rate can be revenue neutral for law-abiding 
taxpayers, and still generate significantly more revenue than the 
existing tax code. For instance, according to the Office of National 
Drug Control Policy, $77 billion is spent on cocaine and $22 billion on 
heroin, $2 billion on methamphetamines, $10 billion on marijuana, and 
$2-3 billion on other illegal drugs. (Statistics are from the 
government web site below.)

http://www.whitehousedrugpolicy.gov/publications/drugfact/
american_users_spend/section1.html

    90% of this money stays in the U.S. This money cannot be taxed 
directly by any suggested tax system because it will never be reported. 
But indirectly, only the fair tax system will generate any revenue at 
all. Eventually, this money will be spent on other things. At a 30% 
taxation rate, this would generate $30 billion or more when this money 
is eventually spent legally on cars, boats and other goods. This in 
itself would pay 2.5x what is currently spent on the war on drugs, 
which is about $12 billion.
    This of course, is one type of criminal activity among thousands. 
Indirect revenue would also be achieved from prostitution, 
embezzlement, smuggling, or any other unreported revenue. It should be 
noted too, that revenue legally earned, though illegally unreported on 
tax returns would also generate indirect revenue, such as tips, casual 
labor, or other secret transactions not always reported.
    Another source of income would be from immigrants who are here 
illegally. If the current estimates are correct, then 10-15 million 
illegal immigrants are not reporting any revenue to be taxed. While 
it's highly likely that most of these would not pay taxes under the 
other suggested taxation systems, it provides a disincentive to illegal 
immigration in that goods are taxed, and yet only legal residents would 
be eligible for the fairtax prebate. Though this will probably not be 
sufficient to deter them from living here, it will be another indirect 
source of 10's of billions of dollars in taxed sales, that results in 
revenue that likely went to Mexico or another country before.
Proof of Success and Warnings
    Many years ago, I was a resident of Canada, and was able to view 
first hand the results of Canada's implementation of the Goods and 
Services Tax (GST). This is a value-added taxation scheme implemented 
by the Canadian conservative party. It was a great success 
economically, but a failure politically. I believe, however, that it 
can be used as an example of how the tax would affect the United 
States, and for what policies to avoid.
    First, it was a success in that it generated revenue for the 
Canadian government far beyond what any of the experts predicted. Its 
success has allowed the government to generate a surplus in which it 
could reduce its national debt in every year since 1997. It has also 
allowed the government to reduce the federal tax rates without 
sacrificing revenues or the surplus. This has resulted in Canada having 
a lower income tax rate in 2004 than the United States. (The first time 
this has happened in at least 50 years) As hidden taxes were removed, 
prices definitely did drop almost immediately on many goods, and 
although a few things did rise in price because of the tax, it was a 
net gain for the consumer. Overall, it was the start of a long boom in 
the economy that coincided with the boom in the U.S. It began more 
slowly at first, but took off as income tax rates were reduced in 
stages. Canada's economy slowed only slightly when the U.S. experienced 
the recession, because while Canadian income taxes were dropping along 
with interest rates, American citizens had to deal with Clinton's tax 
increases and rising interest rates.
    Unfortunately, it was a political failure in that it's 
implementation was utilized as a political issue by the opposition 
party who regained power by promising to repeal the tax. They never did 
repeal the tax, however, because of the success of the tax. The reasons 
that it wasn't a political success were twofold. First, the lack of 
understanding among the general public about it, and the fact that it 
was seen as an additional tax, since no changes were made to any of the 
other taxes Canadians were subject to, except the hidden manufacturing 
taxes.
    Clearly, in the Canadian case, the fact that the income tax 
remained was the reason for the political backlash of the GST, even 
though in the long run the economy benefited. (Also, if it were not for 
other problems the party was having at the time, this could have been 
mitigated.) The fairtax solution avoids this problem by forcing a 
repealing of all income and corporate taxation. Though there might be 
transitional difficulties as there always is with such a large change, 
the benefits in the long run far exceed any short term pain and 
confusion. I ask that you consider carefully the benefits of the 
fairtax, as I feel it is the best overall and fairest form of taxation 
available to any government looking for tax reform.
    Thank you for your consideration of this letter.

                                 <F-dash>

            Statement from Mike Strick, Seattle, Washington

    Dear Honorable Chairman Camp and Ranking Member McNulty,
    I understand that there was a House Ways and Means Committee 
hearing on Tax Simplification with regard to the Alternative Minimum 
Tax on June 15, 2004. I noticed you were looking for stories of 
``middle class'' Americans who have been affected by the current 
parameters of the AMT. I am one of those people.
    I worked for Internap Network Services, an Internet connectivity 
company, for almost two years before being laid off in April 2001. 
While I was working, I was also in graduate school for psychology to 
become a counselor. At one time, Internap's stock traded as high as 
$220/share before splitting to $110. Yesterday, Internap closed at 
about $1.00/share. I exercised incentive stock options to acquire a 
number of shares in July, August, and September of 2000 with the 
intention of holding them for the long term. I assumed I would have 
enough value in the stock that I could pay off the AMT I owed. I would 
have never guessed the stock would drop to $1.00/share and hover there 
for the next three years . . . and that I would end up owing almost 
$100,000 in AMT--money I just don't have. I find it hard to fathom that 
I owe so much because I ended up paying huge taxes on a phantom gain. 
My tax alone was more than two years worth of income for me.
    I ended up in negotiation with the IRS via an Offer in Compromise 
for almost three years. We ended up ``compromising'' so that I would 
lose everything I own (retirement savings, investments, emergency 
funds, IRA's, etc.), plus about 20% more, all to be paid over the 
course of two years. This situation has affected every aspect of my 
life and will impact my future for years to come.
    In retrospect, I realize I made a mistake by not delving deep 
enough into a complicated tax code to understand the possible outcome 
of my ISO exercises. I am working to pay off my debt as a counselor 
with developmentally disabled folks. But, I feel the AMT laws as 
written are not working the way they were intended, and I don't want 
others to have to go through the same hardships I am enduring. Change 
is needed. I would be happy to give more details or talk about my 
situation. I appreciate your time and concern and I respectfully 
request your support of H.R. 3385.

                                 <F-dash>

                                       Santa Cruz, California 95060
                                                    August 31, 2005

Dear Honorable Chairman Camp and Ranking Member McNulty,

    I submitted testimony and shared my story at previous events:

    <bullet>  April/May 2005, Senate Finance Committee, Chairman 
Grassley
    <bullet>  Spring/Summer 2005, President's Tax Reform Advisory Panel

    I now wish to share my story directly with you in hopes of 
garnering your support and leadership of the Honorable Sam Johnson's 
H.R. 3385.
    When we met with our tax preparer for the 2000 tax year, we were 
very surprised to learn that the IRS demanded from our middle class 
family AMT tax of more than $230,000 due to paper gains on stock 
options that dropped in value during the year, even though we never 
received gains in reality.
    As a result of the tax bill on the ``paper'' profits that we never 
received, we had to take out a second mortgage on our home and deplete 
our daughter's college fund to pay the IRS and avoid a threatened lien 
on our house.
    Today, we no longer have college savings for our daughter, who is 
13 years old and a straight-A student who deserves to go to a good 
American university. The irony is that all the money she needs to 
attend college is sitting with the IRS in the form of a tax credit. 
However, no matter how hard we plan, our AMT and our regular tax bills 
are nearly identical each year, so we are never able to generate a 
sufficient AMT credit to receive a refund that would put the money back 
into our hands and allow us to invest it in a 529 or other college 
savings fund on her behalf.
    Please help ordinary American families like ours recoup AMT credits 
and send our children to college.
    I respectfully and urgently request your support of H.R. 3385.

                                                   Michael Sullivan

                                 <F-dash>

                                    Somerville, Massachusetts 02144
                                                    August 18, 2005

Dear Honorable Chairman Camp and Ranking Member McNulty:

    I have submitted my testimony and shared my story at the Ways and 
Means Committee Hearing on Tax Simplification on 6-15-2004. I now wish 
to share my story directly with you in hopes of garnering your support 
and leadership of the Honorable Sam Johnson's H.R. 3385.
    I am writing to enlist your help in fixing the Alternative Minimum 
Tax (AMT) law to help me obtain more than $100,000 that I overpaid to 
the government while I can still use it to help pay for my children's 
education, care for my aging parents and, hopefully, afford retirement 
instead of having to take small credits for each of the next 20 years.
    For almost 5 years, I have worked for a company, named webMethods, 
which has created over 850 new jobs in the last four years of 
operation. To reward and retain its employees, webMethods makes 
extensive use of incentive stock options (ISO).
    As an early employee of the company, I received a number of stock 
option grants. Unfortunately, I made the grave mistake of exercising 
these options in one year and selling them in another. That action, 
coupled with the fact that webMethods was the #1 software initial 
public offering (IPO) in history, created an enormous AMT tax bill 
($250K+) for my wife and I. The taxes I paid and the value of the stock 
exists now only as a $250K AMT credit, which, as I explain below, I can 
draw at the rate of only a few thousand dollars a year.
    We had to sell most of our long term savings to pay this tax bill. 
We consider ourselves fortunate that we did not also have to sell our 
home or declare bankruptcy. All of this, just so we could pre-pay tax 
at a 28% rate when the actual tax is only 15%. You must also know that 
the AMT is affecting an increasing number of middle-income taxpayers, 
which is, and should be, of great concern to many lawmakers.
    Fundamentally, the AMT treatment of ISOs is wrong and should be 
fixed--ideally the AMT should be eliminated. That said, our immediate 
problem is the AMT tax crediting process. Each year, we are only 
credited the difference between our regular and AMT tax calculations--
for the 2002 tax year our credit was a little over $5,000. At this 
rate, it will take us more than 20 years to get our entire overpayment 
back from the U.S. Government. This delay represents opportunity cost 
for a better retirement, good schools for our children, and money to 
care for our aging parents.
    Clearly structural changes are needed, but what my wife and I want 
immediately addressed is our outstanding AMT tax credit. H.R. 3385 has 
provisions that address this issue and I respectfully and urgently 
request your support of H.R. 3385.

            Very Sincerely,

                                                   Shawn W. Szturma

                                 <F-dash>

                                         Chesapeake, Virginia 23322
                                                      July 27, 2005

Honorable Committee Members:

    I am a dentist in private practice in Norfolk, Virginia. I have 
practiced in the private sector for thirty-one years. I am also 
Treasurer of the Tidewater Libertarian Party and an observer and 
student of human behavior and economics. I note that while the free 
market has provided us with a wide array of goods and services at 
competitive prices in other areas, it has failed to do so in 
healthcare. I believe there are a number of factors related to tax 
reform that are responsible for the failure of the free market to 
operate at it's best in this segment of the economy. With the issue of 
tax reform before Congress, we have an opportunity to unleash the power 
of the market to deliver healthcare of great quality and at lower 
costs, thus making government paid healthcare unnecessary, except for 
the indigent.
    First, there is a distortion in the market mechanism because those 
who consume healthcare do not directly pay for it. Because our tax laws 
make it impossible for individual or voluntary organization group 
healthcare plans to compete with employer provided plans, the great 
majority of healthcare is paid for by employers who have little control 
over consumption or delivery of that care. There is no other equivalent 
disconnect in market forces anywhere else in the U.S. economy.
    Secondly, the marginal cost of using healthcare services is 
distorted by the nature of those employer sponsored group insurance 
policies. While catastrophic healthcare insurance is necessary for 
protecting us from unexpected and overwhelming costs, most employer 
sponsored plans include both a catastrophic insurance element and an 
element of prepaid routine care to encourage early intervention. This 
makes sense from the insurer's and the employer's point of view as 
early intervention often reduces the need for later catastrophic care. 
But from the consumer's point of view, once deductibles are paid, the 
marginal cost for consuming more healthcare services is minimal, and 
after `stop loss' limits are reached, non-existent. From the provider's 
point of view, there are liability issues to consider when making 
decisions, but no doctor has ever been sued for ordering too many 
expensive tests. This is equivalent to selling houses in such a way 
that the buyer pays full price for the living room, 20% of the cost of 
the kitchen, bathrooms, and first bedroom, and nothing at all for 
additional rooms, with a third party compelled to pay the remainder of 
the costs. There would be no reason for any homeowner to live in 
anything less than a mansion. Efforts to control those costs through 
managed care schemes have proven only marginally effective and 
detrimental to patient care.
    Finally, while the rest of the industrialized world funds 
government largely through consumption taxes, the U.S. alone relies 
entirely on taxation of personal and corporate income for government 
and social security funding. Income based taxation costs to businesses 
and individuals cascade through the production process, just like any 
other cost of doing business, and result in an embedded tax component 
hidden in the price of goods and services. This embedded tax component 
averages about 20% for goods and 25% for services of all types, but 
varies greatly depending on the income levels of those providing the 
services. For example, the services of a low wage gardener or domestic 
worker would contain relatively little embedded tax component, while 
services provided by multiple layers of highly paid professionals would 
carry a much higher than average embedded tax component. Healthcare is 
provided by general practice and specialty physicians, dentists, 
optometrists, and other providers backed by layers of technicians, 
caregivers, clerical personnel and equipment specialists all of whom 
are paid, and taxed, far above average. The tax component embedded 
invisibly in the price of healthcare has not, to my knowledge, been 
individually measured, but must be enormous compared to almost any 
other service sector, possibly as much as one third of the total cost.
    Changing from an income based tax system to a consumption tax, like 
the FairTax, (www.fairtax.org) would eliminate the tax advantage of 
employer sponsored insurance plans. Certainly, most employers, through 
negotiation with their employees, would continue to offer those plans, 
but group plans based on professional organizations, health clubs and 
religious or social organizations would be competitive. Healthcare 
insurers would again be directly accountable to those who purchase and 
use their product, reintroducing free market forces to those 
transactions. There would, at last, be incentives to patients and 
providers to control costs at the level where the choice of how much 
and what level of care is appropriate is made.
    Although healthcare premiums, and services not covered by 
insurance, would be taxed just like any other item of consumption under 
the FairTax, because the tax component embedded in healthcare services 
being eliminated is far larger than the 23% (inclusive) tax rate, the 
walk-away cost of healthcare would decline even before competition 
brought the normal efficiencies of the market to bear on how healthcare 
is delivered and consumed. Note that this would be less true for a VAT 
tax, as cascading of costs for consumables would still occur under that 
system while they do not under the single layer retail sales tax used 
in the FairTax plan.
    Finally, the other economic advantages of the FairTax plan, such as 
overall growth in the economy, investment incentives, and repatriation 
of manufacturing jobs, would leave us with a population far better able 
to directly pay those lowered healthcare costs, with less dependence on 
third party payers which distort the market.
    No doubt, many healthcare providers will balk at facing the 
competition of direct involvement in the marketplace, but why should 
the healthcare sector be exempt from the same competition and 
innovation that has made us the most free and prosperous people in the 
history of mankind? Since removing the embedded taxes, now hidden in my 
fees, reduces the cost of my services to my patients but does nothing 
to reduce my income, I see little to fear. As a healthcare 
professional, I would greatly prefer that my patients be able to afford 
my services with less strain on their budgets and more say in the type 
and extent of treatment available to them. Market forces would bring 
greater efficiencies to the delivery of healthcare, and more restraint 
to consumption of those services, further bringing down the cost 
without interfering in the choices which should be made by our 
patients, in consultation with their doctor, and not by government or a 
distant insurance company.
    That is how the free market is supposed to work, and will, if we 
just get our Byzantine income tax code out of the way. The FairTax will 
remove distortions from the marketplace in healthcare and elsewhere in 
the economy, grow our economy and individual incomes, bring back the 
manufacturing jobs we have lost, and fund our necessary government 
services with a fair and transparent system of taxation more consistent 
with our national embrace of the free market, and freedom in general, 
than any other system under consideration. I ask you to join me in 
working for this important change for the better.
    Thank you for your time and consideration.

            Sincerely,

                                          Wm. Donald Tabor Jr., DDS

                                 <F-dash>

           Statement of Paul Tadros, Kirland, Quebec, Canada

INTRODUCTION
    Invariably, some of the proposals herein may have been presented by 
others but, in many aspects, may be different and more controversial 
but pragmatic. Of course, they constitute broad concepts.
    The proposals being presented aim to (1) avoid complexity and (2) 
be equitable. While a certain degree of complexity may be necessary, it 
should not be the norm. Currently, complexity in the Code is the norm 
rather than the exception.
    The key element to drafting and implementing sound pragmatic fiscal 
policy is the existence of the political will. Does Congress and the 
Administration have the will to curb self-interests groups? Sound tax 
policy implies equitable treatment, not equality--not everyone can be 
satisfied.
    At this point, some background and insight may be warranted. I have 
been practicing U.S. international taxation for over 25 years and have 
worked in numerous countries. Until two years ago, I was a Partner--
U.S. International Tax Services with a Big 4 Firm.
    In 1980, I was part of a small group which was contracted by a 
foreign national government to make recommendations on a complete 
overhaul of its income tax regime. This national government provided us 
with extensive data of its taxpayers over a fifteen (15) year period. 
Of course, identities were not disclosed but groupings, as we thought 
to be necessary for the analyses and basis for our recommendations, 
were provided. In conducting our in-depth analysis, no element nor any 
group were ``sacrosanct.'' The ``bottom line'' shock to this government 
was that, over the fifteen-year period, its revenues would have been 
30% higher if:

    1.  There was no corporate income tax; and,
    2.  The basic rate for individuals was 17% with a basic exemption, 
at that time, of $10,000.

    Of course, the final document was substantive. To the surprise of 
that government, the public hearings produced wide acceptance for the 
proposals. Unfortunately, it succumbed to the pressures of interest 
groups and lacked the political will to tell these groups to ``get 
lost.'' Needless to say, the continuation of the status quo resulted, 
in the long term, in large fiscal deficits.
PRINCIPLES BEHIND THE SUGGESTED PROPOSALS
    1.  We must start with the principle that the concepts of capital 
export neutrality (``CEN'') and capital import neutrality (``CIN'') are 
no longer valid in today's global economic environment. In fact, they 
are contradictory. For example, we see this in the portfolio interest 
exception in section 871(h). Therefore, where is the ``neutrality''? To 
retain these principles in formulating tax policy will cause meaningful 
tax reform to remain elusive;
    2.  Encouraging compliance. A disincentive to avoid taxes is 
introduced;
    3.  Protecting and even increasing revenue flows to the Treasury;
    4.  Encouraging investment in human resources and plant and 
equipment;
    5.  Increasing productivity and making U.S.-based multinationals 
more competitive;
    6.  Increasing savings thereby putting less pressure on the Social 
Security system; and,
    7.  Keeping inflationary pressures at bay.
INDIVIDUALS
    1.  The four categories of filing status should be eliminated. 
These categories produce bias and complexity. Each taxpayer files 
separately and becomes solely responsible for his/her own tax 
liabilities;
    2.  In the areas of employment and investment income, the number of 
deductions should be significantly reduced (see points 3 and 4 below). 
Normal expenses for business (self-employed) income continue to be 
available;
    3.  Deductions for items such as mortgage interest, property and 
state taxes should be eliminated. At the same time, the deferral rules, 
etc. related to the sale of a principal residence should be eliminated. 
The gain on sale of a principal residence (subject to built-in 
safeguards) should not be taxable. Of course, losses are not 
deductible;
    4.  Dividend income from U.S. sources should be exempt. Therefore, 
any expenses attributable thereto would not be deductible. Foreign-
source dividends would be taxable at the full proposed rate (of course, 
subject to any foreign tax credit);
    5.  There should not be any distinction between capital gains and 
other investment income;
    6.  The PFIC (personal foreign investment company) rules should be 
retained;
    7.  All taxpayers will have a basic exemption of an amount equal to 
the minimum wage. In essence, this protects the most disadvantaged in 
our society while creating an equitable situation;
    8.  In relation to (7) above, a refundable child tax credit of 
$3,000 for each child under 18 years of age if and only if the total 
annual family income is less than $30,000 (basically, twice the minimum 
wage); and,
    9.  Based on the preceding, the rate of tax applicable to everyone 
should be 20%.
Some of the effects from the preceding proposals should be:
    1.  Given that $0.80 for every $1.00 earned is retained by a 
taxpayer, an incentive to earn more is created and a disincentive to 
not report is also created. A progressive system, although the 
principle is to create ``fairness,'' actually: (1) creates a 
disincentive to increase earnings because every additional dollar 
earned in ``moving to another higher bracket'' results in lower 
returns; and, (2) creates an incentive to ``avoid.''
    2.  Pressures on salaries and wages should be substantially 
reduced. This, in turn, enables U.S.-based companies to be more 
competitive while reducing inflationary pressures;
    3.  By making domestic dividends exempt from taxation, the so-
called ``Wall Street'' biases should be lessened. Companies with a good 
history of paying dividends would be rewarded by investors. More 
importantly, the investments become more of a long-term nature rather 
than ``selling'' because someone on Wall Street placed an earnings 
target on a company which was not met. In addition, this should lead to 
stronger balance sheets because it is worthwhile to raise funding 
through equity rather than debt.
CORPORATIONS
    This area would, most likely, constitute the largest overhaul. 
However, it's also the area which is prone to self-interest groups. 
This must be avoided at all costs.
    Some of the areas which should be retained include, in an 
international context, sections 367; 163(j); and 482. Nevertheless, 
updating the applicable regulations to ensure that they are in line 
with today's economic environment becomes crucial.
    Since my forte is in the international area, most of the proposals 
address this aspect. A good start was made in some of the changes in 
the American Jobs Creation Act of 2004 (``AJCA''). For example, the 
reduction of the foreign tax credit baskets to two and the 
recharacterization of overall foreign loss to domestic loss. However, 
one of the negatives was the various effective dates. This type of 
action contributes to and promotes built-in complexity which must be 
minimized.
    With regards to the controlled foreign corporation (``CFC'') rules, 
the only aspect which should be retained is that related to ``pure 
investment income.'' The following paragraphs address the draconian 
aspects of the CFC rules.
    The Subpart F provisions constitute one of the most complex set of 
rules in the Code. These were introduced in 1962 when the so-called 
principles of CEN and CIN were, perhaps, valid. Forty-three years 
later, CEN and CIN, as stated earlier, are no longer valid. To maintain 
the CFC rules to force ``neutrality'' is not appropriate. Other factors 
such as labor, country risk, etc. play major roles in investment 
decisions. All of these are not the ``same'' in all countries. In other 
words, ``neutrality,'' in this context, is no longer valid. This goes 
beyond the basis on which taxation should be imposed, i.e., residence 
or source but do illustrate that we should not be holding fast to CEN 
and CIN, depending on one's point of view, as the foundation for tax 
policy.
    When the entity classification rules [commonly referred to as 
``check-the-box'' regulations (``CTB'')] were introduced in 1997, it is 
common knowledge that various companies took the opportunity to 
minimize the excessive draconian provisions of Subpart F. Not 
surprisingly, some of these companies found themselves having to deal 
with two old Subpart F provisions, i.e., the sales and manufacturing 
branch rules. Why these even existed in the first place defies logic. 
Companies which are based in the developed countries (primarily, the 
OECD members) do not have to contend with such antiquated and stifling 
provisions. Not content with outdated and draconian provisions, once 
more Treasury tried to curtail the positive aspects of the CTB rules. 
End result, more complexity, more litigation, additional costs and 
waste of resources.
    Let us examine two areas to illustrate the ``folly'' thereof: one 
in Subpart F and one dealing with a particular sourcing rule.
    Absent the so-called ``same country exception'' and any CTB 
opportunities, interest paid between two CFCs is taxed on a current 
basis in the hands of the U.S. parent (``USP''). The following is a 
typical scenario: USP has two wholly-owned subsidiaries (``A'' and 
``B'') in Country A and Country B, respectively. A and B are brother-
sister and are corporations for all U.S. tax purposes. Both A and B 
conduct an active trade or business. However, A is extremely profitable 
and has excess cash on hand. B needs funding to modernize to become 
competitive. If A lends the funds to B, USP has Subpart F income 
taxable on a current basis. Therefore, B turns to a third-party bank to 
borrow the funds. Is this an economically efficient way to use of the 
funds of the group? Does anyone in Congress not see why ``inversions'' 
took place? For portfolio-type of investments, we already have the PFIC 
rules to address this issue. However, that should be the sole 
exception. Subjecting sound efficient allocation of resources were 
needed to current taxation is pure folly.
    What was Congress' answer? Section 7874 of the AJCA. Instead of 
repealing the draconian provisions of Subpart F which were the ``root'' 
of the problem, section 7874 was introduced. What did section 7874 do? 
Firstly, it created more complexity and, secondly, it caught 
transactions which had absolutely nothing to do with inversions. If 
another country applied a similar provision, Congress would be livid. 
To illustrate: USP owns A and B. If USP decides to form a holding 
company (``C'') in Country C and transfers the shares of A and B to C 
in a stock-for-stock exchange, would Congress accept, for example, 
Country A's position that C is now a tax resident of Country A?
    The other area deals with the sourcing rules in the 
telecommunications sector. Many countries around the world have opened 
their telecom industry to competition (previously, a monopolistic 
situation). The following is a typical scenario and one which was 
encountered:
    USCo is in the wireless telecommunications business. It wanted to 
expand outside the U.S. and saw an economic opportunity to so do. Under 
the foreign country's requirements, USCo was required to form a local 
company (``LoCo'') to apply for the license and, if granted, to operate 
the cellular business in that country. LoCo was granted a license and 
signed a significant number of subscribers in that country. All of its 
customers are ``locals.'' Its competitor was the previous monopoly 
which was not U.S.-owned (``MCo''). MCo does not have a fixed place of 
business in the U.S. and, like LoCo, all of its customers are 
``locals.'' Where does the ``idiocy'' arise? If LoCo's customer makes a 
call from his home to, say, someone in California, to LoCo, for U.S. 
tax purposes, the revenue therefrom becomes U.S. source income. At the 
same time, MCo and its non-U.S. owner do not have to contend with this 
issue. Does one see a theme emanating throughout this discussion? 
Stifling the ability of U.S.-owned enterprises to compete. Why? Because 
``we believe CEN and CIN are very valid principles on which fiscal 
policy should be based.''

    As to the corporate area, the following are proposed:

    1.  Except for income from pure portfolio-type of investments 
(which should be addressed in the PFIC provisions), repeal Subpart F in 
its entirety;
    2.  Amend the provisions of section 7874 to ensure that true ``non-
inversions'' are not caught. The ``fix'' in the ``Tax Technical 
Corrections Act of 2005'' does not solve this problem. Since the 
original provision was retroactive to March 2003, this amendment should 
also be retroactive to March 2003;
    3.  Eliminate all ``preference'' items. This, then negates the need 
for AMT and reduces the need for all the associated reporting on large 
book-to-tax differences. For example, there would not be a need to 
expense stock options. Given that employment income and capital gains 
are taxed at the same rate, the adjusted basis to the employee is 
simply the price paid for the stock on exercise thereof;
    4.  Dividends received from CFCs in an active trade or business 
should be exempt under strict reinvestment provisions. Included in the 
definition of an active trade or business would be intragroup financing 
provided the beneficiary of the funding is in an active trade or 
business; and,
    5.  Non-manufacturing income to be taxed at 20% while manufacturing 
income (as envisioned in section 199) to be taxed at 15%.
OTHER
    Due to recent developments, Congress and the Administration must 
act on ``reigning-in'' commodity traders, in particular those in the 
oil sector. In the 1990s, there was a concerted effort globally on 
putting a ``leash' on the currency traders whose actions had wreaked 
unnecessary havoc.
    Notwithstanding that there are influences which will dictate the 
price of oil, what is now occurring is that these traders are using 
every excuse to reap substantial profits at the expense of the global 
economies. For example, storms in the Gulf of Mexico always arose and 
we never saw spikes in prices. Today, just a ``whiff'' of a pending 
storm and these individuals use this as an excuse. If immediate action 
is not taken, there would be severe disruptions to economies and a 
vicious circle begins: price pressures fuel inflation which requires an 
increase in interest rates.
    Therefore, it is proposed that a special tax equal to 75% of the 
gain realized by a trader should be imposed. This may seem harsh but 
harsh measures are necessary to put back some semblance of order.
CONCLUSION
    Of course, the preceding are only in broad terms and do not purport 
to address all aspects of tax reform. They do, however, attempt to 
address those areas which would achieve the objectives as previously 
outlined.
    To reiterate, it is the belief that the proposals presented herein 
should result in:

    1.  Increasing the competitiveness of U.S. persons;
    2.  Increased revenue flows to the Treasury;
    3.  Reduced complexity and providing a foundation for fairness and 
equity;
    4.  Increased compliance by providing a disincentive to avoid 
taxes;
    5.  Protecting and even increasing revenue flows to the Treasury;
    6.  Increased investment in human resources and plant and 
equipment;
    7.  Increased productivity;
    8.  Increased savings thereby putting less pressure on the Social 
Security system; and,
    9.  Keeping inflationary pressures at bay.

                                 <F-dash>

                                     Redwood City, California 94062
                                                    August 30, 2005

Dear Honorable Chairman Camp and Ranking Member McNulty:

    I have submitted my testimony and shared my story at the 
President's Tax Reform Panel in May 2005, as well as for H.R. 5141. I 
now wish to share my story with you in hopes of garnering your support 
and leadership of the Honorable Sam Johnson's H.R. 3385.
    My story is simple, and yet so unfair and outlandish that few 
people outside of government believe it was possible. Quite simply, I 
paid $334,000 in AMT taxes for stock I never sold (and therefore never 
profited from) and which was worth less than $100,000 at the time. How 
is it possible to pay more in tax than an asset (stock) is worth? 
Alternative Minimum Tax, or AMT. I now have a huge AMT ``tax credit'' 
that I can never hope to recover. I understand the logic that was used 
to originally justify AMT, but the law as created was clearly flawed. 
Thousands, like me, have been forced to sell everything for a tax bill 
that is several times the worth of their gains/income, again, phantom 
profits.
    In my own story, I went through both severe financial and emotional 
strain. The sleepless nights, the new anti-depressants (which I never 
took before), the new 2nd mortgage was almost overwhelming. I hold on 
as an optimist to this day that this injustice will someday be 
corrected. I know of others that were not able to hold on, and who have 
taken their own lives.
    I respectfully and urgently request your support of H.R. 3385.

                                                       Ed Terpening

                                 <F-dash>

                                       Atascadero, California 93422
                                                    August 31, 2005

Dear Honorable Chairman Camp and Ranking Member McNulty:

    I wish to share my story with you in hopes of garnering your 
support and leadership of the Honorable Sam Johnson's H.R. 3385.
    I am a technical support engineer and I work for a tech company 
located in San Luis Obispo, California and live nearby in Atascadero 
with my husband and two young children (10 months and 3 years). 
Although I make a decent salary, I'm not only the primary breadwinner 
in our household, but I pretty much support the family right now. My 
husband is a part-time student, part-time stay at home dad and part-
time auto mechanic. He is back in school to earn a degree and change 
careers not only for his fulfillment, but also so that we may provide a 
better life for our children. We drive used cars and don't take fancy 
vacations. We are definitely your everyday people.
    Several years ago, I was offered stock options through my company. 
My husband and I were anxious to exercise these to hopefully have a 
long-term investment that might help in the future with college funds 
or retirement. We knew there would be tax implications and were aware 
of AMT, but felt the investment was the smart thing to do. We purchased 
those options through the years 2000 to 2002. When filing our taxes the 
following April each of those years, we were shocked at how much of our 
calculated taxes for the previous year was from AMT. It may not sound 
like much to some people, but thousands of dollars to this family is at 
least a month's expenses, maybe two. This is something we can't afford 
to be paying when we are struggling to make our mortgage each month. 
And now, being faced with more stock options offered at my new company, 
I am terrified to purchase them until I sit down and compute to see if 
we can afford to do it this time around. I'm sad to say that I predict 
we will not be able to take advantage of this opportunity.
    I respectfully and urgently request your support of H.R. 3385.

                                                     Heather Thayer

                                 <F-dash>

                                         Shoreview, Minnesota 55126
                                                    August 30, 2005

House Ways and Means Committee

Dear Members of the House Ways & Means Committee:

    My name is Phil Thompson, and I have submitted my testimony and 
shared my story at these past events:

    <bullet>  6-15-2004, Hearing on Tax Simplification, Oversight 
Subcommittee
    <bullet>  6-08-2005, Hearing on Tax Reform, Full Committee
    <bullet>  April/May 2005, Senate Finance Committee Chairman 
Grassley
    <bullet>  Spring/Summer 2005, President's Tax Reform Advisory Panel

    I now wish to share my story directly with you in hopes of 
garnering your support and leadership of the Honorable Sam Johnson's 
H.R. 3385.
    I am 44 years old. In 1997 I accepted a position as a software 
engineer with a software company located in Roseville, Minnesota. In 
addition to salary, I was given a one-time grant of 3,000 incentive 
stock options (ISOs) when I started. This was the first time I had ever 
received stock options in my life. Between 1997 and 2000, the company 
grew rapidly, and the stock split a few times, and the increasing stock 
price ended up making those options very valuable. Before the year 
2000, I had exercised and sold some of the options that had vested, 
mainly to get a downpayment for my first house. But in the year 2000, 
because more than half of my options had vested, I decided to 
accelerate exercising many of these options.
    I knew very little about the tax ramifications of exercising and 
holding ISOs, so I hired a professional tax advisor who had been 
recommended to me by several co-workers (who were in situations similar 
to mine). My tax advisor recommended an ongoing, well-timed exercise-
and-hold strategy, which would allow me to best benefit from the tax 
laws over the next several years. This seemed logical to me. 
Unfortunately, he did not warn me of the risks involved with exercising 
and holding ISOs, should the stock price decline dramatically. And 
because until that point I had only done same-day sales of my options, 
I was not familiar with the different tax treatments.
    During the year 2000, I exercised and held approximately 4,500 
options, worth approximately $470,000 on the purchase date. And for 
most of the year 2000, the stock price continued to trade considerably 
higher than my purchase price. My trading window for the year closed in 
mid-December of 2000, and even in early December the stock price was 
still above my purchase price. Of course, the stock price declined 
dramatically thereafter. I didn't realize there was a problem until my 
tax advisor told me in March of 2001 that I owed approximately $165,000 
in combined federal and state tax. I was shocked and amazed, because my 
gross annual salary at that time was only about $85,000. Frankly, I 
didn't think it was possible that a taxpayer could be required to pay 
more in taxes than he/she actually earned.
    After my tax advisor explained that I would not be able to 
discharge the AMT by selling the shares (because the AMT is an 
immediate tax on potential earnings, not on real money), I was forced 
to exercise and sell even more options in order to cover my tax 
liability. I was luckier than most, in that my company's stock price 
decline was less rapid than most tech stocks at that time.
    As of this writing in June 2005, the federal and state governments 
still hold over $108,000 of my money in so-called ``AMT credits.'' This 
is money that I could use to pay off my house, invest in my future, and 
prepare for retirement.
    After being victimized by the AMT treatment of incentive stock 
options, I have the following observations:

    1.  The alternative minimum tax can be an unfair tax on phantom 
gains that may never be realized. For incentive stock options, because 
the AMT is based on the tax that would be owed on the day of exercise, 
it does not take into account the possibility of a dramatic drop in the 
stock price. It also does not seem to take into account that for 
various reasons (holding periods, blackouts, complexity of the rules, 
etc.) a taxpayer may be unable to sell the shares in response to such a 
dramatic drop.
    2.  The AMT rules are very difficult to understand. Even with the 
assistance of a professional tax advisor, I encountered a situation 
that could have easily bankrupted me. And since the year 2000, I have 
read 2 books on the AMT, and done much Internet research on the AMT. I 
still don't feel like I understand the AMT rules very well. Each rule 
seems to have multiple ``except if'' clauses. Thanks to the complexity 
of the AMT rules, I am forced to hire a professional tax advisor every 
year to prepare my tax return. I also find it very difficult to plan 
future financial moves because I am unsure of how they will affect my 
tax liability and the return of my AMT ``credits.''
    3.  Current tax laws allow no solution to easily recovering the AMT 
taxes pre-paid on phantom profits. Even if a citizen like me is able to 
meet the tremendous burden of the AMT, the rules for returning the AMT 
``credits'' are designed to make it a very long and arduous process, in 
some cases requiring many decades. Recovery of ``credit'' is hastened 
only by dramatically increasing your earnings and/or by creating 
capital gains. And both of those solutions are not generally easy to 
do! In my personal opinion, speeding up the return of the AMT 
``credits'' is the most important part of AMT reform.
    4.  AMT ``credits'' (prepaid taxes) are lost forever if the citizen 
dies. If I was to die in an accident tomorrow, the $108,000 of mine 
that the government holds in AMT ``credits'' would be lost to me and my 
heirs forever.

    Although the tax rules claim to provide a benefit for investors who 
exercise stock options and hold onto the stock, I will never again 
exercise and hold any incentive stock options. Because of the AMT 
treatment of ISOs, it's just too much of a gamble.
    I respectfully and urgently request your support of H.R. 3385.
    Thank you for your attention.

                                                   Phillip Thompson

                                 <F-dash>

                                     Tewksbury, Massachusetts 01876
                                                      June 20, 2005

To Honorable Chairman William M. Thomas and House Ways and Means 
    Committee

Dear Chairman Thomas and Committee Members:

    In 2000 my husband and I purchased some of my options from Nortel 
Networks. I had been there for over 8 years so the options were fairly 
low priced. Our goal was to start acquiring shares to sell at some 
point to put towards our kids education, we figured if we bought and 
held for a year we would have 20% more to put down, but not having to 
pay the short-term capital gains. Logical, until we learned that next 
April 15th that we owed the government approximately $75,000 for shares 
that we paid approximately $8,000 for.
    I left my accountants office is tears. And since my accountant is 
my Dad, he felt pretty bad about it. We didn't have $75,000 available; 
we had to take it out of our home equity loan. I was physically sick 
for a month thinking about it.
    It is now 2005 and we finally did get to recuperate some of our AMT 
tax when we sold some shares in 2003, but it is going to take us 3-4 
years to get it all back. So our kids got whacked in the end with us 
not being able to put as much money into their college savings funds. I 
am lucky that my husband makes over $100,000 a year and it won't take 
us 20 years to get back all the money. I can't imagine all of the 
people out there that don't make a lot of money and were just trying to 
get ahead and their lives were ruined financially.
    Some of the stories of the people who are members of ReformAMT are 
heart wrenching. People lost their homes, declared bankruptcy . . . 
etc. I am only thankful that I was not one of those people and was 
fortunate enough to have the financial means to deal with the loss.
    Please contact me if you need any more information.

                                                      Susan Timmons

                                 <F-dash>

                                            Batavia, Illinois 60510
                                                    August 26, 2005

Dear Honorable Chairman Camp and Ranking Member McNulty:

    I have not previously submitted my testimony to any previous Ways 
and Means Committee proceedings.
    I now wish to share my story directly with you in hopes of 
garnering your support and leadership of the Honorable Sam Johnson's 
H.R. 3385.
    I am writing for myself and others in a similar position who have 
suffered financial hardships as a result of the Alternative Minimum 
Tax.
    I work for a small technology consulting firm that used incentive 
stock options as part of its compensation. Believing in the company and 
its future and being hamstrung by rules that dictated when I had to 
exercise and when I could sell, I exercised and held good portions of 
the stock granted to me as ISOs. However, the antiquated and complex 
rules of the AMT, as I understand were created to catch the wealthiest 
individuals in the U.S. from sheltering gains from the government, have 
now caught unaware many middle and upper middle class Americans who 
have worked hard for what they have earned. Since the AMT requires the 
gains to be calculated at the time of exercise not at the time of sale, 
I owed nearly $250,000 in taxes based on paper profits not on actual 
gains. Calculating tax on paper gains is wrong and unfair. While I did 
not suffer as badly as others, at the time the $250,000 was twice my 
annual income. While I continue to work for the same company today and 
I continue to hold its stock, I am very disenfranchised with the tax 
policy and urge you to take a stand and retroactively eliminate the 
AMT. Demonstrate to the people that you represent, that you believe the 
government should not continue to support unfair tax policies and now 
tax policies that discourage individuals from taking chances with small 
businesses.
    Thank you for your time and consideration.
    I respectfully and urgently request your support of H.R. 3385.

                                                        Daniel Toth

                                 <F-dash>

                                           Winnetka, Illinois 60093
                                                    August 22, 2005

Dear Honorable Chairman Camp and Ranking Member McNulty:

    I have submitted my testimony and shared my family's story at these 
events:

    <bullet>  6-15-2004 Hearing on Tax Simplification, Oversight 
Subcommittee
    <bullet>  Spring/Summer 2005, President's Tax Reform Advisory Panel

    I now wish to share my story directly with you in hopes of 
garnering your support and leadership of the Honorable Sam Johnson's 
H.R. 3385, the AMT Credit Fairness Act.
    My name is Ron Vasaturo and I am writing on behalf of the Vasaturo 
family. We're writing to ask that you help change the Alternative 
Minimum Tax (AMT) provisions which have caused a great hardship to our 
family, unfairly. We ask that you recommend reform to the Alternative 
Minimum Tax provisions to allow the AMT credit for the Prior Year 
Minimum Tax to be applied up to 100% of the taxpayer's ordinary income 
tax. We are middle income taxpayers in our 50's that have a large AMT 
credit we will take to our grave unless the AMT provisions are revised 
to allow use of the credit towards ordinary income tax.
    In 2001 we had to pay an extremely large alternative minimum tax--
$250,000--for money we never received and never will receive. The 
$250,000 AMT tax was on top of the taxes we paid on our earned income. 
In 2000, I worked for a high technology company that provided me with 
incentive stock options each month, in lieu of any annual salary 
increases. Because my wife and I were in our 50's we decided to 
exercise the stock options each month and set aside the stock for 
retirement purposes. The company encouraged this, emphasizing the 
benefit of long-term capital gains if we held onto the stock. We had no 
idea that the difference between the exercise price and the market 
value of the stock at the time of exercise would be considered income 
for alternative minimum tax purposes. We had never experienced stock 
options before. We thought we were to pay any taxes owed when we sold 
the stock, if we realized a gain. Having worked hard our entire lives 
and saved conservatively for a hoped-for retirement, we have always 
paid our fair share of taxes as part of what it means to be citizens of 
this country. So we expected that any real gain from stock options 
would be appropriately taxed. However, in 2001, when we prepared our 
tax return, we learned of our mistake and our whole world turned upside 
down.
    By 2001 the stock had dropped precipitously in value (the tech 
bubble burst), and, within a few months, my employer went bankrupt and 
I lost my job. We sold the stock for pennies a share, at a very 
substantial capital loss. We paid the huge AMT sum we owed in 2001 by 
liquidating our bank account and retirement mutual funds, funds we held 
sacrosanct and had never touched before. Understandably, we had spent 
many years saving towards achieving a retirement that could provide us 
with at least some dignity in our ability to meet life's future costs 
(medical expenses, etc.). Because of our ages (now 55 and 57), we are 
possibly the flip side of what is too commonly, and easily, thought of 
as the young college graduate who joins the Internet dot-com for fame 
and quick riches. We simply do not have the earning years left to 
recoup what the AMT has taken from us as taxes for money that we never 
received.
    As we understand, the AMT we paid because of incentive stock 
options is supposed to be a pre-paid tax that can be recouped in later 
years. That is not the way the law is working for us. We don't earn 
anywhere near enough income to be able to use our AMT credit. 
(Ironically, President Bush's recent tax cuts exacerbated this 
situation.) In order to be able to use the credit, one has to have a 
very high income--otherwise the ordinary tax does not exceed the AMT, 
and one can't use the credit.
    In 2001 and 2002 when we sought assistance and information from the 
IRS on how incentive stock options, capital losses, and AMT work, we 
only received incorrect and conflicting information. The IRS staff, and 
I spoke to several different people at the Service, did not seem to 
understand how the alternative minimum tax provisions work. When we 
sought assistance from tax accountants, we discovered the tax 
accountants did not understand this complex area of the law.
    This seems very unfair that we have been victimized so harshly by 
the unintended consequences of the Alternative Minimum Tax. We ask that 
the law be revised so that we can fully apply the credit to our 
ordinary income tax. We are seeking your help in recommending that 
taxpayers be allowed to apply the AMT credit for the Prior Year Minimum 
Tax up to 100% of their ordinary income tax.
    Thank you very much for the opportunity to provide you these 
comments and we hope that this Panel will recommend changes to the law 
that will enable us to fully use our AMT credit so that we can one day 
pursue a retirement that we have worked so long and hard towards.
    I respectfully and urgently request your support of H.R. 3385.

    Very Sincerely,

                                                    Ronald Vasaturo

                                 <F-dash>

            Statement of Mike Wertheim, Oakland, California

    I have submitted this story in previous years. I am submitting my 
story now to ask you to please support bill H.R. 3385.
    I am an average middle class employee. In 2000, I worked for an 
Internet company called Critical Path. I received incentive stock 
options as part of my compensation. I exercised the stock and have not 
sold it. No one ever advised me to sell the stock before the end of the 
calendar year to avoid certain Alternative Minimum Tax problems. By the 
time my accountant prepared my income tax bill for 2000, the 
Alternative Minimum Tax on my stock was $64,000. This is despite the 
fact that the current value of the stock at the time was only $8,000 
(and is now worth only $500). The $64,000 tax bill far exceeded my net 
worth.
    I paid the entire $64,000 tax bill on April 15, 2001 and generated 
a $64,000 tax credit, by liquidating savings and borrowing money from 
my family. At this rate, it will take me over 20 years to use up my AMT 
credit because the tax code allows me to apply only $3,000 of my AMT 
credit towards my income tax each year. Essentially, I have been forced 
to make a $64,000 20-year loan to the government interest-free.
    Some day my wife and I would like to buy a house and send our 
daughter to college, but both of those plans are on hold until we can 
regain our financial standing. After my parents loaned me money to pay 
my tax bill, the rest of the family is feeling the financial pain, too. 
My parents, who are both in their 60's, no longer feel that they have 
enough money for their retirement. All of this happened because the AMT 
laws forced me to pay a large tax on income that I never actually 
received.
    H.R. 3385 will be a great improvement to the tax code. Taxes should 
not exceed the value of the actual gain being taxed. It will make it 
possible for people in my situation to make quicker use of AMT credit. 
I respectfully and urgently request your support for H.R. 3385.

                                 <all>

</pre></body></html>
